<html>
<title> - LEGACY OF THE TRANS-ATLANTIC SLAVE TRADE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                LEGACY OF THE TRANS-ATLANTIC SLAVE TRADE

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON THE CONSTITUTION, 
                   CIVIL RIGHTS, AND CIVIL LIBERTIES

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 18, 2007

                               __________

                           Serial No. 110-63

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                     U.S. GOVERNMENT PRINTING OFFICE

39-707 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

  Subcommittee on the Constitution, Civil Rights, and Civil Liberties

                   JERROLD NADLER, New York, Chairman

ARTUR DAVIS, Alabama                 TRENT FRANKS, Arizona
DEBBIE WASSERMAN SCHULTZ, Florida    MIKE PENCE, Indiana
KEITH ELLISON, Minnesota             DARRELL ISSA, California
JOHN CONYERS, Jr., Michigan          STEVE KING, Iowa
ROBERT C. ``BOBBY'' SCOTT, Virginia  JIM JORDAN, Ohio
MELVIN L. WATT, North Carolina
STEVE COHEN, Tennessee

                     David Lachmann, Chief of Staff

                    Paul B. Taylor, Minority Counsel



                            C O N T E N T S

                              ----------                              

                           DECEMBER 18, 2007

                                                                   Page

                           OPENING STATEMENTS

The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, Chairman, Committee on the 
  Judiciary, and Member, Subcommittee on the Constitution, Civil 
  Rights, and Civil Liberties....................................     1
The Honorable Trent Franks, a Representative in Congress from the 
  State of Arizona, and Ranking Member, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     3
The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     5
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Member, Subcommittee on the Constitution, 
  Civil Rights, and Civil Liberties..............................     7
The Honorable Steve Cohen, a Representative in Congress from the 
  State of Tennessee, and Member, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     9

                               WITNESSES

Professor Charles Ogletree, Director of the Charles Hamilton 
  Houston Institute for Race and Justice, Harvard Law School
  Oral Testimony.................................................    11
  Prepared Statement.............................................    13
Ms. Kibibi Tyehimba, National Co-Chair, National Coalition of 
  Blacks for Reparations in America (N'COBRA)
  Oral Testimony.................................................    21
  Prepared Statement.............................................    23
Mr. Roger Clegg, President and General Counsel, Center for Equal 
  Opportunity
  Oral Testimony.................................................    28
  Prepared Statement.............................................    30
Reverend M. Thomas Shaw, III, SSJE, Bishop of the Diocese of 
  Massachusetts
  Oral Testimony.................................................    41
  Prepared Statement.............................................    42
The Honorable JoAnn Watson, Council Member, Detroit City Council
  Oral Testimony.................................................    67
  Prepared Statement.............................................    69
Mr. H. Thomas Wells, Jr., President-Elect, American Bar 
  Association
  Oral Testimony.................................................    72
  Prepared Statement.............................................    74
Stephan Thernstrom, Winthrop Professor of History, Harvard 
  University
  Oral Testimony.................................................    82
  Prepared Statement.............................................    84
Professor Eric J. Miller, Assistant Professor of Law, Saint Louis 
  University School of Law
  Oral Testimony.................................................    87
  Prepared Statement.............................................    89

                                APPENDIX

Material Submitted for the Hearing Record........................   104


                     LEGACY OF THE TRANS-ATLANTIC 
                              SLAVE TRADE

                              ----------                              


                       TUESDAY, DECEMBER 18, 2007

              House of Representatives,    
              Subcommittee on the Constitution,    
                 Civil Rights, and Civil Liberties,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:10 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable John 
Conyers, Jr. (Chairman of the Committee on the Judiciary) 
presiding.
    Present: Representatives Conyers, Nadler, Davis, Ellison, 
Scott, Watt, Cohen, Franks, Issa, King, and Jordan.
    Also Present: Representatives Delahunt and Jackson Lee.
    Staff Present: Kanya Bennett, Majority Counsel; Keenan 
Keller, Majority Counsel; David Lachmann, Subcommittee Chief of 
Staff; Paul B. Taylor, Minority Counsel; Crystal Jezierski, 
Minority Chief Oversight Counsel; and Caroline Mays, 
Professional Staff Member.
    Mr. Conyers. Good morning. The Subcommittee will come to 
order.
    I am delighted to call up H.R. 40, a commission to study 
reparation proposals for the African American Act, and this 
hearing is being conducted through the auspices of the 
Subcommittee on the Constitution. Its Chair, Chairman Jerry 
Nadler, has kindly agreed to let me move this forward. I am 
joined by the distinguished gentleman, Mr. Franks, who has 
agreed to be the Ranking Member, as usual, on the Committee. We 
will begin by some brief comments. I will put my full statement 
into the record.
    Essentially, this is a first-time historical examination of 
the circumstances surrounding the enslavement trade of Africans 
in the colonies in the United States. The purpose of the 
measure before us, House Resolution 40, is to create a 
commission to examine the institution of slavery, its lingering 
effects, and to make a series of recommendations to the 
Congress. So we do that through a commission that would 
consider a number of questions, and we would have a seven-
person commission--three members appointed by the President of 
the United States, three appointed by the Speaker of the House 
of Representatives and one member appointed by the President 
Pro Tempore of the Senate. These persons would be especially 
qualified to serve on the commission by virtue of their 
education, training or experience, particularly in the field of 
cultural relations, sociological considerations, African 
American studies, and other things.
    The interesting thing about the way this Committee is 
designed is that we do not limit it to merely the 
commissioner's testimony. We would have field hearings where 
Americans across the country would be able to give their 
impressions and their views and opinions. We are delighted that 
this effort has now gone beyond the discussion stage, 
introduced in 1989, and we come to this hearing about 13 days 
from the 200th anniversary of the moment when the abolition of 
the trans-Atlantic slave trade took place, where the government 
decided that the kidnapping, purchase and commercial export of 
Africans would be no more; but it would take 57 years later to 
end the institution of slavery in 1865, the 13th amendment, 
then the 14th amendment and, following, the 15th amendment, 
which were to serve guarantees to Africans and African 
Americans of their equal rights and opportunities and 
protections. So we are here to not examine what your view is on 
reparations in particular, but more as to whether we should 
have a study and whether that would be useful and purposeful.
    Normally now, our studies are generally a way of 
sidestepping some immediate consideration. Most of us know the 
drill in the legislature. If you do not want to act on it, 
create a study, and that will take the heat off of it for a 
while.
    This is one of the rare instances where there is resistance 
even to a study, and it seems to me that the relationship of 
that ugly period of the enslavement trade and how we dealt with 
it and how it fit into the very formation of this country is a 
very, very important one.
    I noticed just in today's paper, on the front page of one 
of the big papers, that the incidence of police brutality has 
increased 25 percent this year. The dropout rate of African 
Americans is double that of anybody else. Schools are now more 
segregated than they were 40 years ago. The poverty rate of 
African Americans is double the national average; and of 
course, in this Committee the mandatory sentencing in the 
crack-cocaine minimums, and the disparity, has been revisited. 
We have, I think, an optimistic situation developing in that 
regard.
    But one of the things that I would like to have looked at 
more--and I am only sorry that this Committee cannot do it--is 
to examine the relationship between the institution of slavery 
in this country and the present-day effects. What is the 
relationship?
    This bill had been introduced 18 years ago, and we have had 
a number of legal developments. J.P. Morgan, a couple years 
back, established a $5 million scholarship funded for 
Louisiana's African students. The next year, a Federal appeals 
court ruled that U.S. corporations can be found guilty of 
consumer fraud for failing to disclose their roles in slavery, 
which is being inquired into quite regularly. Four States have 
issued formal apologies for slavery. There have been 
documentaries and quite a bit of activity going on, but the 
efforts to officially examine the legacy of slavery have been 
disjointed and have failed to reach the heart of the issues.
    So it seems to me that there ought to be an historical 
Federal role that deals with the subject matter. I hope this 
will begin a national dialogue. To do what? To heal. Not to 
divide, but to bring us together; not to heighten the division 
that, to me, is too prominent here.
    So to have our witnesses--Professor Ogletree; our cochair 
of N'COBRA, Ms. Tyehimba; Professor Clegg; Reverend Father 
Shaw; Eric Miller, and others here, Councilwoman JoAnn Watson 
from Detroit--it is a great way to start this discussion.
    I am happy now to turn to my colleague, the Ranking Member 
of this Committee, Mr. Franks, for any observations or 
comments.
    Mr. Franks. Well, Mr. Chairman, thank you so much.
    As I have been sitting here listening to some of the things 
you have said, it is very compelling and it is very moving, 
some of the emotions that are evoked. So I want to start out by 
saying that I know that this--you know, when we deal with the 
core issue of enslaving our fellow human beings, God's 
children, it is an issue that moves us all to the core. It 
certainly moves me to the core. I believe with everything in me 
that, if I had been alive in those days, I would have been an 
abolitionist. It is ironic that the issue that brought me here 
to Congress was one that I hold in great parallel, and I know 
that it is not easy for me to make the comparison here this 
morning, but I feel compelled that I have to do it.
    The Dred Scott decision, which is a little over 150 years 
old now, said that the black man was not a person in the 
Constitution. It quoted and said, ``A Negro whose ancestors 
were imported into this country and sold as slaves were not 
intended to be included under the word `citizens' in the 
Constitution, and can therefore claim none of the rights and 
privileges which that instrument provides for and secures to 
citizens of the United States.''
    In retrospect, it is easy to see the sickness and evil of 
such a decision. Yet, I am concerned, Mr. Chairman, that in the 
effort to address this, that we may be trying to penalize those 
who did not do such a thing and help those who were not the 
ones who were wronged in the first place. But I understand the 
need to address the issue, especially as we consider the impact 
and the effects that it has had today.
    The Chairman talked about the impact of today, on today, of 
slavery of the past, and I believe he is exactly right. I 
believe there has been tremendous effects on this society of 
what a terrible tragedy slavery was. It had run rampant 
throughout the world for 7,000 years. When it finally came to 
America, because we held these truths to be self-evident that 
all men were created equal, we had this discourse in our own 
souls, and we said this cannot stand. It took a little Civil 
War, a Constitutional Convention, as it were, to change that 
tragic Supreme Court decision of Dred Scott.
    The reason I make that comparison, Mr. Chairman, knowing 
that it is difficult for me to do and perhaps for you to hear, 
is that I believe that the Roe v. Wade decision of today is so 
similar. It takes the unborn children and simply says that they 
are not persons under the Constitution. I think if we are going 
to address a past tragedy like abortion on demand that took the 
right to live of fellow human beings and desecrated who they 
were, their human dignity, that we must be very careful not to 
be doing the same thing today, because otherwise it robs us of 
our moral foundation in the first place. It seems like we are 
never quite so eloquent as when we decry the crimes of the past 
generation and never so staggeringly blind as when we consider 
the crimes against humanity in our own generation.
    So, Mr. Chairman, I kind of went off on that, not to really 
relate it to my written opening statement. So let me just make 
a few formal comments.
    Slavery in America was a moral outrage. It is difficult to 
imagine a more vile denial of the self-evident truth proclaimed 
in our own Declaration of Independence that all men are created 
equal, that they are endowed by their Creator with certain 
inalienable rights. Among these are life, liberty, and the 
pursuit of happiness.
    Now, some have advocated the study of programs that would 
grant benefits to some today as compensation for the actions of 
others, long dead, who are responsible for creating the evil 
legacy of slavery. But I fear that path leads not off one 
cliff, but perhaps many. I am afraid such a program would 
aggravate racial tensions while being doomed to fail in its 
goal of achieving justice today, because it would inevitably 
require the government to measure drops of blood or shades of 
skin to determine who could qualify for such a program, leaving 
America a confusing quilt of alleged victims and victimizers.
    Such a program, to avoid chaos, would have to ignore the 
jagged edges of history in which Black Africans and Arabs 
enslaved the ancestors of African Americans in which there were 
thousands of Black slave owners in the antebellum United 
States. Such a program would have to gloss over the role played 
by thousands of White Union soldiers who died fighting for the 
successful abolition of slavery in 1865, and their descendents. 
It would also have to gloss over the thousands of nonmilitary 
heroes who lost their lives for promoting abolition and for 
operating underground railroads. Such a program would have to 
factor in the last many decades in which job quotas, racial 
preferences and racially derived target goals have been in 
effect.
    The legacy of slavery would also--and this is hard--have to 
encompass the actions of leaders in the Democrat Party who are 
the most ardent defenders of slavery and of the Jim Crow laws 
that followed and of the 1856 decision of Dred Scott that was 
handed down. That decision, one of this Nation's very most 
notorious and tragic examples of rank judicial activism, denied 
Congress the authority to ban slavery in the Federal 
territories. But the Democrat Party defended that decision just 
as it defends the Roe v. Wade decision of today. In fact, it 
was the commitment in the heart of a group of people who said 
``slavery was evil'' that gave birth, in a sense, to the 
Republican Party in the first place, and that commitment 
sustained them in the crucible of a horrible Civil War that saw 
the end to this tragic practice of 7,000 years.
    With the stroke of a pen, seven Supreme Court justices, 
just as they wrote the unborn out of the Constitution, 
dehumanizing them, dehumanized slaves to only three-fifths of a 
person. Abortion on demand grew out of the Eugenics movement, a 
movement known for its racism and devaluing of human life, just 
as it was the founding movement of the Nazi Holocaust. 
Everywhere we find those who will decry the legacy of slavery 
and the atrocities of World War II. We find that everywhere, 
and that is right and good. But where are the defenders of the 
unborn today, who are the glaring example of repeating a past 
tragedy? There are many actors who played roles in the history 
of slavery. You would tear the Nation apart to even begin to 
try the impossible and to officially separate them once and for 
all.
    What are the injustices suffered by Latinos and Asian 
Americans or Irish and Italian Americans who came here well 
after the ratification of the 13th amendment? The legacy of any 
reparation's regime would be marked as much for those it left 
out as for those it included.
    Author Shelby Steele expressed the following concerns 
regarding slavery reparations in Newsweek, not too long ago. 
Mr. Steele wrote, ``When you do not know how to go forward, 
sometimes you find an excuse to go backward. You tell yourself 
if you can just get a little more justice for past suffering, 
that you will feel better about the challenges you face. So you 
make justice a condition of your going forward. But there is no 
justice, unfortunately, for past suffering, and sometimes to 
believe it only guarantees more suffering.''
    Now, Mr. Steele's comments do not reflect my own 
perspective completely, but he does make some powerful points. 
If we are really committed to making America be that place 
where human dignity is held in reverence, above all other 
things, then to do that we must first stop the tragedy of the 
desecration of innocent human life that takes place today. 
Before the sun sets today in America, not 150 years ago but 
today, 4,000 unborn children will die. Their mothers will never 
be the same; they will each be alone, and all of the gifts that 
they might have brought to humanity will be lost forever.
    I just hope we will approach this hearing with the intent 
to move forward. With that, I look forward to hearing from all 
of our witnesses today and with sincere respect for the 
Chairman. Thank you.
    Mr. Conyers. Well, thank you so much, Randy Forbes, from 
Virginia. I mean I am sorry--excuse me--Mr. Franks. Excuse me.
    Mr. Franks. He would have said the same thing.
    Mr. Conyers. Well, the question that you leave me with is 
maybe we should consider holding some hearings on the abortion 
question since you raised it so much. Guess who has 
jurisdiction over that? The Judiciary Committee.
    Mr. Franks. Mr. Chairman, I would be delighted beyond 
measure to do that.
    Mr. Conyers. All right. I have never linked them up, but 
you raise an important consideration that on its own merit 
ought to have a hearing. I thank you for your statement. Thank 
you very much.
    Now I turn to the Chairman of the Constitution Subcommittee 
in the Judiciary, the gentleman from New York, Jerry Nadler.
    Mr. Nadler. Thank you, Mr. Chairman.
    Mr. Chairman, let me begin simply by saying that the 
examination of this whole question, which is way overdue, is 
not served by distortions of history such as we just heard in 
trying to blame slavery on current political parties. Our 
ancestors all played different roles in them.
    Take a look at a good Democrat like Senator Lyman Trumbull 
of Illinois, who was a Democrat, an anti-slavery Democrat, who 
joined the Republican Party after defeating Lincoln for the 
Senate. He was the chief author of the 13th amendment. After 
reconstruction, he returned to the Democratic Party and was 
counsel to Samuel J. Tilden, and went on to become the chief 
defender of Eugene V. Debs in the Pullman Strike of 1894. He 
was a good Democrat. He took a detour into the Republican Party 
to oppose slavery. Then he returned to the Democratic Party. I 
do not think it serves a function in today's politics to talk 
about which political party was responsible in the antebellum 
past, 150 years ago.
    Let me say that I want to begin by recognizing the 
Chairman's, Mr. Conyers', many years of work on this important 
issue.
    Your leadership, Mr. Chairman, has helped move us closer to 
the day when this Nation may finally come to terms with its 
past and with the consequences of the slave trade that remain 
in our Nation today. As America strives to become a more 
perfect Union, we must never forget the stains that mark our 
past and that still mark our present.
    My own city of New York was a major port city and operated 
as a hub for the slave trade. African slaves played a key role 
in the building of the city, and they directly contributed to 
New York's prosperity. Earlier this year, we dedicated the 
African burial ground national monument and gave those who were 
buried there the proper recognition--or the beginning, I should 
say, of the proper recognition and respect they deserve.
    This hearing looks not just to the past but to the legacy 
of our own history of slavery as it continues to affect race 
relations, economics, equality and inequality in present-day 
America. It is our duty to ask the difficult questions and to 
face up to our responsibility to remedy the ongoing injustice 
of that legacy which remains a part of our society. As America 
continues to address the impact of slavery, we need to ensure 
that the promise of equality becomes a reality. This hearing is 
not simply a history lesson, but a careful and critical look at 
the society we have become, in part because of our history and 
because of our failure to come to terms with that history.
    Mr. Chairman, we are now at the 400th anniversary of the 
founding of the first English settlement in America at 
Jamestown. For 250 of those 400 years, starting a mere 12 years 
later, we had chattel slavery of Africans in this country. For 
another 100 years after that, totaling 350 years of the 400, we 
had de jure segregation, Jim Crow laws and apartheid laws on 
the books of our country. It is only in the last 50 years of 
that 400-year period--one-eighth--that we have said as a 
society that that was wrong.
    We have not fixed those problems. We have begun. We have 
made considerable progress. We still have a long way to go. It 
would indeed be very surprising, after chattel slavery and 
apartheid as a matter of law for a total of 350 of our 400-year 
history, if we were now free of the legacy and of the effects. 
Many of our great fortunes, many of our great corporations were 
built and remain standing today on foundations built by the 
labor of slaves.
    We have as a Nation, Mr. Chairman, looked at our historic 
injustices in many other cases. As in the case of the 
internment of Americans of Japanese descent in World War II, 
not all that long ago, we have acted to recognize the wrong and 
to make amends to the extent that is in our power. It is not in 
our power to adequately make amends for slavery. It is 
certainly in our power to do what we can. Nations that fail to 
recognize their own pasts and that fail to overcome them never 
truly free themselves from their past.
    Today, we begin the task of truly freeing America from its 
history of slavery, and I certainly endorse it. As you know, I 
have been the cosponsor ever since I have been here, I think of 
your bill to establish a commission to examine all of this with 
a view toward future action. I think it is imperative that the 
United States opens those pages of history further than they 
have been opened, that it examines all of this with a clear 
eye, that it examines not only our history but the effects 
today in our history, and what we can do about it to make our 
Nation freer and more just. I thank you for leading this 
effort.
    I yield back the balance of my time.
    Mr. Conyers. I thank you so much.
    I turn now to the gentleman from Iowa, himself a Ranking 
Member of a Subcommittee on Judiciary. We are glad that Steve 
King is here with us this morning.
    Mr. King. I thank you, Mr. Chairman.
    I appreciate being recognized, and I understand that we 
have some witnesses who I am very much interested in listening 
to, so I will just compress my remarks if I can.
    I appreciate the remarks that have been made here by the 
other Members of the Committee. Particularly, I focused on 
those of Mr. Franks, with whom I wish to associate myself in a 
lot of ways, and especially because of the remarks he has made 
this morning.
    As I listen to the comments that are made, I think back 
through this course of our history, and I think of a time 
that--well, in my office, under a glass coffee table, is a 
leather-bound New Testament Bible that my great uncle, five 
times great, carried with him. It was presented to him--and it 
is written in there in pencil in his sister's hand--on the eve 
of his departure for the war, which was the Civil War. I would 
have to go back and look at the date, but it was 1862. He 
walked off to the war on that day. He walked home from the war 
and in the door 3 years to the day from the time he left. There 
are verses in there that are underlined in pencil. There are 
flyspecks on that Bible. It is an old, old document now, but it 
is a connection that my family has to the abolitionists within 
our history with the legacy of some responsibility that I have 
to continue on today.
    My great grandfather was killed in the Civil War, and all 
of his artifacts were lost in the process. His father was a 
founder of the Republican Party, and they were instrumental in 
the nomination of Abraham Lincoln because they were 
abolitionists, and they paid a price. They paid the price of 
the loss of one of their sons, and I would not be here today if 
he had not fathered children before he went to the war.
    So this is something that runs deeply within me, that has 
been part of our family legacy. I have grown up with the 
knowledge of this effort. I could go more into family trees. 
Six hundred thousand people died in the Civil War, that 
constitutional convention that was brought about in such a 
brutal fashion, approximately half on each side of that. All of 
those killed on the southern side were not killed because they 
were fighting to defend slavery, many of them were fighting to 
defend States rights, so we cannot presume that it was a half-
and-half situation. I do not know what those numbers might be. 
I do know that when I look at that Bible and I think about the 
legacy of my family and that that represents the legacy of 
thousands and thousands of families in this country, White and 
Black, I believe that reparations were paid for in blood more 
than a century ago. I believe that we need to pick up and move 
on.
    I would point out also that if there is a legacy, there are 
also legacies left over from government programs that have 
affected the families, not just Black families but all families 
in America, that have been destructive to the family. I think 
Shelby Steele has written about that, who Mr. Franks had 
quoted. I know Thomas Sowell has, and I have great reverence 
for both of those very intellectual scholars.
    I will point out also that if there is a legacy, then there 
are legacies for other experiences with slavery. I might direct 
your attention to a book written by a professor at Ohio State 
University. His last name is Professor Davis. The title of the 
book is ``Christian Slaves, Muslim Masters.'' He studied the 
history of White slavery in the Mediterranean in the 1500's 
just before the legacy of Black slavery in America began. 
Through that period of time, that century of the 1500's from 
about 1507 or 1508 on until the end of the century, there were 
about 1\1/4\ million Christians who were pressed into slavery 
by the Barbary pirates. They were put down in the hulls of 
those ships, they pulled the oars, they were put into the 
construction business, and built the edifices along the Barbary 
Coast of the northern coast of Africa.
    There is no genetic legacy for them. The men were pressed 
into slavery. They were never allowed to reproduce. They were 
worked to death or killed, and some of them were just simply 
buried at sea when they were worked to death on the oars of 
those boats. The women--and there were few of them--were 
pressed in as concubines. Occasionally, you will see some blue-
eyed people on the northern coast of Africa. Some believe that 
is the legacy.
    So my point is that slavery is not unique here to the 
United States. It is an abhorrent thing. I think it was worth 
the blood, I think it was worth the sacrifice. But I believe 
that we owe it to the people who gave their lives for this 
freedom. It is a fundamental belief that we have that Mr. 
Franks spoke to, and it is in our Declaration. It was a long 
time coming to honor the language that was there, but I think 
we owe it to them to pick it up and to move forward and to not 
be dragging this legacy.
    I will be listening to the comments, and I know that it is 
heartfelt on the part of the Chairman. We disagree on whether 
we should go forward with this because I believe we ought to 
look forward to the future. I think we ought to let the legacy 
of the past inform our actions for the future, but I do not 
believe that any reparations that might come for Americans who 
are descended from slaves can possibly be a reparation that 
would be equivalent to the reparations that have been paid in 
the blood of people who gave their lives to free the slaves.
    Thank you, Mr. Chairman. I yield back.
    Mr. Conyers. Thank you, Steve King.
    Before the witnesses begin, I am going to yield for a brief 
comment from Mr. Cohen, Steve Cohen of Memphis, Tennessee.
    Mr. Cohen. Thank you, Mr. Chairman and Members of the 
Committee. I appreciate your recognition.
    This is an issue that I feel pretty strongly about. I am a 
southerner. I was born in Memphis, Tennessee. In my young 
years, I witnessed Jim Crow laws. I witnessed African Americans 
being relegated to the worst seats at the sports arenas, their 
not being able to go to school, their not being able to get 
jobs, and their being discriminated against as second-class 
citizens.
    I saw White and colored drinking fountains and restrooms 
and things that, when you think about it, should not have 
existed in a modern era, things that existed 100 years after 
the war that Mr. King talks about, the war that might have 
freed the slaves but that did not give them real economic and 
social freedom. They remained enslaved through the jury laws, 
known as ``Jim Crow laws'' in this Nation until 1964, and the 
ramifications of those laws and the slavery that we had in this 
country continue to this day.
    I have read the remarks of some of the gentlemen who are 
going to testify, Mr. Chairman. Mr. Clegg writes in his 
presentation, ``No one will dispute that slavery and Jim Crow 
were horrible and inhumane.''
    Remember that one of our Senators said Strom might have 
been right? That was just a year ago. A lot of people do not 
understand the connection, and they do not understand why this 
country is the way it is, and they do not want to apologize.
    I have introduced House Resolution 64 that calls for our 
country to apologize for the institutions of slavery and for 
Jim Crow. Some say, well, this does not involve--nobody is 
around today who had slaves. The Senate apologized for 
lynching. Nobody is around today that did lynching, but it was 
our country that did it and our government that did it and our 
government that sanctioned it, and it is an original sin of 
this country that needs to be expiated. It can only be expiated 
by an official act of this Nation.
    Four States have issued apologies: Virginia, Maryland, 
North Carolina, and Alabama. Others have considered it. For the 
United States of America not to issue an apology--Britain has 
done it. The Episcopal Church has done it. For the United 
States of America not to issue an apology--that sanctioned 
slavery, that permitted it, that fostered it, that benefited 
from it--would be wrong.
    It is the beginning of a dialogue that can improve this 
Nation because the greatest problem this Nation still has today 
is racial conflict. It exists not just in Memphis, Tennessee, 
but it exists in New York City in Harlem, in Roxbury in Boston, 
on the South Side of Chicago, in East St. Louis. It exists 
throughout this country, and we need to deal with that issue.
    The idea of a study of reparations that Mr. Conyers offers 
is a study, and it should be studied and what effects we can 
make to ameliorate conditions, economic and social, that have 
disadvantaged the minority population in our Nation.
    I represent a district that is, by majority, African 
American. Some people in my hometown say that I am too Black in 
the way I think. Well, they have not looked at my State Senate 
record for the last 24 years or been aware of where I have been 
with felon voting rights, with Dr. King's birthday, with jobs 
programs, with public hospitals, and public education. I guess 
I have always been, quote/unquote, ``too Black,'' but for 
people who think that, they are unaware of what is going on in 
America today.
    We need to get our act together, and we need to accept the 
grievances. We need to look at the grievances of the past and 
apologize and have a dialogue and go on and try to have some 
effort to make our country better. Some of that deals with not 
just social justice that my fellow colleagues on the other side 
of this hall or aisle will talk about, but economic justice. 
And without economic justice, you cannot really have social 
justice. You cannot have it. The fact is we lived through Jim 
Crow laws, and those effects are here today. People who were in 
separate classrooms are teachers today. Can they teach equally? 
The classroom facilities are vestiges of a separate institution 
where African American children got used textbooks and did not 
get the new schoolrooms and opportunities. All of those things 
need to change.
    I commend Chairman Conyers for his efforts over the years. 
I do not know that he has an exact thought of what his study 
would bring about, but a study is a good thing. Before you have 
a study, I would submit you need an apology because it begins a 
dialogue. And until this country faces the problems that we 
have and the conflicts that we have, which are great--and I 
think I am unique in having the opportunity to see them because 
I have been so involved in my community and have seen them--we 
need to find a way to start that dialogue and to bring this 
country together.
    We do not have equal justice. There is disparity in wealth 
between wealthy Whites and poor Whites, but it is even greater 
among Whites and African Americans as this disparity in wealth 
grows and grows and grows, because we have difficulty in 
understanding that all men are created equal, and they ought to 
have equal opportunities to have life, liberty, and the pursuit 
of happiness.
    The display of nooses in Louisiana, that is part of the 
vestige where people still have this idea of second-class 
citizens.
    The idea that some people in the Senate can suggest that 
our resolution H. Res. 64 is too strong on what it says about 
what happened after the Civil War and during Jim Crow shows 
that some Members of the Senate need to get their history books 
out wake up and dust off their cause and become 21st century 
Americans. This is a problem. We have hidden from it. We have 
got our heads in the sand like ostriches, and we need to rise 
up with strong backbones, face the facts, apologize for 
history, move forward toward a better future. But apologies and 
studies go toward the future, and we need to do that.
    Mr. Chairman, I thank you very much for this opportunity.
    Mr. Conyers. I thank the gentleman for his presentation.
    I turn to our first witness on the first panel, the 
Honorable Professor Charles Ogletree, who holds the Chair at 
Harvard University, Director of the Charles Hamilton Houston 
Institute for Race. He is a leading scholar before this 
Committee on an almost regular basis. The hearings that we had 
on the 1921 Tulsa riots, the Jena Six and other considerations 
have brought him before the Judiciary Committee. He has 
authored most recently, All Deliberate Speed, reflections on 
the first half century of Brown v. Board of Education. He 
edited From Lynch Mobs to the Killing State, Race and the Death 
Penalty in America.
    We welcome you once more, Professor Ogletree. Your 
statement will be reproduced in its entirety, and we would like 
to hear from you at this point.

   TESTIMONY OF PROFESSOR CHARLES OGLETREE, DIRECTOR OF THE 
   CHARLES HAMILTON HOUSTON INSTITUTE FOR RACE AND JUSTICE, 
                       HARVARD LAW SCHOOL

    Mr. Ogletree. Thank you very much, Congressman Conyers. I 
appreciate that my statement will be submitted for the record. 
I want to thank you, in particular, for having the courage over 
the last 19 years to raise H.R. 40.
    I want to say a few things beyond which I have written in 
the statement. First, I want to respond to Congressman King. It 
was very important that he recognized his family's legacy and 
the treasures that he could identify dating back to the 1800's. 
I cannot, because I come from a people, I come from a place 
where that history was destroyed. It was severed. It was 
brutalized. So I cannot go back. I know ``Ogletree'' is not 
from West Africa, Ghana or Senegal. It is something that was 
given to my ancestors after their African heritage was 
destroyed. That is why the study is important, to get a sense 
of history.
    I recall as well that my fifth grade social studies 
teacher, Mrs. Barry, had a sign on our class that said, ``Those 
who fail to understand history are doomed to repeat it.'' I 
think it was her suggestion that we should do our work or we 
would be in trouble. But it was a broader reflection of the 
idea that knowing history is important in order to move 
forward.
    Let me tell you about this issue of studying reparations 
and why it is so important. I think it is fair to say that 
sorting out the history, the structure, and the magnitude of 
slavery is not rocket science; it is harder than that. It 
requires an incredible amount of patience, caring, tolerance, a 
divisiveness, anger, frustration; but it requires us to look 
back in order to move forward. It is also important that we do 
it now because we have a history. Almost everything that has 
been said today has misrepresented some aspects of history.
    Congressman Franks was talking about the three-fifths--he 
mentioned the Constitution that only treated African Americans 
in three-fifths. They were still slaves. They had no rights. 
They could not vote. They could not own property. They could 
not participate in democracy. They were not people. The three-
fifths provision was simply not to help slaves; it was to help 
slave owners have power in a democracy. So we were written out 
of the Constitution from the very beginning, as if we did not 
exist, even though we made this country very profitable.
    Some of the comments of my colleagues, whom I know well and 
with whom I have worked before, later will be talking about the 
fact that it is divisive, it is a waste of money, we cannot 
identify who should be beneficiaries, we have already addressed 
these issues. Those are all points to be made, but that is what 
a study is for: to look at these in greater depth. Here is why 
we have to study this issue now.
    If you look back at our history, Congressman Conyers, in 
particular, there are people now who still deny that the 
Holocaust existed, that millions of citizens lost their lives 
to a tyrant in the 20th century, in the lifetimes of people in 
this room and of those watching this broadcast. There are 
people who thought that they were right in the 1940's to intern 
over 100,000 Japanese Americans as terrorists during the Second 
World War, but who had the courage to step forward? It was 
people like the Senator from the State of Kansas--a Republican 
by the name of Robert Dole--and the Democrat from the State of 
Hawaii by the name of Daniel Inouye. They were both veterans of 
the Second World War. They were both brutally injured in the 
Second World War, but they had the courage, more than decades 
after it happened, to say that we have to do something. That is 
why the Civil Liberties Act of 1988 was passed, and that was 
the impetus for Congressman Conyers to say let us look at the 
issue of slavery.
    Let us look quickly, with the time I have, at the civil 
rights movement. In 1921, with the Tulsa race riot, there is no 
relief 86 years later. In 1954, we have Brown v. Board of 
Education. A year later, Emmit Till was lynched in Mississippi. 
Rosa Parks was arrested on the bus in Montgomery, Alabama. In 
1963, Dr. King gave the great march on Washington's speech 
about his dream, an aspiration for America. Three weeks later, 
3 weeks later, four little girls lost their lives by terrorism 
in Alabama. We have come a long way. We have got a long way to 
go.
    What are people afraid of? That we might find something out 
about our history and that we might be able to use it to change 
the way we think about it? At a minimum, if nothing else 
happens, I hope every Member of this Committee can at least 
apologize for slavery. It does not recall legislation. It just 
recalls a point of courage. That is not political, that is not 
partisan, but the idea to at least start the process of healing 
starts with recognizing that something wrong happened from the 
beginning.
    Finally, I want to mention that there is a recent book by 
Doug Blackmun, a Wall Street Journal reporter, called By Any 
Other Name: Looking at the Impact of Slavery and Post Slavery 
in the 19th and 20th Centuries.
    I hope that those who oppose this hearing and who oppose 
the idea of a study will understand from the writing of the 
Constitution to the adoption of the Bill of Rights and to every 
other step, we have cut people out. This is the time for 
inclusion and for every voice to be heard. I urge this 
Committee to pass H.R. 40 and to do so with great enthusiasm 
and with great commitment to making us one America so that we 
can all appreciate our great country and its great value.
    Thank you, Congressman.
    Mr. Conyers. Thank you so much.
    [The prepared statement of Mr. Ogletree follows:]
             Prepared Statement of Charles J. Ogletree, Jr.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Conyers. We now call on the National Cochair of the 
National Coalition of Blacks for Reparations in America. The 
acronym is N'COBRA. We have here Ms. Kibibi Tyehimba. She and 
her organization are longtime friends of many of the Members of 
the Committee. In her capacity as cochair, she educates, 
organizes, mobilizes around freedom, justice, equality, and 
self-determination for the descendents of African slaves. 
N'COBRA has been active across the years in securing support 
and understanding for reparations and for the study of 
reparations. We are delighted to welcome her to the Committee 
at this time.

   TESTIMONY OF KIBIBI TYEHIMBA, NATIONAL CO-CHAIR, NATIONAL 
    COALITION OF BLACKS FOR REPARATIONS IN AMERICA (N'COBRA)

    Ms. Tyehimba. Thank you, Congressman. Thank you very much 
to the entire Committee.
    I am here to represent the grassroots perspective. Today, I 
would like to pay homage to my African ancestors and give them 
voice for the millions who perished during the so-called 
``trans-Atlantic Slave Trade'' and who suffered untold 
atrocities during the American era of enslavement. Were it not 
for their sacrifices, were it not for their strength and 
perseverance, we would not be here today nor would Americans be 
able to enjoy the standard of living for which this country is 
known.
    For 246 years, the U.S. Government and prior colonies 
participated in one of the greatest holocausts--and by 
``holocaust,'' I mean a monstrous loss of life--the greatest 
holocaust in American history, the holocaust of enslavement, 
for which a system of enslavement like no other in this world 
resulted in the loss of millions of African people who perished 
and of millions of others who endured every imaginable horror 
ever inflicted upon a group of people mainly because of their 
race. The U.S. and the prior colonies sanctioned this atrocity 
with its Constitution and enforced it with covert and overt 
violence, a genocidal process that has destroyed millions of 
Africans, and in many respects is still with us today.
    Africans produced major consumer goods and services and 
provided the stimulus for shipbuilding, banking and insurance 
in both the United States and in England. Yet in 1865, the 
Federal Government freed 4 million Blacks--in January no less--
and that has kept African descendents locked in a vicious cycle 
of poverty that still exists with us.
    We strongly believe that the establishment of a commission 
would address injury areas that were suffered by enslaved 
Africans, which include peoplehood and nationhood, which is a 
look at the destruction of African people's culture and the 
infringement of the larger culture on African people. It was 
also the denial of rights and the resources necessary to be 
self-determining.
    Examples of that are the Black townships across this 
country that were destroyed, such as Greenwood, Oklahoma; 
Redwood, Florida; and Wilmington, North Carolina. These 
townships were destroyed because of the surrounding White 
communities' jealousy and need to suppress models that refuted 
their claims of White superiority. The injury included 
education. We were denied the right to be educated. Anyone who 
attempted to educate us was also punished, and we still see 
today that there are separate and still unequal systems that 
provide an inferior education to Black people.
    In the area of crime and punishment, there are still dual 
systems that exist where Black people are penalized more 
harshly than Caucasians for the same conduct. We all know very 
well of the disparities in terms of wealth and poverty. I need 
not go into that. In the area of health, Blacks are still dying 
at higher rates than Whites for the same illnesses and when 
they exhibit similar symptoms. These are all things that must 
be considered.
    In keeping with domestic and international law, reparation 
is about human freedom, human justice and the value that this 
society places on human life in the past as well as in the 
present and future. African life must be viewed equally as 
other life because other groups attain reparations both inside 
and outside the United States, and which the United States 
still supports, such as the Jewish victims of the Holocaust, 
the Japanese Americans who were interned during the Second 
World War, and Alaska natives for land, labor and resources 
that were taken. These are all examples of reparations that 
have been paid, and we should not focus on whether a check goes 
to African descendents, because reparations go much farther 
than that. If we consider changing the systems and 
institutions, as an example, that still remain with us and that 
keep these dual systems going, that in and of itself would 
address some of the issues that are our concern.
    As to Congressman Cohen, who is addressing the issue of 
apology, an apology, in and of itself, we view as an 
opportunity to sidestep the severity of the crimes that were 
committed, and if it does not come with an understanding that 
some reciprocity needs to be made, some way of paying the 
victims for the atrocities that have been inflicted upon them, 
then it is disingenuous. We agree that there is no amount of 
money that can be sufficient to cover the loss of lives, but we 
believe also that we have a solemn responsibility to say what 
is rightfully ours and to keep up this fight no matter what. We 
understand and we believe very strongly that there must be a 
multigenerational, equitable remedy that improves the lives of 
African Americans for future generations.
    We firmly believe that the passage of H.R. 40 will 
facilitate this national dialogue that we have been discussing 
here today, and it will demonstrate slavery's link to current 
social, health, economic, and political issues that are 
pertinent to African descendents. We believe very strongly that 
it will acknowledge this mass of human suffering and the tragic 
plight of millions of African descendents--men, women and 
children who were lost. This is absolutely critical, because 
presently the average history book in our schools includes two 
paragraphs, no more than that, and usually ridiculous 
photographs of darkies appearing like they are enjoying 
themselves while they are enslaved. This has got to be 
addressed.
    The passage of H.R. 40 and the establishment of the 
commission will also allow U.S. residents to make peace with a 
significant part of this country's shameful past and end the 
intergenerational trauma that it has caused. It will continue 
to come up until we address it thoroughly. This is about 
getting out the truth. This will also allow the United States 
to show that it is committed to peace and justice and the same 
human rights standards for which we attempt to hold other 
nations around the world accountable.
    We firmly believe that H.R. 40 should be passed, and we 
urge the entire Committee to come on as cosponsors of this bill 
and assist us in doing whatever is possible to move this 
forward to a complete vote and acceptance.
    Thank you.
    Mr. Conyers. Thank you very much.
    [The prepared statement of Ms. Tyehimba follows:]
                 Prepared Statement of Kibibi Tyehimba
                            i. introduction
    I am Kibibi Tyehimba, Co-Chair of the National Coalition of Blacks 
for Reparations in America (N'COBRA). I appreciate the opportunity to 
testify before members of the Congress during its briefing on the 
Legacy of the Trans-Atlantic Slave Trade, as this hearing is critical 
to understanding the importance of House Resolution 40. Today I pay 
homage to my African ancestors, and give voice to the millions who 
perished during the so-called Trans-Atlantic slave trade, and who 
suffered untold atrocities during the American era of enslavement. Were 
it not for their strength, and perseverance we would not be here, nor 
would Americans be able to enjoy the standard of living for which this 
country is known.
    At the request of Dr. Imari Obadele, the founding meeting for 
N'COBRA was convened on September 26, 1987 here in Washington, DC, for 
the purpose of broadening the base of support for the long-standing 
reparations movement. This meeting took place following the 
introduction of legislation seeking reparations for Japanese Americans 
interned during World War II.

        ``The mission of the National Coalition of Blacks for 
        Reparations in America (N'COBRA) is to win full Reparations for 
        Black African Descendants residing in the United States and its 
        territories for the genocidal war against Africans that created 
        the TransAtlantic Slave ``Trade,'' Chattel Slavery, Jim Crow 
        and Chattel Slavery's continuing vestiges (the Maafa). To that 
        end, N'COBRA shall organize and mobilize all strata of these 
        Black communities into an effective mass-based reparations 
        movement. N'COBRA shall also serve as a coordinating body for 
        the reparations effort in the United States. Further, through 
        its leadership role in the reparations movement within the 
        United States and its territories, N'COBRA recognizes 
        reparations is a just demand for all African peoples and shall 
        join with others in building the international reparations 
        movement.''

    N'COBRA's primary objective, which it met, was to make reparations 
a household word and build support nationally and internationally. As a 
result, interest in the reparations debate has moved beyond the so-
called ``fringe'' groups to the media, universities; city and state 
legislatures; church organizations of every denomination; and civic 
associations with members from various socio-economic, political, 
racial and ethnic backgrounds. We applaud local and national N'COBRA 
leaders and members too numerous to mention here today for their 
personal sacrifices made over these last 20 years.
                             ii. background
    For 246 years, the US government and the prior colonies, 
participated in one of the greatest holocausts of human history, the 
holocaust of enslavement, during which, millions of African people 
perished and millions more endured every imaginable and some 
unimaginable horrors ever inflicted upon a group of people solely 
because of their group identity and the greed of those who committed 
these crimes against humanity. The US and the prior colonies sanctioned 
with its Constitution and enforced with covert and overt violence, the 
genocidal process that destroyed millions of human lives, human 
cultures, and the human possibility inherent in African life and 
culture. Millions of Africans were kidnapped, torn from their homeland, 
Africa, and their rich cultural heritage. Innocent women, children, and 
men were brutally maimed, murdered, raped, terrorized and tortured 
during the middle passage voyage to America. Within American shores, 
they were denied the right to maintain their language, spiritual 
practices and normal family relations. New families created during 
enslavement were constantly under the threat of being torn apart at the 
whim of the ``slave owner.'' Following the official end of slavery, 
racist repression continued, which further destroyed lives, and 
communities. However the US has yet to acknowledge this horrific 
destruction or to take steps to make amends for it. Following the 
official end of slavery, racist repression continued, which further 
destroyed lives, communities, and possibilities.
    While slavery impoverished Africa, and particularly West Africa, it 
played a crucial role in the development of the modern world economy 
that is presently dominated by the US. The free labor of enslaved 
Africans produced major consumer goods and services, and provided the 
stimulus for shipbuilding, banking, and insurance in both the US and 
England. Yet after reaping the benefits of free labor, in 1865 the 
federal government freed 4 million Blacks in January, no less, to 
wander the countryside, one of the coldest months of the winter, 
without a dime, with no property, and largely illiterate, leaving few 
choices for the freed African peoples other than to exist in virtual 
slavery locked in place by Black Codes, convict lease, peonage, and 
cleverly crafted share cropping schemes. Jim Crow laws, followed by 
institutionalized racism, kept African descendants locked in vicious 
cycles of poverty that are still evident today. Presently dual systems 
exist in almost every area of life including wealth, poverty, health 
care, education, employment, and criminal punishment. Hard-won gains, 
such as Affirmative Action, voting rights, the right to equal 
education, and equal protection under the law, are being rolled back, 
and the victims of generations' old racism and discrimination are being 
blamed for their own oppression.
                  iii. the injuries of slavery defined
    Informed, honest historians and social scientists acknowledge the 
lingering affects of slavery on present day African American life. 
Accordingly, in 1996 and 1997, the N'COBRA Legal Strategies Commission, 
chaired by Adjoa A. Aiyetoro, set out to develop an approach to 
reparations litigation. The commission's work led to the identification 
and documentation of five distinct injury areas suffered by African 
people during and after enslavement. The injury areas include:

        <bullet>  Peoplehood/Nationhood--The destruction of African 
        peoples' culture, and the infringement of the larger culture 
        upon Black people of African descent in the United States and 
        the prior colonies. Jim Crow and ongoing discrimination have 
        resulted in a denial of our right to openly express our 
        culture, appropriation of our culture, and denial of the right 
        and resources necessary to be a self-determining people. 
        Throughout this country's history African Descendants' efforts 
        to be self-determining have been met with violence and 
        destruction, as evidenced by the untold numbers of Black 
        townships, such as Greenwood, Oklahoma; Redwood, Florida; and 
        Wilmington, North Carolina--townships ultimately destroyed 
        because of the surrounding white community's jealousy and need 
        to suppress models that refuted their claims of white 
        superiority.

        <bullet>  Education--The denial of our right to an education 
        started in slavery with criminal sanctions imposed on our 
        enslaved ancestors who learned, and anyone who taught them to 
        read or write. Maintenance of dual, separate but unequal 
        systems from slavery to the present provided an inferior 
        education in schools with predominantly Black students of 
        African ancestry. Federal funds were often provided schools 
        despite this dual education system--one predominantly Caucasian 
        and the other for predominantly Black students of African 
        ancestry.

        <bullet>  Criminal Punishment--The enslavement of African 
        peoples necessitated the development of a dual punishment 
        system that continues to exist in the U.S. This dual system 
        punishes Black people of African descent more harshly than 
        Caucasians for the same conduct. Examples of the dual system 
        were found from the period of enslavement through the Jim Crow 
        era. The ongoing discrimination is most vividly evident with 
        the continuation of disparate punishments for crack and powder 
        cocaine (Black people of African ancestry are more frequently 
        charged with possession of crack and certified to the federal 
        system where a Caucasian person would have to possess 100 times 
        more powder cocaine than crack cocaine to receive the same 
        punishment. The result has been a disproportionately higher 
        number of Black people of African descent being incarcerated 
        for violation of the drug laws). In addition, Black people of 
        African descent are subjected to racial profiling and the 
        disparate imposition of the death penalty where Black men are 
        more likely to be charged and convicted of a capital offense 
        than a similarly situated Caucasian and particularly for 
        killing a Caucasian.

        <bullet>  Wealth/poverty--The wealth gap between Black people 
        of African descent and Caucasians created during the 
        enslavement of African peoples has been sustained; confiscation 
        of land and other forms of wealth continue up to present day. 
        Black people of African descent were forced into poverty 
        through enslavement, Jim Crow and continuing discrimination in 
        employment, housing and other economic areas.

        <bullet>  Health--The focus is on physical and mental health. 
        Health knowledge of enslaved Africans was appropriated and 
        enslaved Africans functioned as non-paid health care providers 
        for others; the use of Black people of African descent as 
        subjects for tortuous health experiments (Tuskegee Syphilis 
        Study) and the denial of quality health care during and post-
        slavery. The health injury area also includes the continuing 
        discrimination in the provision of health care, including the 
        disproportionately higher rate of closures of hospitals serving 
        Black communities; lack of access to health insurance to 
        provide affordable access to health care; the failure to 
        validate health care protocols for Black people of African 
        descent; and the failure to provide the appropriate medical 
        treatment for critical health care symptoms which have resulted 
        in higher rates of death for Black people of African descent 
        compared to Caucasians exhibiting these symptoms. Finally, this 
        injury area includes an examination of post-slavery stress 
        syndrome, a developing area of investigation by Black mental 
        health professionals of African descent.
           iv. moral and legal justification for reparations
    The struggle for reparations for the Holocaust of Enslavement of 
African people is about fundamental issues of human freedom, human 
justice and the value we place on human life in the past as well as in 
the present and future. After 246 years of enslavement--the greatest 
atrocity in American history; 100 years of Jim Crow; and the ongoing 
affects of racial discrimination, African descendants efforts to obtain 
reparations are morally just, as African life is equally of value, as 
are the lives of other groups that have obtained reparations both 
inside and outside the US and whose causes the US has supported and 
continues to support, including Jewish victims of the Nazi Holocaust, 
Japanese Americans interned in WWII US concentration camps, Alaska 
Natives for land, labor, and resources taken, Native Americans for 
violations of treaty rights, political dissenters and their descendants 
in Argentina, and to Colombia for excising the territory of Panama for 
the purpose of building the Panama Canal. With such precedents of 
reparations to primarily non-Black peoples, it would be sheer racism 
for the US to continue ignoring this brutal era in American history, 
and the African descendant morally just claim for Reparations.
    In keeping with the principles of both international human rights 
law and domestic law, and with a clear understanding of the factual and 
moral justification for our claim, we seek remedy for damages from the 
US government, as the dehumanization and atrocities of slavery were not 
isolated occurrences. Rather they were mandated by formal laws codified 
and even enshrined within the U.S. Constitution. The role of the 
federal government in supporting the institution of slavery and 
subsequent discrimination directed against the descendants of formerly 
enslaved Africans must be formally acknowledged and redressed.
    v. n'cobra outreach to gather and report the will of the people
    Passing H.R. 40 is an important first step that could lead to a 
substantive dialogue throughout the nation on chattel slavery in the 
U.S. and Jim Crow and the continuing harm suffered by Black people of 
African descent and ways to remedy it.
    Since 1990, N'COBRA has hosted annual conferences around the 
country to provide an opportunity for African descendants to learn 
about the reparations movement, to voice their opinions about 
reparations and the components of an equitable reparations settlement:

        <bullet>  While there is agreement that we can never place a 
        price on our suffering and pain or wash away the blood of our 
        ancestors shed at the hands of their enslavers, we have a 
        solemn responsibility to seek what is rightfully due us, in 
        keeping with domestic and international law, in order to heal, 
        repair and restore our people.

        <bullet>  There is agreement that reparations should be multi-
        generational, as the affects of 246 years of slavery and 100 
        years of Jim Crow cannot be erased in a generation.

        <bullet>  Reparations should improve the lives of African 
        descendents in the US for future generations to come; foster 
        complete economic, social and political parity; and allow for 
        full rights of self-determination.

        <bullet>  There are mixed feelings about the significance of an 
        apology. The recent wave of ``statements of profound regret'' 
        which fall short of apology, are seen as an effort to sidestep 
        the severity of the crimes committed and the responsibility of 
        the perpetrators to make amends. A true apology cannot be 
        conditional, e.g., ``I regret the crime, but there can be no 
        further discussion of reparations.'' Apology alone is 
        disingenuous, as it requires full acknowledgement of the 
        conduct that caused the injuries, and requires material 
        reparations to compensate the injured parties.

        <bullet>  Most agree that the evidence substantiating the 
        African descendant claim for Reparations has already been 
        sufficiently documented. However, there has generally been a 
        willingness to support HR 40, though there are varying opinions 
        about what should be included in an equitable remedy. African 
        descendants continue to lobby for the passage of HR40, assuming 
        it will set the stage for:

          <bullet>  National Public Dialogue about the era of 
        Enslavement in the U.S. and the prior colonies;

          <bullet>  Public Admission of the crimes committed;

          <bullet>  Public Apology for the commission of the crimes;

          <bullet>  Public Recognition through institutionalization and 
        education, i.e., national and local monuments, media 
        programming and development of appropriate curriculum 
        throughout public schools and university systems to remind and 
        teach the meaning of this horrendous human loss and destruction 
        not only to African people, but to the country and the world;

          <bullet>  Compensation awarded in as many forms as necessary 
        to equitably address the many forms of injury caused by chattel 
        slavery and its continuing vestiges including changes in or 
        elimination of laws and practices that allow African 
        descendants to be treated differently than White people; 
        monetary compensation, land, repatriation; release of political 
        prisoners wrongfully incarcerated during the COINTELPRO era of 
        the 60s and 70s, an end to racial profiling and discrimination 
        in the provision of health care and access to affordable 
        housing, providing scholarship and community development funds 
        for Black people of African descent, and supporting processes 
        of self determination;

          <bullet>  Establishment of structures and processes to 
        prevent reoccurrence of such massive destruction of human life, 
        human culture and human possibility.
        vi. hr 40 and the legislative and legal work of n'cobra
    First of all, we acknowledge N'COBRA member Reparations Ray Jenkins 
of Detroit, MI who successfully lobbied Congressman John Conyers to 
introduce the H.R. 40 in 1989, and all our members who have lobbied for 
its passage.
    N'COBRA has supported legislative strategies and initiatives, such 
as H.R. 40, the Reparations Study Bill at each congressional session 
since 1989. N'COBRA played a leading role in encouraging and supporting 
Congressman Conyers in developing and introducing H.R. 40. N'COBRA's 
Commission on Legislative Strategies was formed in 2000, under the 
leadership of Ms. Nkechi Taifa, who as Chair until 2005, trained 
activists to effectively lobby Members of the House of Representatives 
to sign on as co-sponsors of HR40. Of particular note are the N'COBRA 
``A Year of Black Presence (AYBP) lobbyists, under the leadership of 
Philadelphia N'COBRA member Mr. Milton McGriff. In 2003 over 500 AYBP 
lobbyists from Pennsylvania, New York, New Jersey, Virginia, and 
Washington DC sought Congressional members' co-sponsorship of HR 40.
    We acknowledge the 37 year history of QM Dorothy Benton Lewis for 
her consistent fight for reparations at the city, state, federal and 
international level, and her willingness to speak forcefully to this 
issue in any environment. We thank her for her leadership inside and 
outside of N'COBRA and for being and remaining on the battlefield when 
there were few in the room, until now when over 80% of African 
descendants support our claim for reparations. Her representation of 
this important discussion in the national media was critical to the 
forward flow of the Reparations movement. We also acknowledge the work 
of Reparations activists and supporters who circulated petitions and 
surveys informing and gauging levels of support; held forums and town 
hall meetings to keep H.R. 40 before the public; addressed groups of 
all sizes; and successfully lobbied for HR40 companion legislation in 
cities and states across the country. To date, 28 cities have adopted 
resolutions supporting passage of HR 40; 8 cities have adopted Slavery 
Disclosure Ordinances requiring corporations who participated in and 
profited from the enslavement of African peoples to disclose their or 
their predecessors' history in order to be eligible for that city's 
contracts; 4 states have issued statements of profound regret for their 
participation in the enslavement of African people; 2 states have 
adopted resolutions supporting passage of HR40, and one state, Florida, 
found the courage to admit to and pay reparations to the victims and 
descendants of the massacre of the Black township of Rosewood. Lobbying 
efforts also extended to community based, civic, and church 
organizations that in turn adopted resolutions supporting reparations 
and the passage of HR 40. More recent passage of Slavery Disclosure 
Ordinances is providing evidence that present day corporations' wealth 
is directly linked to the ``free labor'' of enslaved Africans. In light 
of the pivotal role of boycotts during the Anti-Apartheid movement, 
N'COBRA members and supporters are also organizing and participating in 
boycotts against Wachovia Corporation and Aetna Insurance for their 
participation in and profiting from the enslavement of African peoples 
in the US and prior colonies. We acknowledge the Philadelphia N'COBRA 
Wachovia Divestment Committee, under the leadership of Minister Ari 
Merretezon, and Ms. Pat Swailes, who lead the charge for Blacks in 
Government (BIG).
                          vii. recommendation
    N'COBRA strongly recommends passage of HR 40 to establish a 
commission to examine the institution of slavery, the impact of these 
forces on living African-Americans, and to make recommendations to the 
Congress on appropriate remedies. The passage of HR 40 will:

        <bullet>  Facilitate a national dialog about an era in US 
        history that has largely been ignored or down-played.

        <bullet>  Demonstrate the link between chattel slavery and the 
        current social, health, economic and political status of 
        African descendants and therefore destroy the myth of White 
        Supremacy.

        <bullet>  Recognize the link between chattel slavery and 
        present day race relations, and enable the amelioration of 
        racial discrimination in America.

        <bullet>  Acknowledge the massive human suffering and the 
        tragic plight of millions of African descendant men, women and 
        children during slavery to demonstrate the sacredness of 
        African life, specifically, and all human life in general.

        <bullet>  Allow United States' residents to make peace with a 
        significant part of this country's shameful past, and end the 
        intergenerational trauma of its current effects.

        <bullet>  Demonstrate to the world, the United States' 
        commitment to peace and justice, and the same human rights 
        standards to which it seeks to hold other nations.
                            viii. conclusion
    On behalf of the National Coalition of Blacks for Reparations In 
America (N'COBRA) I thank the Chair of the Judiciary Committee, 
Congressman John Conyers, and the Chair of the Subcommittee on the 
Constitution, Civil Rights, and Civil Liberties, Congressman Jerrold 
Nadler, and every Member present here today for this opportunity to 
provide the grassroots perspective. N'COBRA recognizes that the passage 
of this bill is important to obtaining reparations and remains 
committed to this process although Congress has not yet favorably acted 
upon it. N'COBRA strongly urges the committee to support passage of HR 
40.
                               references
``Reparations and the National Coalition of Blacks for Reparations in 
    America (N'COBRA), An Information Sheet'', May 2004 (2nd edition).
``Black Reparations: American Slavery & Its Vestiges'', Washington, DC 
    Metropolitan Chapter of N'COBRA, 2002.
``THE ETHICS OF REPARATIONS: ENGAGING THE HOLOCAUST OF ENSLAVEMENT'', 
    Dr. Maulana Karenga.
``Reparations and A New Global Order: A Comparative Overview'', Doctor 
    Chinweizu; A paper read at the second Plenary Session of the First 
    Pan-African Conference on Reparations, Abuja, Nigeria, April 27, 
    1993.
``For Whites Only: How & Why America Became a Racist Nation'', Ambrose 
    I. Sr. Lane, Sr., 2000.
``My Face is Black Is True-Callie House and the Struggle for Ex-Slave 
    Reparations'', Dr Mary Frances Berry; Alfred A, Knopf, New York, 
    2005.
``Should America Pay?--Slavery and the Raging Debate on Reparations'', 
    Edited by Raymond A. Winbush, Ph.D.; Amistad, an imprint of 
    HarperCollins Publishers, 2005
``Atonement and Forgiveness--A New Model for Black Reparations'', Roy 
    L. Brooks; University of California Press, 2004.

    Mr. Conyers. Our third witness, Attorney Roger Clegg, is no 
stranger to the Committee. He is president and general counsel 
of the Center for Equal Opportunity, which is the Nation's only 
conservative think tank devoted to issues of race and 
ethnicity, promoting a color-blind society. Mr. Clegg is the 
former Deputy Assistant Attorney General in two different 
administrations, and he holds the second highest position in 
both the Civil Rights Division and in the Environment and 
Natural Resources Division. He has testified before this 
Committee, and we are always happy to see him here.
    Welcome.

TESTIMONY OF ROGER CLEGG, PRESIDENT AND GENERAL COUNSEL, CENTER 
                     FOR EQUAL OPPORTUNITY

    Mr. Clegg. Thank you very much, Chairman Conyers, for that 
kind introduction. I am delighted to be here. The motto of the 
United States is ``E pluribus unum''--out of many, one. And 
what I want to talk about today is that principle and why H.R. 
40 is inconsistent with it.
    America is increasingly a multi-racial, multi-ethnic 
society. And that is true not only in the aggregate, but also 
for individual Americans. More and more, Americans can trace 
their ancestry through a wide variety of racial and ethnic 
lines.
    Just about every racial or ethnic group in the United 
States can point to hardships that it has undergone. Just about 
every individual in the United States can point to an ancestor 
or many ancestors who have endured great hardships. I don't 
think that it will heal or unite this country for one group to 
be singled out as deserving of special recompense because of 
the hardships that its ancestors faced. I don't mean to equate 
the inhumanity of slavery with the hardships that other groups 
underwent. Slavery, obviously, was unique. But on the other 
hand, what was suffered by Native Americans in this country was 
often quite brutal. The interning of Japanese Americans was 
quite brutal. Latinos have often undergone very similar 
discrimination to what was undergone by African Americans. 
Anti-Semitism in this country has existed. Discrimination 
against Italians and Irish and others have existed as well.
    I don't believe that there is a reluctance on the part of 
the American people to acknowledge the horrors of slavery. I 
keep hearing that, but I don't understand what that statement 
is based on. I think that you read any textbook in the United 
States, you talk to any American, they acknowledge, as any sane 
person has to, the horrors of slavery. There is no shortage of 
historical scholarship on this. And that scholarship is going 
to continue.
    To suggest that a commission made up of seven experts can 
be paid $8 million and, in 1 year, come up with a definitive 
answer to the question of what slavery has meant to the United 
States, what it has done to African Americans, what the 
continuing effects are, is, I think, ludicrous. That is too 
short a time. It is too complicated an issue. It is very 
difficult to figure out, it is impossible to figure out, how 
much of the disparities that African Americans suffer today is 
traceable to slavery and how much is traceable to other 
factors.
    I will just give one example. The principal hurdle facing 
African Americans today is the fact that seven out of 10 
African Americans are born out of wedlock. Just about any 
social problem that you can name-- crime, drugs, dropping out 
of school, doing poorly in school and so forth--has a strong 
correlation with growing up in a home without a father. And it 
is very hard to argue that this problem is traceable to slavery 
or to Jim Crow, since illegitimacy rates in the African 
American community began to skyrocket just at about the time 
that Jim Crow was starting to crumble.
    Even if we could figure out what percentage of current 
inequities are traceable to slavery, I don't think that it 
would make any sense to pay compensation to individuals on that 
basis.
    For starters, there are very difficult logistical problems 
in figuring out to whom a check is going to be paid. Are you 
going to require people to prove slave ancestry? How are you 
going to do that? If you just assume that anybody who is a 
particular color is eligible, that creates constitutional 
problems and will create other inequities. And of course, there 
are going to be problems with just taking people at their word 
if the Federal Government is writing out checks to anybody who 
says that they think they have a slave ancestor.
    But more fundamentally, what does it matter whether poverty 
is traceable to a particular historical wrong when we are 
trying to decide what to do about it for an individual. In 
other words, suppose that you have two children. One could show 
somehow that the reason he was poor was because of the 
discrimination that ancestors in his family faced. The other 
child is poor for no reason except that his mother and father 
just immigrated to this country from a poverty-stricken 
homeland. Is the government supposed to say, well, we view the 
first child's poverty as a problem of Federal concern, but not 
the second child's? I don't think that that would make any 
sense. I don't think that anybody on this Committee would think 
that that would make sense. There is no reason why eligibility 
for a social program ought to hinge on whether a citizen can 
trace his need for the program to this or that historical 
cause.
    If we were to make a social program available to those of 
one race and not to others, there would also be serious 
constitutional problems. And I think that that is something 
that this Committee in particular needs to address. Presumably, 
the justification for the program would be remedial, but the 
Supreme Court has rejected general claims of societal 
discrimination as not sufficiently compelling to justify racial 
classifications.
    Finally, on the issue of an apology, here again, I don't 
understand the claim that an apology is going to help heal 
these wounds. I don't think frankly that that is the intent. I 
think that the focus of these apologies, the focus of this 
whole bill, is not to heal wounds, were you to keep those 
wounds open, to keep grievance alive, to keep some Americans on 
the hook so that they will be required to make amends for 
things that people in our past did who happen to be the same 
color as those Americans are today.
    In conclusion, Mr. Chairman, a great strength of America 
and Americans is that we are a forward looking people. This is 
a very backwards-looking bill. I think that what Americans need 
to do is to look at the social problems that we have in this 
country--that may disproportionately affect those of certain 
racial and ethnic backgrounds but are not limited to them--and 
figure out what we can do to help individuals who face those 
social problems. But when we figure out what those steps are, 
those programs should be available to all Americans regardless 
of their skin color, regardless of their ancestry, regardless 
of what the historical cause might have been for why they find 
themselves in the needful situation that they are in.
    It is this approach that is consistent with the principle 
of E pluribus unum, it is this approach that is required by the 
principle of nondiscrimination and equal protection. Thank you 
very much, Mr. Chairman.
    Mr. Conyers. We appreciate your testimony.
    [The prepared statement of Roger Clegg follows:]
                   Prepared Statement of Roger Clegg
    Thank you very much, Mr. Chairman, for the opportunity to testify 
today. My name is Roger Clegg, and I am president and general counsel 
of the Center for Equal Opportunity, a nonprofit research and 
educational organization that is based in Falls Church, Virginia. Our 
chairman is Linda Chavez, and our focus is on public policy issues that 
involve race and ethnicity, such as civil rights, bilingual education, 
and immigration and assimilation. I should also note that I was a 
deputy in the U.S. Department of Justice's Civil Rights Division for 
four years, from 1987 to 1991.
                                overview
    The discussion today of the legacy of the trans-Atlantic slave 
trade is intended, I presume, to help lay the groundwork for favorable 
consideration of H.R. 40, the ``Commission to Study Reparation 
Proposals for African-Americans Act.'' And the enterprise that H.R. 40 
would have us embark on, in turn, is as follows: First, a commission 
would determine what effects slavery and post-slavery discrimination 
had on African Americans and what ``lingering negative effects'' it 
continues to have on them; and then, second, it would suggest possible 
remedies for those effects. The two remedies that are explicitly 
mentioned are an apology and some form of compensation.
    There are any number of problems with this enterprise, and I would 
like briefly to discuss some of them in my testimony today. (Some of 
the points I will make are also expressed, often in more detail, in a 
dialogue I have written on this topic, a version of which was published 
in Engage magazine, and which I have included as an appendix to my 
testimony; I've also included an op-ed I wrote on a recent Chicago 
ordinance requiring city contractors to document any slavery-related 
business in the antebellum era.)
    this is an unnecessary and hopeless task for such a government 
                               commission
    First, this research project is ill-suited for a government 
commission. H.R. 40 says that ``sufficient inquiry has not been made 
into the effects of the institution of slavery on living African-
Americans and society in the United States.'' I am not sure what that 
statement is based on, and I am not a professional historian. But as a 
lay reader and a civil rights lawyer, it seems to me that there is no 
shortage of books and articles about slavery, and discrimination, and 
the problems facing the African American community today, and the way 
all these intersect. I am not declaring that there has been 
``sufficient inquiry''; just that there has been a great deal and that 
it continues--and that, given the intrinsic interest of these topics, 
especially among those in the academy, it will likely continue for the 
foreseeable future.
    What I would declare, moreover, is that this inquiry will never 
end, and it will be a long time before anyone would presume to call the 
inquiry ``sufficient.'' Few historical inquiries ever are: There is 
always some new angle to explore. Further, the conclusions that 
historians will draw will always be incomplete, imperfect, and 
challenged by contemporary and future historians. That is the nature of 
historical scholarship, especially for issues as complex as this one.
    H.R. 40 suggests, on the other hand, that something like a 
definitive answer will be possible if the government takes $8 million, 
hires seven ``especially qualified'' people, and gives them a year to 
figure it all out. This is, of course, absurd.
    No one will dispute that slavery and Jim Crow were horrible and 
inhumane; no one will dispute that discrimination still exists, though 
only a delusional person would deny that America has made radical, 
dramatic, inspiring progress in the last 40 years--that its society has 
truly been transformed in an astonishingly short period of time. But it 
is impossible to say how much of the present is the result of one 
particular kind of event in the past. Only someone very arrogant or 
very foolish would make such a pronouncement.
    Let me give just one example. The principal hurdle facing the 
African American community today is the fact that 7 out of 10 African 
Americans are born out of wedlock. Just about any social problem you 
can name--crime, drugs, dropping out of school, doing poorly in school, 
and so forth--has a strong correlation with growing up in a home 
without a father. And it is very hard to argue that this problem is 
traceable to slavery or Jim Crow, since illegitimacy rates started to 
skyrocket in the African American community just at the time that Jim 
Crow was starting to crumble.
    Given that, how can anyone say with any confidence that such-and-
such amount of such-and-such a social problem facing African Americans 
must be due to slavery? It cannot be done.
  race-based compensation would be both illogical and unconstitutional
    But let's suppose that, nonetheless, the commission decides that it 
can be done. Let's suppose that this commission says, ``Forty-six 
percent of the poverty in the African American community today can be 
traced to slavery and discrimination, forty-five percent is caused by 
illegitimacy, and the remaining nine percent is just bad luck,'' or 
some such silly thing. Or let's suppose that it says something less 
silly, but so obvious that it does not take a government commission to 
figure it out--something like, ``To some significant extent, the 
disproportionate amount of poverty facing the African American 
community today can be traced to slavery and the discrimination its 
members faced.''
    Would it follow that some sort of ``compensation''--one of the two 
remedies H.R. 40 explicitly asks the commission to consider--ought to 
be paid to African Americans? No. It certainly wouldn't make sense to 
pay compensation to African Americans who are not living in poverty. It 
wouldn't make sense to pay compensation to African Americans who are 
living in poverty if that poverty was not caused by slavery and Jim 
Crow--to give an obvious example, to African Americans who just 
immigrated here. Yet requiring a particular person to prove his slave 
ancestry leads to many problems (as discussed in Appendix A); presuming 
slave ancestry because of a person's appearance raises many problems, 
too; and there are problems with simply taking people at their word as 
well.
    Also, why should an African American who could trace his poverty to 
slavery be entitled to compensation over, say, a poor American Indian 
who could not but could trace it to some other historical wrong (in 
this case, say, a broken treaty)? Or a poor Latino or a poor Asian or 
even a poor white? Any of them might be able to trace his poverty to 
some historical wrong.
    But most fundamentally, why does it matter whether the poverty is 
traceable to a historical wrong? Suppose you have two children. One 
could show somehow that the reason he was poor was because of the 
discrimination his family suffered. The other child is poor for no 
reason except his mother and father just immigrated to this country 
from a poverty-stricken homeland. Is the government supposed to say, 
``We view the first child's poverty as a problem of federal concern, 
but not the second child's''?
    Of course not. There is no reason why eligibility for a social 
program ought to hinge on whether a citizen can trace his need for the 
program to this or that historical cause.
    If we design social programs to help disadvantaged people, and if 
disadvantaged people are disproportionately African American because of 
the discrimination that they have disproportionately suffered, then 
African Americans disproportionately will be eligible for those 
programs. And, indeed, that is the case today. More than that makes no 
sense. And if the commission simply recommends more social programs 
that are not race-based, then it is even harder to see why its 
historical focus should be on one particular subset of one particular 
racial group.
    If, finally, we were to make a social program available to those of 
one race and not to others, there would be serious constitutional 
problems. Presumably the justification for the program would be 
remedial, but the Supreme Court has--quite rightly--rejected general 
claims of societal discrimination as not sufficiently compelling to 
justify racial classifications.
                 an apology would make no sense either
    As for an apology, the second possible remedy listed by H.R. 40: 
The bill asks ``Whether the Government of the United States should 
offer a formal apology on behalf of the people of the United States for 
the perpetuation of gross human rights violations on African slaves and 
their descendants.''
    This is, at best, an odd apology. What would really be appropriate, 
of course, is for the slave-traders and the slave-masters to apologize 
to the slaves--but all these folks have long since passed on to their 
just rewards.
    So instead we have the U.S. government (which actually ended 
slavery, at the cost of much blood and treasure) apologizing on behalf 
of today's American people (none of whom ever owned slaves, and most of 
whom never had ancestors who did, either) to ... whom? The bill does 
not say. Maybe the idea is just to apologize to ourselves, but that 
seems rather strange. Presumably the idea is to apologize to living 
African Americans. But these African Americans are not slaves; many are 
descended from slaves, but many are not; many of the former--maybe most 
now--are descended from both slaves and slave-owners.
    Mr. Chairman, I cannot resist pointing out that, if there is anyone 
in the United States today from whom an apology for slavery and Jim 
Crow would be appropriate, it would be, not the U.S. government, and 
certainly not the American people--but the Democratic Party. It, after 
all, was historically the party of slavery, secession, and segregation.
    But let's be honest: Inevitably, such apologies are intended and 
interpreted as whites apologizing to blacks for slavery. (I wonder what 
Asians and Latinos, as well as American Indians, think of this 
theater?) But no white today is or ever was a slaveholder; no black 
today is or ever was a slave. What's the point of one apologizing to 
the other?
    Everyone has an ancestor who was wronged by someone else's 
ancestor; there is no point in trying to find a thread for each 
present-day misfortune in an individual's life that can be followed 
back through the decades to a particular misdeed; and anyone's poverty 
today likely has many causes--some old, some recent, some other 
people's fault, some one's own. Nobody nowadays thinks slavery was 
anything but an abomination; nobody learns anything from this charade.
    We are told that these apologies will help to bring closure, help 
enable us to move on. Nonsense--and that is not their intent, at least 
for many people. The idea is to reopen wounds, to keep grievance alive, 
to keep white people on the hook. An obsession with past wrongs, to the 
extent that present opportunity and future promise are ignored or 
slighted, is a bad thing.
    A great strength of Americans is that we are forward looking. The 
trouble with slavery apologies is that they are designed to make whites 
feel guilty and to urge blacks to think of themselves as victims. 
Neither emotion is valid in these closing days of the year 2007; both 
are bad for race relations. In particular, the last thing an African 
American needs in 2007 is an excuse to fail. As individual white people 
will go about their business--and Latinos and Asians and Arab Americans 
and American Indians--individual black people will be left with the 
same choice they've had for years: embrace self-reliance and 
responsibility, or fail and blame it on others.
                               conclusion
    All of this is true not just for the apology issue but also for the 
entire enterprise that H.R. 40 would embark on: That is, it would 
accomplish nothing and would cost much. And I don't mean monetary 
costs, but social costs: Specifically, the poisonous effect it would 
have a racial relations, and the pernicious message it would send, in 
particular, to those in the African American community, that their 
focus should be on what was done to them in the past, rather than the 
opportunities they have now.
    Thank you again, Mr. Chairman, for the opportunity to testify 
today. I would be happy to try to answer any questions the Subcommittee 
may have for me.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Conyers. Bishop Thomas Shaw of the Episcopal Diocese of 
Massachusetts was born and raised in Middle Creek, Michigan, 
which I am quite proud, and he chairs the Episcopal church's 
standing commission on national and international concerns. And 
is also a member of the Advisory Council for Anglican Observer 
to the United Nations. In 2000, he served as an intern for our 
former colleague Representative Samuel Holten, who is well 
remembered. And we are so pleased that you could join us today, 
Bishop, and you are recognized at this time.

TESTIMONY OF REVEREND M. THOMAS SHAW, III, SSJE, BISHOP OF THE 
                    DIOCESE OF MASSACHUSETTS

    Reverend Shaw. Thank you very much, Chairman Conyers. It is 
a pleasure to be back in Washington. And I am particularly 
pleased to be here today to speak to the oversight hearing on 
the abolition of the Trans-Atlantic slave trade. And I 
specifically ask that my full testimony be made part of the 
official record of this hearing.
    Mr. Conyers. Without objection, so ordered.
    Reverend Shaw. I should state at the outset that we as a 
church have asked God's forgiveness for our complicity in and 
injury done by the institution of slavery and its aftermath. I 
am ashamed to say that the Episcopal Church in the decades 
leading to the American Civil War did not formally address the 
problem of slavery. The post-Revolutionary War church wanted to 
avoid a schism within the church, which it was successful at 
doing, but avoiding that schism meant not addressing the issue 
of slavery in any official or collective way. With that painful 
background in our church, our 75th general convention meeting 
in 2006 looked to the upcoming bicentennial commemoration of 
the abolition of the slave trade as a time in which we could 
affirm or commitment to become a transformed anti-racism church 
and to work toward healing reconciliation and a restoration of 
the wholeness to the family of God.
    We looked to what we could do as the Episcopal Church as 
individuals, as parishes and Dioceses and also what we could 
ask all of you, the Congress to do. Among other things, the 
Episcopal Church decided to apologize as a church for our 
complicity in and injury done by the institution of slavery and 
its aftermath. We repented of this sin and asked God's grace 
and forgiveness ever mindful that we did so far too late. We 
decided to call upon the Congress and the American people to 
support legislation initiating study of and dialogue about the 
history and legacy of slavery in the United States, and the 
proposals for monetary and nonmonetary reparations to the 
descendants to the victims of slavery.
    We, therefore, as a church, fully support H.R. 40. We ask 
every Diocese in the Episcopal Church to collect and document 
detailed information in its community on A, the complicity of 
the Episcopal Church and the institution of slavery and in the 
subsequent history of segregation and discrimination; and B, 
the economic benefits the Episcopal Church derived from the 
institution of slavery.
    A report on that work will be made to our 2009 general 
convention on how the church can be a repair of the breach, 
both materially and relationally, and achieve the spiritual 
healing and reconciliation that will lead us to a new life in 
Christ. We believe that work essential to determining the 
remedies that might be considered. Work is now underway in a 
number of our Diocese including Mississippi where research on 
slavery and its impact on building the city of Natchez is 
already disclosed that its oldest Episcopal Church was built by 
slaves.
    The priest of St. Paul's Delray Beach in Southeast Florida 
is writing a history of the presence of and contributions of 
Blacks in the Episcopal Church in Florida. We are hopeful that 
what we learn will be helpful to the Commission that would be 
established under H.R. 40. We know that our exploration has 
just begun and that next year's release of the film, Traces of 
the Trade, will open the eyes of many to the legacy of slavery 
for both Black and White Americans and the role of the north 
and its perpetuation.
    And finally, we have asked that a day of repentance--for a 
day of repentance, and that that day be a service of repentance 
at the Washington National Cathedral and each Diocese to hold a 
similar service. That event is scheduled for October 4, 2008. 
And we invite all of you to join us. The full text of each of 
these resolutions is included as an appendix to my testimony, 
as well as two pastoral letters in 1994 and 2006 from the House 
of Bishops on the sin of racism.
    On December 30, 1799, the first Black priest in the 
Episcopal Church in the United States, Absalom Jones, and 70 
fellow signatories petitioned the House of Representatives to 
protect those taken by slave traders. They concluded their 
petition with a prayer for the real happiness of every member 
of a community. Nine years later on January 1, 1808, Jones 
would celebrate the end of U.S. participation in the Trans-
Atlantic slave trade with these words, the history of the world 
shows us that the deliverance of the children of Israel from 
their bondage is not the only instance in which it has pleased 
God to appear on behalf of oppressed and distressed nations as 
the deliver of the innocent and of those who call upon his 
name.
    He is as an unchangeable in his nature and character as he 
is in his wisdom and power. The great and blessed event which 
we have this day met to celebrate is a striking proof that the 
God of heaven and earth is the same yesterday and today and 
forever. We continue as a church to pray for what Absalom Jones 
called the real happiness of every member of the community, 
knowing that the blessed event of January 1, 1808 was an 
important step, not the final step in the emancipation of 
slaves. We are committed to becoming a transformed anti-racist 
church and to work toward healing reconciliation and 
restoration of wholeness to the family of God. We believe the 
work we are doing to research our church's complicity in the 
institution of the slave trade will help us, the Episcopal 
Church, to be transformed. We also believe that H.R. 40 will 
aid the Nation in its own continued healing. We look forward to 
the opportunity to continue this important and necessary work 
together. Thank you.
    Mr. Conyers. Thanks so much, Bishop Shaw.
    [The prepared statement of Reverend Shaw follows:]
            Prepared Statement of Bishop M. Thomas Shaw, III
    Thank you, Chairman Conyers. My name is Tom Shaw. I am the 
Episcopal Bishop of Massachusetts and I am honored to be here with this 
distinguished panel. As you may know, I was an intern in Representative 
Amo Houghton's office in 2000, so I am particularly pleased to be back 
in Washington for this important oversight hearing on the abolition of 
the trans-Atlantic slave trade.
    I should state at the outset that we, as a church, have asked God's 
forgiveness for our complicity in and the injury done by the 
institution of slavery and its aftermath. Unlike the Quakers who were 
leaders in the abolitionist movement, too many Episcopalians did not 
raise their voices when God would have wished them to do so. 
Episcopalians were owners of slaves and of the ships that brought them 
to this land. Episcopalians lived in the north and in the south and, as 
a privileged church, we today recognize that our Church benefited 
materially from the slave trade.
    The Episcopal Church in the decades leading to the American Civil 
War did not formally address the problem of slavery. The post-
Revolutionary War church wanted to avoid a schism within the church, 
which it was successful at doing (unlike the divisions that had 
occurred to Presbyterian, Methodist, and Baptist churches during this 
period over the issue of slavery) but avoiding that schism meant not 
addressing the issue of slavery in any official or collective way. With 
that painful history as background, our 75th General Convention meeting 
in 2006 looked to the upcoming bicentennial commemoration of the 
abolition of the slave trade as a time in which we could affirm ``our 
commitment to become a transformed, anti-racist church and to work 
toward healing, reconciliation, and a restoration of wholeness to the 
family of God.''
    As background I should explain that when our General Convention 
speaks it speaks for our whole church and only after careful 
discernment. The members of this committee would feel quite at home at 
our General Convention. It consists of a House of Deputies and a House 
of Bishops, and legislative committees that hold hearings such as this. 
Legislation must pass both Houses in the same form. So the voice of the 
General Convention is very much the voice of the Episcopal Church.
    And with that voice, we looked to what we could do as the Episcopal 
Church, as individuals, as parishes and dioceses--a diocese being a 
collection of churches in a single geographic area--and also what we 
could ask you, the Congress, to do. This is what the Episcopal Church 
decided:
    * We apologized as a Church for our complicity in, and the injury 
done by, the institution of slavery and its aftermath.'' We repented of 
this sin and asked God's grace and forgiveness, ever mindful that we 
did so far too late.
    * We recognized that slavery is a fundamental betrayal of the 
humanity of all persons and a ``sin that continues to plague our common 
life in the Church and our culture.'' Furthermore we expressed ``our 
most profound regret that (a) The Episcopal Church lent the institution 
of slavery its support and justification based on Scripture, and (b) 
after slavery was formally abolished, The Episcopal Church continued 
for at least a century to support de jure and de facto segregation and 
discrimination.''
    * We called upon the ``Congress and the American people to support 
legislation initiating study of and dialogue about the history and 
legacy of slavery in the United States and of proposals for monetary 
and non-monetary reparations to the descendants of the victims of 
slavery.'' We, therefore, fully support H.R. 40 which would establish a 
commission to examine those very issues and recommend appropriate 
remedies.
    * We asked every Diocese ``to collect and document . . . detailed 
information in its community on (a) the complicity of The Episcopal 
Church in the institution of slavery and in the subsequent history of 
segregation and discrimination and (b) the economic benefits The 
Episcopal Church derived from the institution of slavery.'' A report on 
that work will be made to our 2009 General Convention on how the Church 
can be ``the repairer of the breach'' (Isaiah 58:12), both materially 
and relationally, and achieve the spiritual healing and reconciliation 
that will lead us to a new life in Christ.'' We believe that work 
essential to determining the remedies that might be considered.
    Work is underway in a number of our dioceses, including 
Mississippi, where research on slavery and its impact on building the 
city of Natchez has already disclosed that its oldest Episcopal Church 
was built by slaves. The rector of St. Paul's Delray Beach in Southeast 
Florida is writing a history of the presence of, and contributions of 
blacks in the Episcopal Church in Florida. We are hopeful that what we 
learn will be helpful to the commission that would be established under 
H.R. 40. We know that our exploration has just begun and that next 
year's release of the film Traces of the Trade--a documentary being 
made by Katrina Brown, an Episcopalian from Rhode Island whose 
ancestors were involved in the slave trade--will open the eyes of many 
to the legacy of slavery for both black and white Americans, and the 
role of the North in its perpetuation.
    * Finally, we asked the elected leader of our church, the Presiding 
Bishop, to name a Day of Repentance and on that day to hold a Service 
of Repentance at the Washington National Cathedral, and each Diocese to 
hold a similar service. The Dioceses of New York, Newark, New Jersey 
and Long Island are joining in a service in commemoration of the 
abolition of the slave trade at the Cathedral of St. John the Divine in 
New York City on January 13, 2008. The National Cathedral event will be 
October 4, 2008 and we invite all of you to attend.
    The full text of each of these resolutions is included as an 
appendix to my testimony as well as two pastoral letters, 1994 and 
2006, from the House of Bishops on the sin of racism:
    Each of these actions is important and together they represent our 
effort to be ``repairers of the breach.'' We have much to overcome, and 
as the British Parliamentarian and crusader against slavery William 
Wilberforce told the House of Commons in 1789: ``We are all guilty--we 
ought to all plead guilty, and not to exculpate ourselves by throwing 
blame on others.'' The history that we are researching is essential to 
understanding our Church's role in the institution of slavery and its 
perpetuation. With fuller knowledge will come true repentance that will 
then open us to reconciliation and remedies that we believe are yet to 
be revealed.
    Ten years after Wilberforce's speech, on December 30, 1799, the 
first black priest in the Episcopal Church in the United States, 
Absalom Jones, and 70 fellow signatories petitioned the House of 
Representatives to protect those taken by slave traders. They concluded 
their petition with these words:
    ``In the Constitution, and the Fugitive bill, no mention is made of 
Black people or Slaves--therefore if the Bill of Rights, or the 
declaration of Congress are of any validity, we beseech that as we are 
men, we may be admitted to partake of the Liberties and unalienable 
Rights therein held forth--firmly believing that the extending of 
Justice and equity to all Classes, would be a means of drawing down the 
blessings of Heaven upon this Land, for the Peace and Prosperity of 
which, and the real happiness of every member of the Community, we 
fervently pray.
    Nine years later, on January 1, 1808 Jones would celebrate the end 
of US participation in the transatlantic slave trade:
    The history of the world shows us, that the deliverance of the 
children of Israel from their bondage, is not the only instance, in 
which it has pleased God to appear in behalf of oppressed and 
distressed nations, as the deliverer of the innocent, and of those who 
call upon his name. He is as unchangeable in his nature and character, 
as he is in his wisdom and power. The great and blessed event, which we 
have this day met to celebrate, is a striking proof, that the God of 
heaven and earth is the same, yesterday, and to-day, and for ever. 
(January 1, 1808 St. Thomas Church, Philadelphia)
    We continue to pray for Absalom Jones's ``real happiness of every 
member of the Community,'' knowing that the ``blessed event'' of 
January 1, 1808 was an important step, not the final step, in the 
emancipation of slaves. As the Episcopal Church resolved in 2006, we 
are committed to becoming ``a transformed, anti-racist church and to 
work toward healing, reconciliation, and a restoration of wholeness to 
the family of God.'' We believe the work we are doing to research our 
Church's complicity in the institution of the slave trade will help us, 
the Episcopal Church, to be transformed. We also believe that H.R. 40 
will aid the nation in its own continued healing. We look forward to 
the opportunity to continue this important and necessary work together.

    Mr. Conyers. We are being summoned to the floor for several 
votes. We will stand in recess. And we will have one of our 
staff members show you how you can get a very delicious lunch 
economically and make other perks available to you while we are 
gone. The Committee stands in recess.
    [Recess.]
    Mr. Conyers. The Committee will come to order. And the 
Chair recognizes the distinguished gentleman from Minnesota, 
Keith Ellison, for questions.
    Mr. Ellison. Thank you, Mr. Chairman. And also, there are 
moments in life where you just have to think thank God for 
being able to do what you do and being on this Committee today, 
you having called the Committee to address this critical 
subject. I certainly feel grateful and honored today. This is 
one of the high points of my service, to be able to address 
H.R. 40 and the Trans-Atlantic slave trade in the healing of 
our country. But I am not going to waste time talking, I am 
going get to some questions.
    Professor Ogletree, many of the people who disagree with 
the H.R. 40 would submit that this slavery stuff happened a 
long time ago, why don't we just move on. Do you find that 
there are other aspects of American society and culture that 
really do focus on history all the time, like, for example, we 
celebrate 4th of July every year, I have never heard anybody 
say, well, that happened a long time ago so let us just drop 
it. What is your reaction to the folks who say or submit that 
it happened a long time ago, we need to be forward looking and 
stop looking in the past?
    Mr. Ogletree. Congressman Ellison, that is a very good 
question and an excellent point. The reality is that the 
history is so important if we look at it carefully. Think about 
slavery and think about General Sherman's field order 15 during 
the Civil War when lots of lives were lost, Black and White, 
both from the confederate and from the union. Slaves and former 
slaves were told, we want you to fight for us for freedom and 
when you win this, we will give you reparation, it was very 
explicit, we will give you 40 acres. And that agreement was 
breached. We moved on.
    In fact, we moved on with the slave owners getting much of 
their property back, but the slaves not getting any of that 
promise. When you think about a Constitution that still has the 
three-fifth clause written in it and you think about our 
Founding Fathers owning slaves, we can't move on, it is our 
history, it is very important that we address it. And I have to 
applaud Bishop Shaw because the church did sit back and allow 
these atrocities to happen from the holocaust through slavery. 
And they recognize that you can't move on, you can't move 
forward without repairing the past, which I think is very 
important. And the final thing is that we are a Nation of 
history.
    And our children need to understand that we have overcome 
our past. We are not embarrassed by it, we are not disappointed 
alone that it happened, but we are prepared to move forward. 
And the reason we can't move on is because we have these sort 
of gotcha phrases when one of the witnesses talks about the 
reason we have this problem is because of the Democrats, make 
it party affiliated as if that matters. They were slave owners 
of every political persuasion and every part of our country, 
slave beneficiaries from New York, Rhode Island and 
Connecticut, all the way through the southern region.
    So we can't move on until we look back to move forward. And 
I am glad that this study will do that, allow us to look back 
to move forward. Let me make one other final point. I mentioned 
my point that John Hope Franklin, who chaired President 
Clinton's one America initiative in 1998 said, well, we should 
move on from this issue of slavery. Well, John Hope Franklin 
then realized his father Buck Colbert Franklin was a victim of 
the same sort of domestic terrorism in Tulsa in 1921. And he 
became a plaintiff in that case. John Hope Franklin was 92 
years old. How he felt when he was 50, 60, 70 or 80 is one 
thing.
    How he feels now tells us that time has made him even more 
aware of our need to heal, but also to look back as a historian 
to create some of the errors of the 17th, 18th and 19th and 
20th century as we move forward to the 21st Century.
    Mr. Ellison. Thank you. I just want to commend you, Bishop 
Shaw. It is a tremendously courageous move by the Episcopal 
Church. Do you feel that by addressing this issue of slavery in 
a forthright honest manner that you are contributing to 
dividing and fracturing America or in your view is this a way 
for us to reconcile? And I just mention before I turn the mic 
to you, is that I recognize that we have recognized Japanese 
internment and done reparations, and yet, Japanese Americans 
are as authentically and thoroughly American today as they ever 
have been in the history of our country, perhaps even more so, 
we having addressed that terrible wrong committed. Do you think 
that by addressing this issue, we are contributing to the 
fracturing of America?
    Reverend Shaw. No. Quite the opposite. I think that by 
addressing this issue in a straightforward way, we are really 
contributing to the healing, the spiritual healing and economic 
healing if that should take place of the people in the United 
States. And I think someone who is a member of our church, 
Archbishop Edmund Tutu has really shown that in South Africa, 
that this kind of transparency leads to healing and to 
reconciliation. And that is the kind of discussion that we want 
to have over the next few years.
    Mr. Ellison. You are referring to the truth and 
reconciliation?
    Reverend Shaw. Yes.
    Mr. Ellison. And that commission is dealing with issues 
that happened really only 20 years ago if that, and a 
tremendous atrocity and yet we see South Africa, though far, 
far, far from where it wants to be slowly incrementally moving 
to our society, is that right?
    Reverend Shaw. Yes.
    Mr. Ellison. Mr. Clegg, can you help me understand, as 
Americans, do we still deal with and address historical 
phenomena that lingers in our present day to day? For example, 
I was talking to a friend of mine who is a professor of wills 
and trusts, and he told me that he was trying to help carry out 
the intent of an individual who wrote a will in 1862. He said 
it is not unusual to do these kind of things. I mean, talk to 
us for a moment, if you would, about how much recent events 
really impact the modern world that we are in?
    Mr. Clegg. History is extremely important in understanding 
the world that we live in. As a conservative, I certainly 
believe that. I am somebody who believes that the meaning of a 
document, the U.S. Constitution, even though it was written a 
couple hundred years ago, still determines what it is lawful 
for this body to do.
    Mr. Ellison. And yet, you seem to be so willing to say 
well, we need to look forward and just sort of, like, forget 
about slavery.
    Mr. Clegg. No, I didn't say that. I don't think that we 
should forget about slavery. I think, though, that there are 
uses and abuses of history. And I think that dwelling on the 
past and looking to the past for reasons for current problems 
can become a distraction from addressing those problems and 
moving on.
    Mr. Ellison. Mr. Clegg, I have got to reclaim my time now. 
But I am curious to know--I am just going to make a quick 
observation. Whenever I hear folks say that well, I believe in 
a colorblind America, and I am just for equality. And when they 
use that to sort of make an argument that we shouldn't address 
slavery, we shouldn't address historic inequality, and we just 
want to make everything equal now, I always wonder. I said I 
guess this person must have been a very active participant in 
the civil rights movement because clearly, the most glaring 
violation of the idea of equal protection in at least the 20th 
century was Jim Crow, so I could ensure that you would have a 
long history in fighting for sights for African Americans, 
Latino Americans to make our study truly colorblind when, in 
fact, our society was clearly violating those ideas of equal 
protection. I don't want to ask you to read your own resume, 
but I will be looking forward to see if you have been 
consistent over the years.
    Mr. Clegg. I have been, I have been. I can tell you there 
has never been a time when I have supported discrimination of 
any kind. I was born in 1955, so I can't claim to have been 
there with Dr. King in 1963 or anything like that. However, the 
founder and chairman of our organization, Linda Chavez very 
much was a part of the civil rights movement.
    Mr. Ellison. Thank you, Mr. Clegg. I am going to reclaim my 
time now because I want to ask--I am sorry, ma'am, I am having 
difficulty with your name. Forgive me for that. I do apologize.
    Ms. Tyehimba. Ms. Tyehimba.
    Mr. Ellison. Tyehimba. Ms. Tyehimba, I was a law student 
between 1987 and 1990 and we would study contracts and 
property. And when we would open up our contract books, we 
would talk about property cases that happened way back in 
England and stuff like that. And we would talk about modern 
contracting property cases. But the people--America's property 
between 1619 and 1865 was American slaves, and yet we never 
have any cases on that and we didn't have that many cases, we 
didn't really explore it that in depth while even after 1865.
    I am just curious to know, do you agree that there is just 
an abundance of information and analysis and scholarship on 
American slavery and that there is really no need for a 
commission?
    Ms. Tyehimba. There is certainly a lot of documentation 
there. This is about getting out the truth, Congressman 
Ellison. If we don't press the issue, then these things will 
not be elevated and be given the attention. They are buried 
right now. And it is as if having a documentary that gets shown 
once a year that never reaches our schools, where the issues 
are never addressed in our newspapers, whether our museums 
adequately address these issues, then no one really knows them. 
And that is the importance of this. The reparations movement at 
its heart is about getting out the truth.
    Mr. Ellison. Professor----
    Mr. Conyers. The gentleman's time is way over.
    Mr. Ellison. Sorry. Forgive me, Mr. Chairman, I didn't 
realize.
    Mr. Conyers. Well, neither did I. The Chair is very pleased 
to recognize Trent Franks, the gentleman from Arizona.
    Mr. Franks. Well, thank you again, Mr. Chairman. Mr. 
Chairman, I, in listening to Mr. Ogletree's comments in the 
beginning here, I was just so compelled by the foundation of 
what he is motivated by. And I believe that that is something 
that I share in common with him. And I want to try to start out 
with the things that we believe in common. And I think you are 
correct beyond words that history is important. I think if 
there is something good that can really come from this hearing, 
it is that we would honestly examine our history. You said that 
history repeats itself. There is a lot of variations to that.
    Someone said that the only thing we learn from history is 
that we don't learn from history and history does, in fact, 
repeat itself, and each time it does, the price goes up. And as 
I say, I am just very compelled by that because I believe it is 
vital for any country like ours to clearly understand our past 
and our history. And so I want you to know there is a strong 
heartfelt resonance with that belief. And I guess the reason I 
think that that applies to some of the comments I have been 
making here today is that the reason, the reason slavery 
occurred, at least in my opinion, was because people in that 
day lost sight of the humanity of their fellow human beings.
    We lost sight that all God's children are created in his 
image and therefore have inestimable internal and calculable 
value. And to desecrate another human being as slavery did to 
millions is unconscionable and beggars my ability to describe. 
And it occurs to me, because something was that dramatic that 
we must be very, very careful to examine the cause of slavery 
and to make sure that we don't see those things happen again. I 
am convinced that when we as human beings lose sight of our 
fellow human being's humanity; whether they be unborn children, 
Mr. Chairman, whether they be Black, Mr. Chairman, whether they 
be poor, whether they be Jews, whatever they are, if we lose 
sight of their humanity, I believe that we have a repeating 
dialogue in history where, to name three examples, the German 
high tribunal, their Supreme Court, as it were, said that the 
Jew was ``untermensch,'' subhuman, not a human being in the 
fullest sense, to give their justices so-called credit in the 
fullest sense, they weren't human beings in the fullest sense. 
And when they did that, when they robbed them of their 
humanity, then it was easy to kill 6 million of them.
    But we should not forget in this society, that the entire 
Nazi Holocaust started when the medical community, the 
intelligencia of Germany, decided that it was okay to kill one 
little retarded boy because he wasn't what everybody else 
thought he should be. And that is a recurring point. Not only 
did 6 million Jews die, 50 million died in this World War to 
try to change that. And atomic bombs fell on cities. Then came 
things like the Dred Scott decision, or actually before that, 
they said that the Black man was not a person in the fullest 
sense. And millions were enslaved and it was a tragedy that 
beggars description.
    Not only were millions of God's children desecrated and 
raped of life and freedom, but the response to that on the rest 
of society's part, the Civil War, killed thousands more, more 
than any other war in our history. Then comes along Roe v. 
Wade. I believe that the reason I mention this is because the 
realities are so powerful and so connected and said that the 
unborn child is not a person in the fullest sense, and we have 
killed 50 million of them.
    And I don't know if some panel some day will say maybe we 
should have reparation hearings on what we have done there or 
what the effects will be on 50 million dead children in 
America, what will be the impact of America's foundation being 
stained by the blood of its own children. I don't know.
    But I will say to you that there is a recurring theme. 
Whenever we debase any of God's children, no matter who they 
are, we step into the dark. And that is why we are here today. 
And I believe that there could be something that could come 
from this that would be very good. Maybe we need a new 
emancipation in America to where we consider the past tragedies 
and see when we start to step into these darkness areas where 
we fail to recognize the humanity of someone and then we begin 
to say, well, then it is all right to do these horrible things.
    And Mr. Chairman, I want to apologize both to--well, I 
guess he is not here, Mr. Nadler and to Mr. Ogletree, regarding 
making comparisons with present day parties. That is really not 
what I meant to do. What I meant to say was that I don't 
blame--you know, I don't think Mr. Conyers here should 
apologize for slavery. I don't think it was his fault. I don't 
think it was the Democratic Party's fault of today. What I am 
saying is that we are facing a very similar situation today, 
and that there is a common thread among all of them.
    I am not trying to elevate the unborn above any other 
humanity. I am saying that there is a common thread here and 
that today's parties have a major disagreement. And I would say 
to you in the most sincere way to the Democratic Party, they 
will never be the party of children, they will never be the 
party of civil rights, they will never be the party that 
addresses the desecration of U.S. humanity while they stand for 
killing 4,000 children a day. It can't happen.
    If we want to truly address the past, then we have to 
address our situation today. Then we will have not only the 
courage but we will have the moral foundation to correct the 
past. And until we as a society say from now on we are going to 
recognize the humanity of all God's children, the dreams of our 
Founding Fathers of holding the self-evident truths to be that 
all men are created will never be realized. And Martin Luther 
King's dreams, all of those things will never be realized until 
we say the reason that these things were wrong in the first 
place is because they desecrated the life of one of God's 
children.
    Now, I have one question and I am through. And I am sorry 
for getting a little dramatic here, but I am not sorry for what 
I have said. I would like to ask you, Mr. Clegg, and then pass 
it along to me, what do you think--I have already told you what 
I thought was the problem, what caused slavery, was that we 
lost sight of humanity of a fellow human being. What do you 
think was the fundamental societal cause of slavery and how can 
we apply that today so that we don't let things like that 
happen in the future in America.
    Mr. Clegg. Well, I can't really, I think, add very much to 
what you have already so eloquently said. I think that in order 
to enslave someone, in order to treat them as less than fully 
human, you have to convince yourself first that that person is 
less than fully human. And I think that that is what happened. 
And as far as applying that to the present day, I agree with 
you on that, too. When you look at these very intelligent 
people back in the mid 1800's and the fact that so many of them 
seem to think that this was okay, it is very humbling because 
you then ask yourself: Well, gee, these were not stupid people, 
these were not immoral people, what are we missing today, what 
is it that people 100 years from now will be ashamed of in our 
history?
    And I think that you are right, that the best candidate for 
that is the slaughter of the unborn. Beyond that, I think it is 
also critically important that we take away from the Civil War 
and the civil rights movement the importance of all Americans 
being judged, as Dr. King said, by the content of their 
character and not the color of their skin.
    Mr. Franks. Mr. Chairman, I know my time is out. If there 
is anyone else you would allow to address the question, great. 
If not, I will yield back.
    Mr. Conyers. Well, Professor Ogletree was originally asked 
to answer, so let us let him respond.
    Mr. Ogletree. And I will be very brief, Congressman Franks. 
Your points are well taken. It is a little unsettling that with 
the passion you show for this unspeakable American dilemma of 
abortion that you choose the one and only occasion we have ever 
had a hearing on H.R. 40. And it is important that Members of 
Congress, that you bring your issues up when you can. But I 
think it seems a little odd that as passionate as you feel 
about those issues, that I am not hearing the same sense about 
the travesties that are centuries old.
    The second point is this: You asked what is the, what can 
we connect this to, what's the cause. In one word, I would say 
silence. When we are silent, when we see tragedies and 
travesties, that is the greatest harm. We see it, we hear it, 
we observe it, but we are silent in reacting to it, whether it 
is the Holocaust, whether it is slavery, whatever it might be. 
And the silence, the reason this study is so important, the 
silence hasn't ended. We are talking about slavery as if it is 
a past issue. But in Darfur and Sudan on our watch, when we 
have power, at least moral persuasion, people are in slavery in 
the world today. And so that is why I think it is important 
that we study this, because both of our views are the same. If 
we fail to understand history, we are doomed to repeat it. And 
here is a classic example of where we are repeating history 
because we didn't understand it decades and centuries before.
    Mr. Franks. Mr. Chairman, may I just say I agree with the 
gentleman strongly. I want him to know just for the record that 
the Chairman is probably aware that when it comes to the human 
rights in other areas, specifically Darfur, because that is the 
one that you mentioned, Mr. Chairman, I stayed up one night 
making sure that the genocide treaty got through the Senate 
when no one else was really trying. So I want you to know that 
my passion for this does go across the board. The reason that I 
bring this abortion on demand up is because it is happening 
right now. And I feel like until we deal with and put down the 
knives and deal with us stopping the killing today, then it is 
hard for us to address where we have been or where we are 
going. But I want you to know I do truly agree with you that 
that passion should not be singled out for just one area of 
humanity. Thank you, sir.
    Ms. Tyehimba. Congressman Conyers, may I please respond 
very briefly. Congressman Franks, I appreciate your concern 
about unborn children. I would also like to ask that you have 
that same level of emotion when we address the mortality rate 
of African descendent children, particularly in this country. 
And I also would like to say that we need to reiterate that 
slavery took place, certainly because of silence, also because 
of greed, we used religion to support what we did. And one 
thing that we have to pay close attention to right now, and I 
hope that you will join in this fight as well, and that is to 
make sure that the media is not used to demonize the people.
    Mr. Conyers. Could I point out to all here that I am 
beginning to think that this is the commission on reparations 
which we are determining whether we should have or not. I would 
like to--I have got some nominees to come before the 
Commission. Because this is precisely the discussion that has 
certainly not been held in the Congress.
    And as I suggest, because of my continued support of this 
legislation, it hadn't been held officially in the government 
anywhere. There have been isolated speeches and there have been 
academic participation in this, but there has never been an 
official government study. So it is not whether you are for 
reparations or what kind of reparations you are for or whether 
you are against reparations, it is whether we have the 
discussion on reparations which we are having here.
    This begins to suggest to me that we need more than one 
hearing. It suggests to me that this is a very healthy 
dialogue. We are not hurling accusations at one another or 
personalizing our particular philosophy and point of view. What 
we are doing is holding up for examination of everyone, not 
just in the country, believe me, this is an international 
question, what it is we should do about this, should it be 
nothing, should it be something, should it be something that no 
one has talked about. The selection of these views are what 
bring us here today to examine H.R. 40, which is not a 
reparations bill. It is a bill to create a commission to 
examine reparations. And so I am pleased of the tenor of this 
discussion. I turn now to the Chairman of the Crime 
Subcommittee on Judiciary, the Honorable Bobby Scott of 
Virginia.
    Mr. Scott. Thank you, Mr. Chairman, and thank you for 
introducing your legislation. People have talked about history 
and the distractions about it. We are going to have some 
discussion about the history. And I want to focus the 
discussion on the present. Furthermore, I reiterate the point 
you have made, this is a study, not what to do. This doesn't 
require us to do anything other than the study. Then we can 
decide whether or not it is appropriate to do anything. But in 
my judgment, there are some present effects of the reality of 
state sanctioned slavery that are appropriate to be studied. 
Let me ask Professor Ogletree whether or not the known 
discrimination in mortgage rates where African Americans pay 
more for a mortgage today than others, is that, if you compound 
that additional payment over a lifetime, does that have a 
present effect on a person's wealth?
    Mr. Ogletree. Congressman Scott, thank you. The answer is, 
of course, yes. And it reminds me of the comment that my dear 
friend, Roger Clegg, made that what brings us here is the 
phrase, e pluribus unum, out of many comes one. But my question 
is where are we one. If you look at education, health care, 
employment, housing, wealth, racial profiling, mortgage rates, 
credit, all those things tell us that we are not one. We are 
judged to a long extent by a legacy that started centuries ago 
and continues even today.
    Mr. Scott. And that has a present effect?
    Mr. Ogletree. Indeed.
    Mr. Scott. You mentioned some others; insurance rates. Is 
there evidence that African Americans pay more for insurance, 
same insurance than others pay.
    Mr. Ogletree. Yes.
    Mr. Scott. Car prices?
    Mr. Ogletree. Yes.
    Mr. Scott. If you compound this over a lifetime, all these 
additional payments would that amount to much money.
    Mr. Ogletree. Not millions, but beyond billions.
    Mr. Scott. Housing discrimination, most of a person's 
household wealth is in the equity in their home. If African 
Americans find themselves in segregated housing opportunities, 
does that affect their ability to develop wealth today?
    Mr. Ogletree. Yes.
    Mr. Scott. And is that effect worth studying, not doing 
anything about it, yet but studying?
    Mr. Ogletree. Absolutely.
    Mr. Scott. Now, contracts. Notwithstanding the fact that 
there is legislation, some of which has pushed the envelope so 
far as to be found unconstitutional, trying to get minorities 
Federal contracts and other contracts, still it is virtually 
100 percent for one-third of the population White males, women 
and racial minorities representing two-thirds of the population 
getting virtually nothing, those numbers cannot happen 
randomly, is that worth studying to ascertain whether or not 
that is a present effect of slavery?
    Mr. Ogletree. Yes.
    Mr. Scott. Education you mentioned. There is some areas in 
minority communities where the dropout rate is 50 percent. 
People are not getting an education. There were historically 
limited opportunities to go to college. Does this affect--I 
mean in some areas, you got it so bad people aren't going to 
college, you got what the Children's Defense Fund calls the 
cradle-to-prison pipeline, which shows where we are making our 
investment. Is that something that should be studied?
    Mr. Ogletree. Yes.
    Mr. Scott. Now, if we study this, will there be options 
available to us that the study might reveal that would be 
options other than cash to individuals?
    Mr. Ogletree. A large range of options, public policy, 
issues of trying to ensure compliance. It is not all just a 
question of financial opportunities. And one of the biggest 
advantages is when people know more, they can be healthier, 
they can be wealthier, they can be educated, they can have 
housing, jobs. There are nonfinancial advantages to people 
having an equal opportunity.
    Mr. Scott. And might some of the results of the study 
suggest that we ought to address poverty generally?
    Mr. Ogletree. Indeed. It was 42 years ago when President 
Johnson spoke at Howard University commencement. And I would 
urge this Committee to put his speech in the record. He talked 
about the disparities in 1965, how bad things were and how far 
we have come. It is ironic from 1965 to 2007, the disparities 
have increased instead of diminished. So poverty that we 
thought we addressed in the 1960's is as pervasive in some 
respects now and even more pervasive in other respects than it 
was 42 years ago when it was a prime consideration of our 
government.
    Mr. Scott. So if we can ascertain that some poverty today 
is directly linked to the lingering effects of slavery, we 
might want to address all poverty as Mr. Clegg has suggested, 
not just that poverty directly related to slavery, but all 
poverty would be addressed and education generally. Would that 
be a possibility without focusing just on educational 
disparities attributable to slavery, but we may find that 
addressing education generally might be a good idea?
    Mr. Ogletree. If we look at Katrina 2005, if we look at 
coal miners in places like West Virginia today, we look at 
Appalachian communities and rural poverty, it is a universal 
concern. And I think that is something that can be accomplished 
that will serve all of America.
    Mr. Clegg. Congressman Scott, I don't know if you wanted me 
to respond as well.
    Mr. Scott. Let me ask one other question if I can. Brown v. 
Board of Education Professor Ogletree included the effects on 
people of state sanctioned segregation. Does that philosophy 
embodied in Brown v. Board of Education, is that still an 
effect worth studying?
    Mr. Ogletree. Indeed. In fact, as much as we think about 
government roles, the reality is that much of Congress was 
resistant that goes around. And there is something called the 
southern manifesto in 17 southern States that resisted, 
including your home State of Virginia, which closed down the 
public schools to African Americans. So it is certainly worth 
studying, because the paper trail on how people were treated on 
race goes far beyond what happened in 1607 or 1619, it goes 
until the 1960's and it continues with measures that have been 
passed in 21st Century as well.
    Mr. Scott. Thank you. Mr. Clegg.
    Mr. Clegg. Congressman Scott, all of those disparities that 
you listed are already being studied. They are already being 
studied to an extremely thorough extent. They will continue to 
be studied.
    And I am sure that, in terms of causation, one cause of 
them will be discrimination. There will be other causes as 
well. I have already talked about the impact of illegitimacy, 
out-of-wedlock births, on just about any social problem that 
you can name.
    It will also be the case though, that whatever these 
studies conclude, that the solution, the remedy is not going to 
be more discrimination. It is not going to be to single out 
some people because of their skin color as deserving of 
preferences or special treatment that other people don't get.
    I mean, let us fess up: The reason for this bill is not to 
do studies that aren't being done. I mean, $8 million and seven 
additional experts is not very much. It is ridiculous to think 
that they are going to be able to make a dent in studying the 
very serious and widespread problems that you have listed.
    The reason for this bill is to lay the groundwork for 
reparations. That conclusion to award reparations, I think, has 
already been reached by a lot of people, and it is a wrong 
conclusion, a destructive one, a divisive one, a distraction, 
and one that we should not be wasting our time on.
    Mr. Scott. Well, do you agree that some of the present 
social pathology is directly attributable to slavery?
    Mr. Clegg. I think, yes, but I think that it is impossible 
to----
    Mr. Scott. Well then, everybody does not agree to that. 
That is why we need a study to convince them as you apparently 
are convinced.
    Mr. Clegg. Look, you are not going to be able to convince 
people through this study that current disparities were or were 
not attributable in some way to slavery.
    Mr. Conyers. Would the gentleman yield for just a moment?
    Mr. Scott. I will yield the balance of my time to the 
Chairman.
    Mr. Conyers. Well, you do not have any balance of time 
left, but that is a very generous effort on your part.
    Mr. Clegg, that is what we want to find out.
    Mr. Clegg. But you cannot find that out through this 
commission.
    Mr. Conyers. Well, you cannot tell us that we cannot find 
it out and not do it. As a matter of fact, when you say let us 
'fess up and we are laying the groundwork for reparations, I 
have no idea who is going to be on the commission. Unless you 
think that the study is going to lead to an increased support 
for reparations, I do not know how we can hold a hearing on 
whether we should hold a study or not. You say we do not need 
it, we already know. Well, all of those things that you 
mentioned----
    Mr. Clegg. I did not say that we already know. I said that 
it is already being studied, and----
    Mr. Conyers. All right. I will take that back then if it 
will make this conversation move more quickly.
    The point here is that you said to Mr. Scott that all of 
those things that are already being studied are not being 
studied in relationship to the lingering effects of slavery. If 
they are, please send me the information right away, not that 
it would mean we do not need a study, but to say that these are 
all being studied so you do not need to have this study, I have 
a list of studies in the Congress, for which we are famous, 
about everything that goes into the atmosphere and more 
esoteric subjects than you or I would care to want to read into 
the record.
    Here is a huge historical fact that Mr. Franks has made 
such a great emphasis on and that we all agree is important. 
Then you say but an $8 million study for a year is not enough. 
Well, maybe we need a longer study and more money appropriated 
to it. I cannot tell you that we do or not, but you are giving 
me something to think about, and that is why we are holding the 
hearing.
    Mr. Clegg. Well, Mr. Chairman, what I said was that all of 
these things are being studied all over the country by 
professors and think tanks and State governments and you name 
it, and there are a lot of lawyers out there who want to know 
to what extent these different disparities are caused by 
discrimination of one kind or another. Of course, this 
commission is not limited to studying the effects of slavery. 
It is going to cover all kinds of discrimination. Believe me--
and I think you know--there is no shortage of those kinds of 
studies. The problem is that it is interesting, but it is also, 
in a sense, almost impossible to look at something that is 
going on today and to say, ``Can I trace this to something that 
happened 100 years ago?'' Yes, you can do that, but there are 
multiple----
    Mr. Conyers. Yes, you can. We cannot dismiss it. I cannot 
call a hearing and say it is impossible, and you know it. I do 
not know it. Besides, neither of us knows what the work product 
of this commission is going to be no matter if it runs for 1 
year or 2 years.
    The point is we did not come here to say this is a very 
important subject, but let us dismiss it because there are 
studies out there all the time. This Committee has been so busy 
that we have not been able to get to Mr. Franks' most 
passionate issue, and it is in the jurisdiction of this 
Committee. The Department of Justice every week gives us more 
work to do in terms of getting the Department of Justice 
straightened out. We have got questions now about the 
destruction of CIA film. We have issues dealing with the whole 
realm of the jurisdiction of the Committee. For me to say let 
us 'fess up and you know where this is all going and that there 
are studies out there does not persuade me to say, ``Well, we 
had a hearing, and one of our regular witnesses said, look, 
guys, you can go find this yourselves.''
    We want to let somebody else do it. We do not have time to 
do this, sir, believe me. I would enjoy this Committee's 
studying this, but I would like now to move to Steve King if I 
can. Thank you very much.
    Mr. King. Thank you, Mr. Chairman. I hope you will consider 
nominating me for the commission should we get to that point. I 
would be very interested in this subject matter as well.
    Mr. Conyers. I would be happy, if I have any influence over 
who is going to be on the commission, to do that.
    Mr. King. I would really identify you as the most 
influential individual when it comes to that, and I appreciate 
the consideration.
    I want to maybe turn to a little bit of housekeeping over 
here and take care of it here with Mr. Ogletree, your statement 
that the Constitution still has a three-fifths clause in it. I 
turn to Article I, Section 2, and I read ``Representatives 
shall be apportioned according to their respective numbers 
which shall be determined by adding to the whole number of free 
persons, three-fifths of all other persons.'' Now, I have 
abbreviated that a little bit, but I think it reads in its 
continuity.
    That would be the section to which you are referring?
    Mr. Ogletree. Yes.
    Mr. King. That statement still has the three-fifths clause 
in it, but when I turn then to Section 2 of the 14th amendment, 
it says, ``Representatives shall be apportioned among the 
several States, according to their respective numbers, counting 
the whole number of persons in each State.''
    Would you agree that that has been amended out and no 
longer is in the Constitution?
    Mr. Ogletree. That was the purpose of the 13th, 14th and 
15th amendments.
    Mr. King. So the Constitution no longer really does contain 
in its text, as is its meaning today, three-fifths because that 
has been amended out by the 14th amendment, Section 2?
    Mr. Ogletree. Right.
    Mr. King. Okay. I raise this point, Mr. Ogletree, because 
it concerns me that--I hear that dialogue come up continually, 
and I believe there are people out there in America who believe 
what you said in your testimony that three-fifths is in the 
Constitution. Yes, it is in the text. It is in our history. I 
acknowledge it is in our history and that slavery is in our 
history, but we no longer have slavery in the amendment, in the 
14th amendment. It is out.
    So would you agree with me that it is inappropriate to 
continue that kind of dialogue?
    Mr. Ogletree. Let me tell you what is inappropriate. The 
statement that you made was that slaves were considered only 
three-fifths of a person. The reality is that they were not 
considered persons at all. The three-fifths clause was there 
not for slaves to have any rights or power. It was there to 
have slave owners to have some proportional representation in 
Congress and other means, so the idea
    that----
    Mr. King. I agree with that representation.
    Mr. Ogletree. I was picking up on the good point that 
Congressman Franks made about Dred Scott, you know, the irony 
of what Chief Justice Roger Taney said in 1857. There were no 
rights at all. My point is that the three-fifths clause always 
reflected the power of White slave owners. It never reflected 
the power of a former slave or a slave to do anything, is my 
point.
    Mr. King. I agree with your point, and I am glad you made 
that point, but I want you to agree with my point that three-
fifths is no longer part of this Constitution.
    Mr. Ogletree. That is exactly right. Thank God for the 
13th, 14th and 15th amendments.
    Mr. King. Thank you. I would appreciate it if it were not 
part of the dialogue that informs Americans that it is 
currently in there. I think you have given the proper 
historical analysis of it in your response to my question, and 
I very much appreciate that.
    Mr. Ogletree. Right.
    Mr. King. You also referenced the promise of 40 acres. I do 
not think I tuned in quite well enough. I have always heard it 
as 40 acres and a mule.
    Mr. Ogletree. Forty acres of tillable land. This is General 
Sherman, Field Order No. 15, that was designed to encourage 
slaves and former slaves to fight in the Civil War on the side 
of the Union.
    Mr. King. Now, this is a document that has been published?
    Mr. Ogletree. Yes. Yes.
    Mr. King. It has a signature on it, I presume.
    Mr. Ogletree. I will give you the entire history. It is 
well-known, but I will submit that to the Committee as well as 
General Johnson's rejection of that after the war.
    Mr. Conyers. Without objection, we will accept those 
documents.
    Mr. King. I do appreciate that, and that is a piece of 
history that I need to sit down and read so that--I am not 
boring, am I, Mr. Ogletree? It is a piece of the history that I 
believe I need to have.
    However, is it your position before this Committee that a 
Civil War general can bind then a promise that goes beyond the 
century and into the next century? I mean we are sitting here 
as a Congress that cannot bind the next Congress. I believe 
that you are making the statement that, as to that promise that 
was made, somehow we are obligated to follow through on that. I 
am wondering by what authority you would make that allegation.
    Mr. Ogletree. Let me be clear as to what I said.
    General Sherman issued Field Order No. 15 on January 16, 
1865, targeting respectable Negroes, heads of families, et 
cetera, and promised that they would receive a plot of not more 
than 40 acres of tillable land, et cetera. That is what he 
promised. My point is that that promise was broken. That is why 
studying this history is important. It was never kept. You did 
not know this history. I know it because it is very important 
to me.
    Mr. King. I knew pieces of it. I did not know the details.
    Mr. Ogletree. It is very clear. Those who have been 
involved in this effort for decades have been very concerned 
about it, but the history is there, and there are other broken 
promises. So the study will allow us to have a record for the 
first time. Ah, we did not know that right after slavery and in 
the heart of slavery that there were some efforts to move 
forward. We did not know that promises were made and broken.
    Mr. King. So those who stepped forward and fought would be 
the ones, you believe, whose descendents deserve reparations?
    Mr. Ogletree. At least. They were promised that. In fact, 
the reality is that----
    Mr. King. I mean, if we are going to use this as a 
guidepost, then we would also have to identify who the 
descendents are of the people who honorably stepped forward and 
defended.
    Mr. Ogletree. We would like to. That is one of the problems 
of history, Congressman King. Again, you can point to your 1800 
Bible. I cannot.
    Mr. King. I did hear your remark on that.
    Mr. Ogletree. Right.
    Mr. King. I had them bring it over, so it is here and it is 
real.
    Mr. Ogletree. I hope you treasure that.
    Mr. King. Absolutely.
    Mr. Ogletree. I wish I could identify with anything--
anything--in the 20th century or in the 19th century or in the 
18th century. I do know that my family did not come from 
Arkansas and Alabama. They may have ended up there, but I know 
they came from much further than that.
    So my point is that studying history helps us to appreciate 
this and to appreciate the fact that we still have a long way 
to go. Thank God, despite all of those barriers, I am here; I 
have a job; I have a reputation; I have a profession. But that 
does not address the millions of people who are suffering 
because they never received the benefits of----
    Mr. King. And you also recollect that I stated that my 
grandfather's artifacts were lost because he was killed in the 
Civil War.
    Mr. Ogletree. Right.
    Mr. King. That would be the same kind of loss of history 
that you have expressed here.
    Mr. Scott. Would the gentleman yield? Would the gentleman 
yield for just a quick question?
    Mr. King. Depending on how much time I might have.
    Mr. Conyers. The gentleman's time is nearly extinguished. 
If he can finish up----
    Mr. King. I would like to then just finish up, Mr. 
Chairman, and not yield because there is a question here that I 
think is really important philosophically before this 
Committee.
    That is the issue of some people suffered under slavery and 
some people suffered mightily to end slavery. Sometimes it was 
the same people. Sometimes it was slaves who suffered mightily 
to end slavery. Sometimes it was abolitionists who came from 
the North who suffered mightily and who gave their lives to end 
slavery.
    Maybe if I could compress this question down to John Brown 
and ask you as a panel: Do you believe, if reparations are to 
be paid, that they should be paid by the family of John Brown 
or that they should be paid to the descendents of John Brown?
    I would like to start on the panel and hear the answer.
    Reverend Shaw. I do not think we know the answer to the 
question. You know, I have been sitting here, trying to listen 
to this conversation and to translate it into language of 
faith. I think the word that I have come up with is 
``discernment'' and that H.R. 40 is about the issue of 
discernment, the point being that every human being brings part 
of God to a discussion, and the discussion is always important 
if we are going to find God's way and God's truth. What this 
H.R. 40 is about is carrying on that process of discernment so 
that we can find out the truth of faith.
    I think, to answer your question directly, we do not know, 
and I think that that is what Chairman Conyers is saying that 
this resolution will take care of.
    Mr. King. Mr. Clegg.
    Mr. Clegg. Well, I would say the answer is neither. The 
reason is that not only do we not know, but in a sense it is 
really unknowable whether the descendents of John Brown, 
``Deserve,'' reparations or not. It is impossible to tell in 
2007 or to speak with any kind of moral authority about whether 
someone deserves more than they have because of events that 
happened 150 years ago. There is too much that has happened 
since then that also affects where an individual is.
    Mr. King. Thank you.
    The gentlelady.
    Mr. Conyers. I thank the gentleman so much.
    Ms. Tyehimba. Congressman, may I respond, please?
    I think that what we need to look at in terms of religious 
doctrine is that they normally say that the enslaver, when they 
release the enslaved, has a responsibility to provide something 
so that that formerly enslaved person is capable of taking care 
of himself. That was never done. What we actually saw, however, 
was, particularly in the area in Washington, D.C., that the 
former slave owners received reparations, but those who were 
enslaved received nothing. So we have to get to that.
    The reason for, I think, concern here when you discuss 
reparations is that it goes back to this discussion of a check, 
and it is not----
    Mr. King. Can you answer to the family of John Brown, 
though, please?
    Ms. Tyehimba. I am not going to respond to that. I think 
what we need to look at is the issue of religion and what it 
says should happen to formerly enslaved people.
    Mr. King. Then I am burning up the Committee's time beyond 
where I have already expressed my limits.
    I yield back to the Chairman. Thank you.
    Mr. Conyers. Could we get Professor Ogletree?
    Mr. King. I would be happy to do that.
    Mr. Conyers. Good.
    Mr. King. I just thought I had stretched your patience too 
far, Mr. Chairman.
    Mr. Ogletree. I think the government should take the 
responsibility of responding. That is what we did with the 
Japanese Americans in the 1988 Civil Rights Act. That is what 
the world expected countries to do with the Holocaust 
survivors, not always finding individual people responsible, 
but to the extent that the government was complicit, the 
government would take some responsibility, whether that would 
be financial or some other means.
    Mr. Conyers. I thank the gentleman.
    I would point out we are now beginning to work up a 
conflict here because we have another hearing that was supposed 
to have begun in this Committee room, and we have another panel 
to go. The Chair will have to be a little bit more stringent in 
the generosity of the time that he has allowed thus far.
    Mr. Scott. Will the gentleman yield?
    Mr. Conyers. I recognize the gentleman briefly.
    Mr. Scott. The hearing that was supposed to begin at 1 
o'clock will be delayed until the end of this hearing. So we 
will just continue on with this hearing, and the Crime 
Subcommittee will begin at the end of this hearing.
    Mr. Conyers. Well, that is very kind of the gentleman. I 
should be referring these things to him instead of making the 
decisions myself. I thank him very much for his generosity.
    The Chair recognizes Steve Cohen of Memphis.
    Mr. Cohen. Thank you, Mr. Chairman.
    Does anybody on the panel feel like it was a mistake for 
the United States Senate to apologize for lynching?
    Mr. Clegg, do you think it was a mistake to apologize for 
lynching when we did not know the lynchers or the lynchees, et 
cetera?
    Mr. Clegg. Well, I am trying to remember the specific 
facts, Congressman Cohen, at the time. Now, of course, the 
Senate was apologizing on behalf of itself; is that correct?
    Mr. Cohen. No. I think it was apologizing on behalf of the 
country. I do not think any Senators did much lynching.
    Mr. Clegg. Well, I do have a problem with that then. I do 
have a problem with that then, yes.
    Mr. Cohen. You do. Okay.
    Do you have a problem with the United States----
    Mr. Clegg. I think that in order to apologize, for me to 
apologize for something--it has to have been, in some sense, my 
fault. Otherwise----
    Mr. Cohen. It was the Nation's fault. The Nation permitted 
it to go on. The Nation acts for all of us. It is the, you 
know, cumulative deal.
    Mr. Clegg. See, to say that America now is going to 
apologize for things that individuals did some time ago----
    Mr. Cohen. Permitted by the government.
    Mr. Clegg. It could have been stopped, you say, had the 
Senate been more aggressive.
    As I say in my testimony, I think that that kind of apology 
is understood, unfortunately, as being an apology by some 
individuals because of actions done by other individuals with 
whom they have nothing in common except for the color of their 
skin, and I think that that is inconsistent with the principles 
that I was talking about earlier.
    Mr. Cohen. How about the apology that we ask the Japanese 
Government to give for having used comfort women in China? The 
House passed that unanimously. Was that a mistake?
    Mr. Clegg. Again, I am not familiar with the specifics.
    Mr. Cohen. All right. Let us stop it there. I have heard 
your response. We do have a limited amount of time.
    Was it a mistake for us to apologize to the Japanese we 
interned in World War II?
    Mr. Clegg. Well, now, there, again, it depends on whose 
behalf the apology was.
    Mr. Cohen. The country as a Nation.
    Mr. Clegg. The United States Government did the interning. 
So, for the United States Government to apologize, I think it 
would have been appropriate.
    Mr. Cohen. All right. Enslavery. The United States 
Government permitted slavery. They made it legal. While Mr. 
King's relatives, whoever they were, might have lost their 
lives in the war--and God bless them for participating--for 100 
years thereafter they made people unequal citizens. They could 
not get the same lawyer job as you got. They could not get the 
same business job as some White person got. For 100 years, we 
perpetrated, perpetuated that racism and that badge of slavery. 
It was a second class slavery, so to speak.
    Mr. Clegg. When you say ``we''----
    Mr. Cohen. We are a country.
    Mr. Clegg. Well, again, I do not look at it that way, and I 
think that the way that the bill is drafted suggests that one 
of the things that this commission is supposed to think about 
is whether there should be an apology by the United States 
Government on behalf of the American people to . . . and then 
it does not say to whom the apology is supposed to be made. I 
think that each step there raises a lot of questions. The 
United States Government now----
    Mr. Cohen. Professor Clegg, we have got a limited amount of 
time. I am going to stop you because I know where you are 
going. We can get Ann Landers or somebody to help us with to 
whom the apologies should be made. Those are formalities.
    Mr. Clegg. Well, I think it is pretty important.
    Mr. Cohen. Let me ask the bishop a question.
    Jesus was Jewish, was he not?
    Reverend Shaw. He was.
    Mr. Cohen. So he would have done Passover, would he not?
    Reverend Shaw. He would have.
    Mr. Cohen. At Passover, don't the Jews--and they still do 
it to this day--look back upon the time they were in bondage 
and reflect upon it and say, ``we should always be against 
putting people in bondage,'' and have concerns about people who 
were in slavery?
    Reverend Shaw. Yes, and I think it is a message that is 
repeated by the prophets and the Hebrew scripture over and over 
again.
    Mr. Cohen. So it is kind of a tough thing to come up with. 
What do you think Jesus would think about slavery? Would he 
have thought somewhere in 1965, 1,865 years later, that 
somebody forgot about the Passover sater and the Passover 
lessons? How would he have dealt with that?
    Reverend Shaw. Part of our baptismal covenant in the 
Episcopal Church is to respect the dignity of every human 
being, and that part of our covenant comes directly from the 
teachings of Jesus and Jesus' continual reminder to all of us 
that we should never forget, that always we should be calling 
from remembrance into reality.
    Mr. Cohen. I, as a Jewish person, find the Passover service 
to be my favorite holiday. It has got great eats, and it has 
also got a great story. It has got the story of the Jews having 
been enslaved, and forever after remember, and never forget 
about other people who were enslaved. I think that is part of 
what this is about. You know, there are differences on this 
panel on the theory of abortion, but I find it very difficult 
as a Jewish person whose ancestors were killed and enslaved 
during the Holocaust and as a person who represents many, many, 
many African Americans who were enslaved and killed along the 
passage to America, in America as slaves and then continually 
through Jim Crow kept as second class citizens.
    One thing is the issue about choice in Roe v. Wade, the 
freedom of a woman to make a decision concerning an embryo, and 
the other is the decision of a powerful government to kill and 
take freedom away. One gives freedom whether you think the 
person should have it or not. The other takes freedom and life 
away, and I think it is difficult to juxtaposition the two. You 
know, in the Jewish religion, life was not considered beginning 
until birth because so many children were aborted naturally, 
and it was to save the woman and the father from having the 
angst of the lost child that the child was not considered a 
child in being until birth.
    Mr. Conyers. The gentleman's time has expired.
    Mr. Cohen. Thank you, sir. I appreciate it, Mr. Chairman.
    Mr. Conyers. Finally, we turn to Darrell Issa and to Sheila 
Jackson Lee before we are summoned for another set of bells.
    The gentleman from California is recognized.
    Mr. Franks. Mr. Chairman, prior to that, I apologize to 
you, but at the request of the Ranking Member, I have to 
respectfully object to the participation of a noncommittee 
Subcommittee Member, as far as Ms. Jackson Lee, even though I 
say that in the greatest respect to the gentlelady.
    Mr. Conyers. Well, let us cross that bridge when we get to 
it. Let us recognize Darrell Issa right now. He is a legitimate 
Member and is entitled.
    Mr. Issa. Was I ever considered illegitimate?
    Mr. Conyers. Well, some Members are and some Members are 
not.
    Mr. Issa. Thank you, Mr. Chairman. Thanks for recognizing 
me. I am going to be brief, and will yield the remainder of the 
time to the Ranking Member. I just want to put out a 
perspective, to make an observation of today.
    I am the founding chairman or co-chairman of the Philippine 
Caucus, and General MacArthur promised the Filipinos, who 
fought with us in World War II, who helped push back and most 
of whom died, that they would be treated as any other GI. Two 
years later, the U.S. Congress in the Rescission Act voted that 
promise away, and it has not been kept. That is a promise in 
which the people promised it. The actual people who fought--the 
rangers, the scouts--they are still alive. So, although I think 
this is certainly an interesting exercise in reparations talk, 
I will tell you the Filipino community is only asking for 
reparations to the people accountable to that promise.
    I would hope that, if we go forward with the discussion of 
reparations, we are truly talking about reparations to the 
extent that somebody can be legitimately found to be the 
inheritor of that, remembering that the government takes 55 
percent off the top of inheritance in each generation. I hope 
that discussion does go on if this bill goes forward and if the 
commission goes forward.
    With that, I would yield the balance of my time to the 
Ranking Member.
    Mr. Franks. Well, thank you, sir. Thank you, Mr. Chairman. 
You know, Mr. Chairman, I guess I will just use the time here 
to try to respond to a few things that have been said.
    First, if I could--and forgive me. The gentlelady at the--I 
guess everyone has had trouble with her name.
    Mr. Conyers. Could you put your name tag in front of you, 
ma'am?
    Ms. Tyehimba. Oh, it fell.
    Mr. Conyers. Oh, that is what is giving us so much trouble.
    Mr. Franks. Let me just say, ma'am, I was very, very--your 
comments to me, I think, were entirely accurate, and I agreed 
with every word. Now, I will have to sequester that particular 
part of your statement because there were some other things 
that I disagreed with you on, but what you said to me, I think, 
is exactly right.
    One of the things you said is that this is about the value 
of human life, past and present, and I certainly do agree with 
that.
    Related to Mr. Cohen's comments, I guess it is important 
that he understands.You know, when he mentioned about the 
Passover, I am very familiar with the entire history of the 
Jewish people, and I believe that that was something that is 
very appropriate. You know, they acknowledged what had happened 
to them, and they promised that not only were they grateful to 
God that they were delivered from the slavery in Egypt but that 
they would work hard to make sure that their descendents were 
never enslaved again. I mean I have been on the top of Mt. 
Masada where they say that, you know, Israel will never fall 
again, that Masada will never fall again. So I believe that it 
is entirely appropriate to go back in our history and to 
acknowledge some of the things that have happened.
    I have to take Mr. Clegg's point of view related to the 
apology. The apology is something where you apologize that you 
have wronged another human being. You have done something 
wrong, and you are apologizing to them. I cannot apologize on 
behalf of Adolf Hitler. I can call him every name I can think 
of and say that he was a despicable excuse for a human being, 
but I cannot apologize for him. Only he can do that if he is 
anywhere where he can. So, I guess, the point is that I think 
that there might be at least something to think about.
    I do not offer this as a proposal, Mr. Chairman, but as at 
least something to think about that perhaps there could be some 
common ground in all of our coming together and saying, you 
know, whether it was the Holocaust in Germany or whether it was 
slavery or whether it is what I believe to be a modern day 
holocaust, in every case, the people ask a question or they 
should have. ``was the Black man a human being?'' our 
predecessors got that question very, very wrong, and it led to 
a tragedy that begs our description.
    When the Germans, the intelligentsia of Germany, asked the 
question ``Was the Jew a human being?'' they got that question 
very wrong. I would suggest to you that there was an inherent 
bias and that they deliberately came to the conclusion that 
they did because they felt that there was a selfish--as Ms. 
Tyehimba mentioned, that there was a greed factor, that there 
was a self-serving factor in coming to that conclusion.
    I think the same thing is true today related to abortion, 
that there is a self-serving factor here, and I do not mean 
that on the part of the woman. I would point to the abortion 
industry, which is now a Fortune 500 company, or would be if it 
were measured in those terms, in this country. I think there 
might be some advantage for us to come together and to say let 
us go back in our history and let us look at the examples and 
recognize the examples--acknowledge them, is the word--of where 
we failed to uphold the creed of this government that all men 
are created equal and endowed by their Creator, are given the 
gifts of God by their Creator of life.
    That is the first one. The reason I emphasis that so much, 
Mr. Cohen, is that without the right to live none of the others 
have any meaning whatsoever--and if we could go back and say 
that this is a place where we failed our fellow human beings 
and that from now on we are going to go forward and that we are 
not going to do that anymore.
    If we want to honor or repair the damage as best we can to 
those who suffered the holocaust of slavery--and I do believe 
it was a holocaust--if we want to repair that damage--I think 
if we could have them here on this panel today, what they would 
say more than anything else is do not let it happen to anybody 
else. It is too late. You cannot fix it for me, but you can 
make sure that it does not happen to my descendents. I think 
those might be some common ground things to follow.
    Once again, in every case these tragedies were because we 
as a human family failed to recognize the human dignity of some 
particular group or members of that human family, and we 
continue to do it today. Unless we change where we are going 
now, we will continue down that darkening path to where the 
survival of the fittest prevails and darkness prevails over 
humanity.
    So, Mr. Chairman, I yield back.
    Mr. Conyers. I thank the gentleman.
    I am pleased now to recognize the distinguished gentleman 
from Alabama, Mr. Artur Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    I apologize to Ms. Jackson Lee for getting ahead of her 
since I am on the Subcommittee. Let me try to make a couple 
points because I do want Ms. Jackson Lee to have ample time 
today. Mr. Clegg, I want to start with you.
    I know a lot of the conversation, a lot of the hearing 
today has revolved around you, but something that you said kind 
of caught my attention.
    In listening to you, you have had a lot to say today about 
de-linking the past from the present, and I thought about that 
a little bit in listening to you. Are you opposed to legacy 
admissions for colleges and universities?
    Mr. Clegg. For public universities, yes.
    Mr. Davis. Are you opposed to it for the Harvards and for 
the Yales of the world?
    Mr. Clegg. Well, I think that should be left to the 
Harvards and the Yales of the world.
    Mr. Davis. Are you morally opposed to it as a philosophical 
matter?
    Mr. Clegg. No.
    Mr. Davis. I am bothered by that.
    Professor Ogletree, this may be something you would want to 
weigh in on.
    Normally, sometimes you can grade people by consistency in 
their remarks, and sometimes people do not even bother to go 
through the charade of consistency. You have shown some effort 
to be consistent today.
    Mr. Clegg. Thank you.
    Mr. Davis. The problem with that is if you are consistent 
about wanting to separate the link between things that happened 
yesterday and today and if you are consistent about the 
proposition that what happened in another generation should not 
be binding or have relevance to us today, it would seem to me 
that a lot of your passion and a lot of your energy ought to be 
dedicated to the fact that you have an extra edge at getting in 
a Harvard or in a Yale or in a Princeton if your great granddad 
went there, particularly if your great granddad gave a lot of 
money. That strikes me, frankly, as being rather inconsistent 
with your point of view.
    Mr. Ogletree, would you like to comment on that, on whether 
you see a tension between legacy admissions at Ivy League 
schools in Mr. Clegg's argument?
    Mr. Ogletree. It is not just a philosophical but a personal 
question, and I will answer it from the personal point of view 
because, having gone to Stanford, which has a legacy plan and 
Harvard with that same sense of legacy, I just recount the 
story of my daughter who applied to Stanford and who got a 
letter saying, ``Congratulations. You are a legacy because your 
mother and father are graduates of Stanford.'' She resented 
that. Her point was, you know, are you looking at me or are you 
looking at my parents.
    Now, the irony is that and the reason that I am sort of 
unwilling to get rid of legacies is this: We have just arrived. 
We have just arrived in numbers where the first generation of 
African Americans, Latinos, Asian Americans, and Native 
Americans are graduating with children who are going to these 
institutions. I will bet you that, as affirmative action has 
disappeared, legacies will be next because guess who is at the 
door. Over 50 percent of Stanford's entering class are students 
of color.
    So even though we are taking things away, are we taking 
away things that make some sense? Is it going to stop the 
Packards and Hewletts and the millions for Stanford or is going 
to impact more directly the first generation or the second 
generation of those going to these institutions? That is why I 
think the history is important.
    Mr. Davis. Let me just make this observation.
    Regardless of what happens in the future with legacy 
admissions, there had been a longstanding practice of legacy 
admissions way before Charles Ogletree's daughter was a 
possible candidate.
    Mr. Ogletree. That is why history is important.
    Mr. Davis. Right.
    Mr. Ogletree. That is why we have to look back. It worked 
for everybody else.
    Mr. Davis. Right.
    Mr. Ogletree. We should not disconnect the past with the 
present.
    Mr. Davis. It worked for everybody else in a way that did 
not, frankly, draw a significant amount of a program or in a 
way that did not draw the kind of philosophic critique that is 
attached to the kind of thing that Mr. Conyers is trying to do.
    Mr. Ogletree. Right.
    Mr. Davis. The second observation----
    Mr. Clegg. Racial discrimination is quite different from 
any other kind of discrimination.
    Mr. Davis. Well, the second observation I want to make----
    Mr. Ogletree. Well, it is racial discrimination in the 
sense that the people who are legacies are largely not people 
who are African American, Native American, Latino or Asian 
American.
    Mr. Davis. The second observation I want to make----
    Mr. Clegg. As you say, though, that is not true now.
    Go ahead.
    Mr. Davis. The second observation that I want to make has 
to do with a line of questions Mr. King was pursuing with you, 
Professor Ogletree, that dealt with the question of language 
and the Constitution and the value of removing it. I want to 
relate that, for just my last seconds of time here, to my State 
of Alabama.
    Twice in this decade, we have had a referendum in the State 
of Alabama that dealt with cleansing language from the Alabama 
Constitution. In 2000, there was a referendum on language in 
the Constitution that banned marriages between Black 
individuals and White individuals. In 2003--or 2004, rather--
there was a referendum that dealt with language that could have 
been interpreted as allowing segregation in the State schools. 
There was a very strong effort to remove the offensive 
language.
    A lot of people on the other side of the argument sounded a 
little bit like Mr. King. Their argument was, well, interracial 
marriage bans have not been enforceable since Loving v. 
Virginia. School segregation has not been the law of the land 
since Brown. This argument advanced. Well, why go back and feel 
the need to cleanse out language when the language is no longer 
operative?
    Frankly, the point that was made to them was if a document 
that purports to speak to all of us--if a document that 
purports to speak to our sense of----
    Mr. Conyers. The gentleman's time has expired.
    Mr. Davis. May I finish my sentence, Mr. Chairman?
    Mr. Conyers. Absolutely.
    Mr. Davis. If a document that purports to speak to our 
sense of national community on its own terms debunks that 
notion and undercuts the idea of community, it is always worthy 
of being changed and cleansed.
    So while I did not hear the full benefit of Mr. King's 
argument, so that struck me as relevant information.
    Mr. Conyers. I thank the gentleman.
    All time has expired. This panel has been very, very 
contributive to the discussion. I thank each and every one of 
you.
    I am going to now call the second panel, and I would like 
those persons to----
    Ms. Jackson Lee. Mr. Chairman, is there any time I can be 
yielded? No?
    Mr. Conyers. Well, of course not. There is nobody here to 
yield you the time. Their time has expired.
    Ms. Jackson Lee. Okay. Thank you, Mr. Chairman.
    Mr. Conyers. You are welcome.
    All right. Will the witnesses quickly take their places? I 
thank the second panel.
    The first witness is my dear friend of the family, JoAnn 
Watson, a University of Michigan graduate. I do not know how 
she figured in on the discussion about Harvard's and 
Princeton's having these prerogatives when their children go to 
school and apply there, but she serves with great distinction 
as member of the Detroit City Council, and she is presenting 
testimony not only on her own behalf but on that of Ray 
Jenkins, the gentleman who has pressed this Member into 
numerous discussions about a study bill on reparations for many 
years.
    Ms. Watson, Councilwoman Watson, was a delegate to the 
United Nations World Conference on Racism in Durban, South 
Africa. She is President of the National Anti-Klan Network and 
the Center for Democratic Renewal. Prior to her service as a 
member of the city council, she served as public liaison for my 
office.
    We welcome you, Councilmember JoAnn Watson. Your testimony, 
like everyone else's, will be recorded and reproduced in its 
entirety in the record. You may take time to summarize your 
statement or to make any other comments you choose.

           TESTIMONY OF THE HONORABLE JOANN WATSON, 
              COUNCIL MEMBER, DETROIT CITY COUNCIL

    Ms. Watson. Thank you very much, Mr. Chairman. I want to 
thank you in a very special way and tell you how proud I am to 
be one of your constituents and to come from the City of 
Detroit, where you have represented us with such distinction 
for so many years, Mr. Chairman. I thank you for being the 
sponsor of H.R. 40 since 1989.
    I am here today to represent ``Reparations'' Ray Jenkins, 
who is considered the Moses of the Reparations Movement in the 
City of Detroit, and some see him that way nationally. He has 
asked that I speak for him today, and he is hoping that, if the 
Chairman and the Committee--this august Committee--are 
determined to have multiple hearings, he is hopeful that there 
might be one in Detroit where he could speak personally to this 
august body.
    Your role has been significant and substantive, and has 
given a great weight to the discussion that has taken place 
already today. I am also proud as a native Detroiter, 
nationalist, and Pan African, to acknowledge the legacy of 
ancestral Detroiters like Chris Alston, who first discovered 
our archival records, documenting the work of Mrs. Callie House 
and her courageous organizing and her advocacy for reparations, 
or pensions, as she founded the National Ex-slave Mutual 
Relief, Bounty and Pension Association. She was wrongfully 
indicted and imprisoned by this country with fraudulent claims 
of mail fraud, but the government's persecution did not stop 
her brave, African, warrior self from filing a class action 
lawsuit against the U.S. Government on behalf of Africans who 
had been immorally enslaved in this country.
    It is important that we also note that another Detroit area 
ancestor, Reverend Milton Henry, along with his brother, Dr. 
Imari Obadele, formerly known as Richard Henry, was one of the 
founders of the Republic of New Afrika in Detroit, who was 
counsel to Malcolm X and who recorded Malcolm X's voice. He 
provided a sacred, spiritual sustenance regularly on the 
righteousness of reparations, using the Old Testament Numbers 
5:5 as a scriptural basis for reparations
    To quote Reverend Milton Henry, ``When you have taken that 
which does not belong to you, God's law is that you return it 
plus a fifth thereof,'' unquote.
    Certainly, there is the Honorable Elijah Muhammad, the 
founder of the Nation of Islam in Detroit; the significance of 
the Shrine of the Black Madonna founded by Jaramogi Abebe 
Agyeman in Detroit; and people like Queen Mother Rosa Parks, 
who spent more years in Detroit than she spent in Montgomery, 
Alabama. She was an active attendee of N'COBRA, and supported 
the Reparations Movement. In fact, she attended a national 
N'COBRA convention in Detroit. There is Kwame Atta, the late 
Kwame Atta, now an ancestor, a strong supporter and fundraiser 
along with ``Reparations'' Ray Jenkins. All of these shoulders 
we stand on today.
    As we address the topic of reparations in the U.S., it is 
constructive to use the Reconstruction as one of our backdrops. 
If we look specifically at George H. White, the last African 
American Reconstruction Congressman and the last African who 
had been enslaved to sit in the House, we note that Congressman 
White was born in Rosindale, North Carolina. He was a graduate 
of Howard University. He studied medicine, and then he studied 
law and passed the North Carolina Bar. He was elected in 1896, 
and was reelected in 1898. He was able to obtain back pay for 
Black Civil War veterans, but his colleagues refused even to 
hear a Federal anti-lynching bill.
    During his last speech in January 1901, Congressman White 
said, ``This, Mr. Chairman, is perhaps our temporary farewell 
to the American Congress.''
    These parting words are on behalf of an outraged, 
heartbroken, bruised, and bleeding but God-fearing people full 
of potential force. It would be nearly 30 years before the next 
African American, Oscar de Priest of Chicago, would be elected 
to the United States House of Representatives in 1929.
    If Congressman White or Callie House could offer testimony 
on the issue of reparations today, they would certainly attest 
to the fact that Africans never received 40 acres. On March 
3rd, 1865, weeks before the end of the Civil War and almost a 
year prior to the ratification of the 13th amendment, the 
Freedmen's Bureau was created by an act of Congress. According 
to section 4 of the first Freedmen's Bureau Act, this agency 
``shall have authority to set apart for use of loyal refugees 
and freedmen such tracts of land within the insurrectionary 
States as shall have been abandoned or to which the United 
States shall have acquired title by confiscation or sale or 
otherwise; and to every male citizen, whether refugee or 
freedman, as aforesaid, there shall be assigned not more than 
40 acres of land.'' As has already been discussed, this was 
breached and violated by this country.
    In January 1865, General William Tecumseh Sherman had 
previously issued orders to General Rufus Saxton to divide land 
into 40-acre tracts and to distribute them to freedmen after 
the creation of the Freedmen's Bureau in 1865. Just 2 months 
later, however, after the assassination of President Abraham 
Lincoln, President Andrew Johnson issued an Executive Order to 
eliminate support for the Freedmen's Bureau, and he reneged on 
the promises and on the commitments that had been negotiated by 
abolitionist statesman Frederick Douglas in discussions with 
President Lincoln.
    Mr. Conyers. Could the gentlelady--I beg her continuing 
apology--conclude?
    Ms. Watson. Yes, I will.
    Mr. Conyers. Our time is going rapidly.
    Ms. Watson. Yes, sir.
    The Civil Rights Redress Act has already been addressed, 
which was passed in 1988. I have submitted written testimony 
about the legal precedence that has already been set for 
reparations paid to others. It should be noted that reparations 
for Africans has not only been an issue cited by Africans in 
America but also a significant point of discussion by Africans 
on the continent.
    We support the passage of H.R. 40. When it is passed, we 
urge that the study will give consideration for the current day 
equivalent of the dollars paid to an examination of what was 
paid to the persons who lost the Civil War. There should be 
consideration of what was paid to those who lost the Civil War. 
They received compensation and land.
    We ask that there be a special look at taxes, colleges, the 
release of African Americans who have been political prisoners. 
We ask that there be a special look at the significance of 
health care and at the significant role of Africans who have 
preserved the United States. In the United States, most of our 
schoolchildren and many people in this room may not be aware 
that it is African descendents who have maintained this U.S. as 
the U.S. The North was losing until the engagement of Africans 
in the Civil War. We support the immediate passage of H.R. 40.
    We thank you very much, Mr. Chairman, for your kind 
consideration and to this Committee.
    [The prepared statement of Ms. Watson follows:]
            Prepared Statement of the Honorable JoAnn Watson
    I am JoAnn Watson, City Councilwoman, Detroit City Council. I am 
pleased to be here today before the subcommittee to testify on Legacy 
of the Trans-Atlantic Slave Trade.
    I would like to thank you, Mr. Chairman, for inviting us to testify 
today. I also want to thank you, Ms. Lofgren, Mr. Berman, and other 
members of the Committee for your leadership over the years on this 
important and vital humanitarian issue.
    Our purpose in testifying today is to provide the perspective of 
the Trans-Atlantic Slave Trade.''
    As we address the topic of reparations in the United States, it is 
instructive to use the Reconstruction era as one of our backdrops. Let 
us look specifically at George H. White, the last African American 
Reconstruction congressman and the last African who had been enslaved 
to sit in the House. Congressman White was born in Rosindale, North 
Carolina, and was a graduate of Howard University. White studied law 
privately. He represented North Carolina's Second Congressional 
District and was elected in 1896 and reelected in 1898. Nor 
surprisingly, Congressman White found it difficult to make his mark in 
Congress. He was able to obtain back pay for Black Civil War veterans, 
for ample, but his colleagues refused even to hear his federal 
antilynching bill.
    During his last speech, in January 1901, Congressman White said, 
``This, Mr. Chairman, is perhaps the Negro's temporary farewell to the 
American Congress. These parting words are on behalf of an outraged, 
heartbroken, bruised and bleeding, but God-fearing people . . . full of 
potential force.'' It would be more than twenty-five years before the 
next African American, Oscar De Priest, of Chicago, Illinois, was 
elected to the United States House of Representatives.
    If Congressman White could offer testimony on the issue of 
reparations today, he would certainly attest to the fact that Blacks 
never received forty acres and a mule in the aftermath of the signing 
of the Emancipation Proclamation. On March 3, 1865, weeks before the 
end of the Civil War, and almost a year prior to the ratification of 
the Thirteenth Amendment, the Freedmen's Bureau was created by an act 
of Congress. According to Section 4 of the first Freedmen's Bureau Act, 
this agency ``shall have authority to set apart for use of local 
refugees and Freedmen such tracts of land within the insurrectionary 
states as shall have been abandoned or to which the United States shall 
have acquired title by confiscation or sale, or otherwise; and to every 
male citizen, whether refugee or Freeman, as aforesaid there shall be 
assigned not more than forty acres of land.'' This portion of the 
Freedmen's Bureau Act (introduced by Congressman Thaddeus Stevens) was 
defeated by Congress on February 5, 1866, by a vote of 126 to 36 
because many thought that it would disenfranchise white landowners who 
had been defeated in the Civil War. Land that had been distributed to 
Freedman was reclaimed by the federal government and routed to the 
enslavers (who had lost the Civil War, fought for the Confederacy, and 
had already benefited unjustly from the unpaid labor of Africans).
    In January 1865, General William Tecumseh Sherman had previously 
issued orders to General Rufus Saxton to divide land into forty-acre 
tracts and distribute them to
    freedmen after the creation of the Freedmen's Bureau in 1985. Just 
two months later, after the assassination of President Abraham Lincoln, 
President Andrew Johnson revoked the executive office's support for the 
Freedmen's Bureau and reneged on promises and commitments that had been 
negotiated by abolitionist/statesmen Frederick Douglas in discussions 
with President Lincoln.
    I believe that one of the best-kept secrets among Civil War 
historians is that the Union was losing to the Confederacy until 
enslaved Africans joined the Civil War to fight for the Union. As 
President Lincoln discussed the matter of introducing Africans who had 
been held in bondage to fight for the Union, Douglas strongly advocated 
on behalf of the Emancipation Proclamation, the Freedmen's Bureau, the 
provision of land to the newly freed Africans, and the adoption of the 
Thirteenth Amendment. Among the resources utilized to bring victory to 
the Union was Harriet Tubman, the renowned General of the Underground 
Railroad, who served as a scout during the Civil War conducting 
dangerous reconnaissance missions.
    Upon learning that President Andrew Johnson had rescinded the order 
authorizing the Freedmen's Bureau Act and the distribution of land to 
freedmen, General Saxton wrote the following communique to the 
commissioner of the Freedmen's Bureau, Oliver O. Howard: ``The lands 
which have been taken possession of by this bureau have been solemnly 
pledged to the Freedmen . . . it is of vital importance that our 
promises made to Freedmen should be faithfully kept . . . the Freedmen 
were promised the protection of the government, with the approval of 
the War Department . . . more than 40,000 Freedmen have been provided 
with homes under its promises . . . I cannot break faith with them now 
by recommending the restoration of any of these lands. In my opinion 
the order of General Sherman is as binding as a statute.'' Saxton's 
pleas were to no avail, however, as thousands of Freedmen were removed 
by force from land that had been granted by Congress and ordered by 
Sherman. This was done during the same period that witnessed the 1865 
emergence of the Ku Klux Klan's unspeakable violent episodes targeting 
the newly freed Africans and President Johnson's removal of all federal 
protections guaranteeing the safety and protection of Africans in 
America.
    The freedmen of the period included luminaries like Bishop Henry 
McNeal Turner, who had served as a chaplain in the Union Army. Bishop 
Turner was convinced that the U.S. federal government had betrayed 
African descendants. He was among many who publicly called for 
reparations, and he never forgave the nation for what he considered 
disgraceful ingratitude to Blacks who had built the wealth of the 
nation with unpaid labor and who had served the nation with courageous 
military valor during the Civil War. Years later, when he felt his last 
days were near, Bishop Turner transported himself to Canada, to assure 
that his remains would not be placed in American soil. (This was eerily 
prescient of W.E.B. Du Bois's decision, nearly a century later, to move 
to Accra, Ghana, and become a Ghanaian citizen, abandoning his life-
long work to assure that the United States would honor its ideals and 
constitutional protections to it citizens of African descent.)
    As the ranking Democrat on the House Judiciary Committee, as the 
dean of the Congressional Black Caucus, and as the longest-serving 
African American and the second-most senior member of the House of 
Representatives, I believe it is vitally important that we look toward 
legislative remedies as a vehicle for addressing the critical issue of 
reparations for African Americans, just as legislative remedies have 
been approved for the redress of others. The United Nations World 
Conference Against Racism, held in Durban, South Africa, in August and 
September of 2001 declared that the Transatlantic Slave Trade was a 
crime against humanity, and should always have been so; which sets the 
proper stage for the timely consideration of H.R. 40, the Reparations 
Study Bill, which I have introduced every year since 1989. The UN World 
Conference Against Racism was also another tragic reminder of the deep 
moral flaws that have been etched into the fabric of America as the 
United States formally walked out of this historic gathering days later 
walked into a terrorist attack on its own shores.
    I believe it is vitally important that we look toward legislative 
remedies as a priority in the reparations movement not only to provide 
a level of redress for Africans who were enslaved but also to recognize 
the forces of legalized disparity that disenfranchised people of 
African descent, like Congressman White, after the signing of the 
Emancipation Proclamation and which continue to institutionalize racist 
policies and practices until this present day. We have gotten far too 
comfortable in accepting poverty, crime, and adolescent pregnancy as 
Black and their opposites as White. We have failed to trace the lineage 
of both of these economic conditions to slavery and its aftermath.
    Why was a bill introduced to study reparations? H.R.40--the 
Reparations Study Bill--was introduced in 1989, first and foremost, 
because of the request that I do so by Reparations Ray Jenkins, who is 
one of my constituents, a self-employed businessman, precinct delegate, 
and longtime community activist. Reparations Ray had been an advocate 
and proponent of reparations for African Americans for many years, and 
had become a fixture in community-based meetings, assemblies, church 
gatherings, and NAACP functions as a person who has been singularly 
committed to the priority of reparations as an issue for people of 
African descent.
    After the introduction of the Civil Rights Redress Act, which paved 
the way for reparations awarded to Japanese Americans who had been 
illegally and immorally detained during World War II for three years, 
it seemed to be an appropriate juncture for the introduction of 
legislation to study reparations for African Americans, to address 
possible remedies and redress related to those victimized by the 
pandemic horrors of the Transatlantic Slave Trade and the long-term 
residual impact of institutional racism that has persisted among 
African descendants through Jim Crow segregation, hate crime terrors of 
lynching and cross burning, and the disparate practices and policies of 
the prison industry, which in many ways has begun to reenslave 
Africans, who are disproportionately incarcerated and performing slave 
labor under the oppressive structure of disparate sentences. Persons of 
African origin are 13 percent of America's population but account for 
more than 52 percent of America's 2 million prison population, 
notwithstanding the reality that Blacks are no more predisposed toward 
behavior than any other population.
    One of the other important factors for the introduction of H.R.40 
was the inescapable reality that legal precedence had long been 
established reality that legal precedence had long been established 
relative to the appropriateness of reparations by governmental entities 
in response to government-sanctioned human rights violations. For 
example, in 1990, the United States Congress and the President of the 
United States signed the Civil Rights Redress Act into Law, to lay the 
framework for $1.2 billion ($20,000 each) paid to Japanese Americans 
and a Letter of Apology as a federal redress to recognize the human, 
economic, and moral damage inflicted upon a class of people for a 
three-year period. Also in 1990, Austria paid $25 million to Jewish 
Holocaust survivors for its role in the genocidal Nazi regime during 
World War II; in 1988, Canada gave $230 million to Japanese Americans; 
in 1986, the United States paid $32 million to honor the 1836 treaty 
with the Ottawas of Michigan; in 1985, the United States gave $105 
million to the Sioux of South Dakota; in 1980, the United States gave 
$81 million to the Klamaths of Oregon; in 1971, the United States gave 
$1 billion plus 44 million acres of land to honor the Alaska Natives 
land settlement; in 1952, Germany paid $822 million to Jewish Holocaust 
survivors in the German Jewish Settlement--just to cite some historical 
backdrops of legal precedence that has been established.
    Further, it should be noted that reparations for Africans has not 
only been an issue cited by Africans in America but also a significant 
point of discussion and action by Africans on the continent of Africa, 
James Dennis Akumu, former secretary-general of the Organization of 
African Trade Union Unity, states: ``If you see the arguments the 
British are advancing in Zimbabwe and whites insisting on owning land 
and resources in Namibia, South Africa, and other parts of the 
continent, you can only come to the conclusion that in their minds, 
Africans should remain their slaves and should not own their own land 
and mineral resources.'' Akumu continues to press the point, ``African 
labor and looted African wealth built these strong Western economies. 
Therefore, what we are claiming is what our people contributed to 
substantially, and is, therefore, rightfully ours.''

    Mr. Conyers. We thank the councilwoman.
    When we return, we will hear from the American Bar 
Association President Elect, from the distinguished Winthrop 
Professor of History at Harvard University and from the 
Assistant Professor of law at St. Louis University School of 
Law.
    We will stand in recess until we have completed our vote on 
the floor.
    [Recess.]
    Mr. Conyers. The Committee will come to order.
    We are delighted to have Mr. Thomas Wells, Jr., a partner 
of Maynard, Cooper & Gale in Birmingham, Alabama. He served as 
the ABA's policymaking House of Delegates since the year 1991, 
and he was cochair of the ABA's Special Committee on Disaster 
Response, which was commissioned after Hurricane Katrina.
    As this Committee often looks to the ABA for guidance in 
advancing sound legal policy, we look forward to hearing from 
Mr. Wells on the issues that bring us here today. He is, of 
course, the President Elect of the American Bar Association, 
and we give him congratulations in that area as well. We will 
incorporate his full testimony into the record at this point 
and invite him to make his testimony.
    Welcome, sir.

 TESTIMONY OF H. THOMAS WELLS, JR., PRESIDENT-ELECT, AMERICAN 
                        BAR ASSOCIATION

    Mr. Wells. Thank you, Mr. Chairman.
    My name is Tommy Wells. I am a partner and a founding 
member of the law firm of Maynard, Cooper & Gale in Birmingham, 
Alabama. I am currently serving as the President-Elect of the 
American Bar Association. As such, I will become the President 
of the ABA in August of 2008.
    I am here today at the request of our current President, 
William Neukom, of Seattle, Washington, to present the news of 
the ABA. He sends his regrets that he was unable to attend this 
hearing.
    Mr. Chairman, the ABA supports the principle of H.R. 40, 
authorizing the establishment of a federally funded commission 
to study the impact of slavery on the social, political and 
economic life of our Nation. The objectives of H.R. 40 are 
consistent with ABA policy, adopted in 2006 by our policymaking 
House of Delegates. We support the enactment of legislation to 
create and to appropriate funds for a commission to study and 
to make findings relating to the present day consequences of 
slavery and to the subsequent denial of equal justice under law 
for persons of African descent living in the United States.
    More than 4 million Africans and their descendents were 
enslaved in the colonies that were to become the United States 
and, later, in the United States from 1619 to 1865. After the 
Civil War, the Nation ratified three constitutional amendments 
espousing principles of equality and full citizenship for all 
Americans, but the post-Reconstruction era marked by Jim Crow 
laws at the local level, all the way up to the Supreme Court in 
its Plessy v. Ferguson decision, demonstrated how racism and 
racial bias could manipulate the justice system to undermine 
these constitutional principles and could perpetuate widespread 
oppression.
    By the early part of the 20th century, there came to be two 
Americas--one that could rely on the rule of law and one that 
could not. Particularly egregious was the scourge of lynching. 
Lynch mobs murdered nearly 5,000 African American men, women 
and children and caused thousands more African Americans to 
lose property, employment and any means of support for their 
families.
    Though legally sanctioned racial discrimination has 
crumbled in the past 50 years, concerns remain regarding the 
effect today on the social, political and economic conditions 
for African Americans. As Justice Ginsburg stated in her 
concurring opinion in the 2003 U.S. Supreme Court decision in 
Grutter v. Bollinger, it is well-documented that conscious and 
unconscious race bias, even rank discrimination based on race, 
remain alive in our land, impeding the realization of our 
highest values and ideals.
    President George W. Bush stated in his Katrina speech in 
New Orleans ``Poverty has roots in a history of racial 
discrimination which cut off generations from the opportunity 
of America.'' We have a duty to confront this poverty with bold 
action. I suggest, Mr. Chairman, that the passage of H.R. 40 
would be the bold action that President Bush was speaking of in 
September of 2005.
    In a major address to the American Bar Association in 2004, 
Justice Kennedy stated, nationwide, more than 40 percent of the 
prison population consists of African American inmates. About 
10 percent of African American men in their mid to late 20's 
are behind bars. In some cities, more than 50 percent of young 
African American men are under the supervision of the criminal 
justice system.
    The causes of these and other disparities require greater 
understanding if we are to address them with viable solutions. 
The question is not whether we need a commission like the one 
proposed in H.R. 40. The question is why have we waited so long 
to establish one.
    Like the country as a whole, the ABA also has had a painful 
past. When our association was established almost 130 years 
ago, African Americans were denied membership. In fact, in 
1925, the National Bar Association was formed by 100 Black 
attorneys who had been denied ABA membership. We have, however, 
made strides to try to put our own house in order. We have 
created the ABA Center for Racial and Ethnic Diversity, which 
is empowered to make regular reports and recommendations to 
help guide the Association. This continuing process is having 
positive effects on the diversity and on the inclusiveness, not 
only of our Association but of the more than 400,000 attorneys 
and legal professionals and the legal profession as a whole.
    In 2003, my friend, the Honorable Dennis Archer of Detroit, 
Michigan, became our first African American President. I was 
honored to serve with President Archer, as the Chair of the ABA 
House of Delegates, during his tenure as President of our 
Association. President Archer was immediately followed in 2004 
by our second African American President, Robert Grey of 
Richmond, Virginia, another good friend of mine.
    In summary, Mr. Chair, I want to reiterate the American Bar 
Association's support, in principle, for H.R. 40. Thank you for 
the opportunity to convey the American Bar Association's views 
on this important topic.
    [The prepared statement of Mr. Wells follows:]
               Prepared Statement of H. Thomas Wells, Jr.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Conyers. Thank you so much. I am glad you recall the 
rather amazing phenomena of the ABA's having two consecutive 
African American leaders of this distinguished legal 
organization. I appreciate your contribution and the continued 
relationship that this Committee has with the American Bar 
Association.
    Professor Stephan Thernstrom is the Winthrop Professor of 
History at Harvard University. He recently coauthored with his 
wife No Excuses: Closing the Racial Gap in Learning. The 
professor received his undergraduate degree from Northwestern 
University, his Ph.D. from Harvard, and he has been with this 
Committee before. We welcome him back again and look forward to 
hearing from him today.
    Your statement will be included in its entirety in the 
record.

TESTIMONY OF STEPHAN THERNSTROM, WINTHROP PROFESSOR OF HISTORY, 
                       HARVARD UNIVERSITY

    Mr. Thernstrom. Thank you very much, Mr. Chairman and 
distinguished Committee Members, for giving me the opportunity 
to appear. I have filed written testimony, and will not try to 
rehash it here because a number of statements that have come to 
my attention since I wrote it, I think, merit some comment.
    I will begin with a point I began with in that statement, 
though, which is that I would disagree with Professor Miller, 
who said in his written statement that reparations is now in 
the mainstream of American discourse about race. That probably 
is true in rarified academic precincts, but it certainly is not 
true among the general American public.
    I cite as evidence the most recent poll I have seen 
sponsored by the NAACP, an organization which is not opposed to 
reparations, which found that over 90 percent of Whites, 
Latinos and Asians in the United States were, in the words of 
the language of the NAACP's report, ``fervently opposed'' to 
the idea of ``paying money to African Americans whose ancestors 
were slaves.'' So even if the commission which is being 
proposed to study this matter issues a brilliantly persuasive 
report, I can say with great assurance that this will be an 
enormously controversial and divisive measure.
    I share the views of my colleague Roger Clegg that it will 
not be a healing one, and indeed, if reparations were to be 
confined to people who could prove discent from former slaves, 
it might be bitterly divisive within the African American 
community, dividing those who receive these benefits from those 
who do not.
    Second, I recognize this is only a proposal to study the 
matter, but I have a couple of observations about that.
    First, there is no topic that has been more intensively 
studied in the social sciences over the past 50 years than the 
condition of the African American population. There is an 
enormous literature, it continues to grow by leaps and bounds, 
there continues to be great controversy, and I am sure the 
reigning views will be modified as new research accumulates. So 
I find it very hard to think that a commission of seven people 
who could not possibly have mastered all of this voluminous 
literature will arrive at some meaningful consensus that will 
alter public opinion to any great extent.
    And, of course, I must be a little cynical here. The 
results of the commission will depend entirely on who is put 
upon it. Let me remind you that the Dred Scott decision, which 
was referred to earlier today, was the work of a commission of 
sorts, a permanent commission called the Supreme Court of the 
United States; and yet the result of its deliberations do not 
look very good today.
    And if the composition of the commission were to mirror the 
composition of the witness list for this hearing, of course the 
outcome is foregone. There is very little doubt that a large-
scale reparations program would be recommended, provoking, I 
think, great public outcry.
    Now, as a historian, I have listened to the historical 
comments made in this hearing with interest and the historical 
material in the supporting documents; and I do find some 
serious flaws in them that I think one would have to consider 
in making judgments about these matters.
    Ms. Tyehimba, for example, contends that the trans-Atlantic 
slaves trade was the beginning of a genocidal war against 
Africans. And this is a rather curious formulation. And, 
likewise, that Africans were ``kidnapped.'' I believe the 
Chairman used that term today. Well, who did the kidnapping? 
Who captured them, marched them to port and sold them to 
European slave traders? The answer is Africans, and the African 
governments of the parts of Africa in which the slave trade 
occurred. So there is plenty of moral culpability to go around 
here, and it is hardly confined to Europeans.
    Then I want to mention some remarks that appeared in a memo 
prepared by the Committee, prepared by the Democratic staff, 
which refers to the Federal Government as, quote, ``the entity 
that sanctioned the slave trade and slavery for over 200 
years.'' And I thought, 200 years, hmm, 1865, so that gets us 
back to 1665. What Federal Government do the authors of this 
document have in mind? Even in 1765, I would say we had no 
Federal Government in the United States. We were a colony of 
Great Britain with no representation.
    Mr. Conyers. I am sorry to tell you your time has 
considerably expired, Professor.
    Mr. Thernstrom. I thought I had 5 minutes?
    Mr. Conyers. You did, but you can make a concluding 
thought, if you choose.
    Mr. Thernstrom. Well, I would simply say, in conclusion, 
that so much of the questioning today seems to involve issues 
of contemporary alleged discrimination which certainly is well 
within the powers of Congress to deal with. If there is 
discrimination in real estate lending or automobile sales or 
whatever it is, there is an abundant literature, much of it 
produced by the Federal Government, on every one of these 
things, and legislation to make that anti-discrimination 
protection more effective I would certainly welcome. That is a 
radically different thing than taking a whole sector of the 
population distinguished by race and saying this is all the 
result of slavery and we are going to make up for it somehow. 
We could pass good legislation that protects all Americans from 
discrimination without singling out African Americans as a 
special victim class.
    Mr. Conyers. Thank you, sir. Thank you very much.
    [The prepared statement of Mr. Thernstrom follows:]
                Prepared Statement of Stephan Thernstrom
    Mr. Chairman and distinguished Committee members, thank you for the 
opportunity to testify this morning.
    My name is Stephan Thernstrom. I am the Winthrop Professor of 
History at Harvard University. I have been researching, writing, and 
teaching courses on the subject of race and ethnicity in the American 
past for almost my entire professional career.
    Today you have solicited testimony concerning a bill to create a 
``Commission to Study Reparation Proposals for African-Americans.'' The 
notion of paying reparations for the descendants of slaves is nothing 
new. What is new--and I think very unwise--is that the House of 
Representatives is now considering taking the first step towards 
implementing an actual reparations program.
    I am rather surprised at this development, because the idea of 
reparations is far outside of the mainstream of American thinking. If 
you doubt that generalization, consider the findings of a 2005 National 
Opinion Research Center survey, sponsored, it should be noted, by the 
NAACP. Asked their opinion of ``paying money to African Americans whose 
ancestors were slaves,'' over 90 percent of whites, Latinos, and Asians 
were ``fervently'' opposed. One third of the blacks in the sample 
rejected the idea as well, despite the fact that they had a powerful 
financial incentive to approve it. Other polls reveal the same 
overwhelming opposition. It is hard to imagine a more unpopular and 
divisive proposal than reparations for crimes committed by some of our 
ancestors in the very distant past.
    The simple math suggests good reasons for opposing such 
reparations. Close to 40 million African Americans live in the United 
States today. If almost all of them are to be compensated, as the 
language of the bill implies, a grant of a hardly life-changing $10,000 
apiece works out to be a heady $400 billion; a more generous $100,000, 
which some advocates have proposed, gets you to a staggering $4 
trillion, about a third of the current annual Gross Domestic Product!
    Of course, this bill does not call for an appropriation in the 
mega-billions. It only proposes to ``study'' the issue. But we all know 
that the composition of a commission determines the outcome. If the 
proposed commission has the same balance as today's slate of witnesses, 
it will obviously endorse a reparations program by a lopsided margin.
    Devoting $8 million of taxpayer money to ``study'' such a radical 
idea will surely attract a good deal of unfavorable public attention. 
In the absence of an astonishing reversal of public opinion, a future 
commission report recommending a large-scale compensatory transfer of 
wealth to members of one racial group will almost certainly provoke 
popular outrage.
    No one doubts ``the fundamental injustice, cruelty, brutality, and 
inhumanity'' of slavery in the United States and everywhere else it 
existed--including, let us note, Africa, where slavery was widespread 
long before Europeans first reached its shores. Africans, it should be 
underscored, played a vital role in both the transatlantic and the 
equally large Mediterranean slave trades, which could not have existed 
without their active engagement.
    But no nation in the world has a history free of what later came to 
be understood as inequities and injustices--the displacement of 
indigenous peoples, the denial of fundamental rights to women, and the 
use of child labor, for instance. The past, here and everywhere, is 
grossly imperfect by later standards. In democratic societies, when 
public opinion was aroused against practices that had come to be seen 
as morally offensive, they were eliminated. In the case of African 
Americans, this nation fought an exceedingly bloody four-year civil war 
provoked by the election of a president committed to the ``ultimate 
extinction'' of slavery. A century later, the legal foundation of the 
South's Jim Crow system was destroyed by all three branches of the 
federal government. Virtually all of the specific demands made by 
groups like the Southern Christian Leadership Conference became the law 
of the land, and there was general consensus that this was a great 
moral advance.
    Now, four decades later, the proponents of this bill declare that 
the Civil Rights Revolution and ongoing efforts to secure racial 
equality have not gone nearly far enough. The framers of this bill 
assume that African Americans continue to suffer from the ill effects 
of being remote descendants of people who were enslaved no more 
recently than 142 years ago, six or seven generations back. Like 
victims of drunk drivers or medical malpractice, they can only be 
``made whole'' by a substantial cash award.
    How are Americans today responsible for the evils of slavery long 
ago? The individuals who profited directly from slavery and might 
logically be expected to pay back their ill-gotten gains were the 
owners of slaves who sold the cotton they produced. Those slave-
owners--who were a small minority of the population even in the South--
are all dead today, of course, and so too are all of their children and 
just about all of their grandchildren. We can't confiscate their riches 
to pay for reparations; much of that wealth in fact went up in smoke as 
a result of a great civil war over slavery.
    Some proponents of reparations, though, attempt to link 
responsibility for the slavery of the past to present-day Americans by 
arguing that slavery was primarily responsible for the economic growth 
that led to our current high standard of living. We all gained 
economically from slavery, this claim goes, so we all owe restitution 
to its victims. Some even argue that the United States today would be a 
Third World nation economically but for slavery.
    This is utter nonsense. The Industrial Revolution that began in the 
northern states in the second third of the nineteenth century launched 
the economic transformation that accounts for our riches today. 
Although slavery made many slave-owners wealthy in the antebellum 
years, it actually retarded our long-term economic growth. It was 
responsible for the backward, one-crop cotton economy that hung on in 
southern states for many decades after the Civil War and made the South 
by far the poorest region of the nation until after World War Two. The 
backward South was a serious drag on the national economy for close to 
a century; its initial dependence upon slavery put it into a 
developmental dead-end. We would likely enjoy a higher, not a lower, 
living standard today if the South had never developed a slave-based 
plantation economy. Americans today are not the beneficiaries of the 
exploitative labor system of the South in the antebellum years--nor, 
naturally, can they be considered responsible for it.
    Most Americans today have no connection to the era of slavery. They 
have no ancestors who lived in the nation at the time, and yet they 
will be paying for reparations. All of my immigrant ancestors were 
still living in Sweden or Canada when the Thirteenth Amendment was 
passed and cannot be said to have endorsed slavery by settling in a 
nation in which it was once legal. As of 1990, according to one 
demographic study, one-third of the American population consisted of 
people who had no ancestor who arrived here before 1900. If we could 
add to that figure all of the immigrants who arrived between 1865 and 
1900, as well as those who came after 1990, the descendants of post-
Civil War immigrants would be a clear majority of the total population. 
Hardly any of today's Asian Americans, and very few Italians, Poles, 
Greeks, Jews, and Mexicans have ancestors who lived in a nation with 
slavery.
    This bill assumes that the social problems that afflict African 
Americans today should be understood as having been caused by slavery. 
The case for reparations rests upon this premise, but supporting 
evidence is woefully lacking. Of course one can argue that African 
American culture was forged in slavery, and that everything that has 
happened to black Americans since Emancipation was shaped by that 
bitter experience. But attributing all of the problems of black people 
today to such ancient history is fatalistic, defeatist, and too vague a 
claim to prove.
    The principal source of black poverty today, for example, is 
African American family structure. One-paycheck families (or zero-
paycheck families who are dependent upon public assistance) are far 
more likely to fall into poverty than two-parent, two-paycheck 
families. Blaming African-American out-of-wedlock births and absent 
fathers upon an institution that disappeared 142 years ago makes little 
sense. This problem, after all, is much worse in 2007 than it was 1965, 
when Senator Daniel Patrick Moynihan wrote his controversial report on 
black family structure. The more we move back in time towards the days 
of slavery, the lower the rate of fatherless families among African 
Americans. If slavery were the explanation of this dysfunctional family 
pattern, we would see much higher rates a century ago than today.
    Similarly, the average black seventeen-year-old has reading and 
math skills equal to those of whites and Asians in the 8th grade, a 
glaring disparity that is the single most important reason for 
persistent economic inequality. Over the past four decades, this 
disturbing achievement gap narrowed considerably, then widened enough 
to wipe out the previous gains, and then narrowed again. Slavery could 
certainly not be the cause; with the passage of each year its influence 
should be weaker.
    Trying to find social science evidence to prove a causal link 
between slavery and the ills that influence the black community today 
is a hopelessly difficult task. How would the effects of slavery be 
transmitted to successive generations? Should we expect African 
Americans with only one ancestor who was a slave in 1865 to be better 
off than those whose pre-1865 ancestors were all slaves? The current 
black population includes large numbers of people born in the West 
Indies or Africa, whose ancestors never experienced slavery in the U.S. 
but who may have married persons whose ancestors had. Do they get full 
or only partial reparations payments? What about the small but rapidly 
growing group of people with one white and one black parent? Would 
being of mixed race cut their claim by 50 percent? Eligibility for 
membership in some American Indian tribes today depends upon the 
``blood quantum'' of Indian ancestry you can prove. If proving how much 
slave ``blood'' one has will determine the size of one's reparations, 
the likely result will be deep resentments among blacks who receive 
different awards.
    The bill compounds the confusion here by throwing in references to 
having been subject to de jure or even de facto segregation as part of 
the rationale for reparations. If we cast the net widely enough to 
include Haitian or Nigerian immigrants who attended Fisk, Morehouse, or 
Howard in the 1980s--all racially identifiable institutions and thus 
``segregated'' de facto, then all black people will be eligible, and 
the link to slavery in the United States will be attenuated to the 
vanishing point.
    Finally, I would urge the members of this subcommittee and the 
House of Representatives as a whole to ponder carefully the message 
that will be conveyed by the passage of this bill. ``When you are 
behind in a footrace,'' the Reverend Martin Luther King, Jr. said in 
1963, ``the only way to get ahead is to run faster than the man in 
front of you. So when your white roommate says he's tired and goes to 
sleep, you stay up and burn the midnight oil.'' Dr. King's words 
reflect an important tradition of self-reliance that has had eloquent 
advocates in the black community: Frederick Douglass, Booker T. 
Washington, and W.E.B. Du Bois, among others. All were saying, in their 
different ways, that black people were not the helpless pawns of 
history who could do nothing to better their lives until America owned 
up to its historical sins and offered them a generous financial 
settlement. Their point is as important today as ever.
    This committee is now considering a measure that delivers quite a 
different message: ``If you're having trouble with your homework, don't 
sweat it. It's not your fault. You had ancestors who toiled as slaves 
in Alabama before the Civil War, and what they experienced so long ago 
means that you naturally will find it hard to master differential 
equations and compound sentences. You have been damaged by American 
history, and are a victim. Why burn the midnight oil? You won't have a 
fair chance of getting ahead in life unless you are able to collect 
damages for the wrongs that were inflicted on your great, great 
grandparents.'' I can't think of a worse message to send to African 
American youths. The past is past, and nothing Congress or anyone else 
can do can change it.
    This is not an argument for legislative inaction. Congress can 
properly deal with present-day problems. If racial discrimination 
remains a major problem today, as the framers of this bill assume, then 
we need to strengthen our formidable body of anti-discrimination law or 
do a better job of enforcing existing ones. That would be action 
precisely targeted to address demonstrable harms that have clearly 
identifiable causes and remedies, something completely different from 
what is being proposed here.
    In sum, this proposed legislation seems to me profoundly misguided. 
The great Civil Rights Act of 1964 protected all Americans from 
discrimination on the basis of race, color, religion, sex, or national 
origin. It rested upon the powerful universal principle that every 
American is entitled to fair and equal treatment as an individual. The 
concept of reparations is a radical and regrettable departure from that 
sound principle.

    Mr. Conyers. Our final witness is from St. Louis University 
Law School, Professor Eric Miller, who, before joining the 
faculty there, was a Fellow with the Harvard Criminal Justice 
Institute and the Harvard Civil Rights project, as well as 
professor at Western New England College School of Law. He 
specializes in historically significant race-based acts of 
violence such as lynchings and riots.
    Not too long ago, we both had the opportunity to present at 
the Thomas Jefferson School of Law in California, let us see, 
was it Sacra----
    Mr. Miller. San Diego.
    Mr. Conyers [continuing]. San Diego, California, on a 
discussion of this same subject.
    We are very happy to welcome him here to the Judiciary 
Committee. And, without objection, your full statement will be 
recorded in the proceedings here; and you may begin.

 TESTIMONY OF PROFESSOR ERIC J. MILLER, ASSISTANT PROFESSOR OF 
           LAW, SAINT LOUIS UNIVERSITY SCHOOL OF LAW

    Mr. Miller. Thank you, Chairman.
    My name is Eric Miller, and I am an assistant professor of 
law at St. Louis University School of Law, and I am honored by 
the Committee's request that I testify at this very important 
hearing on the Legacy of the Transatlantic Slave Trade.
    I would like to begin by saying that I think Professor 
Thernstrom's claim that the panel would come out a particular 
way is wrong, because I don't actually quite know where I would 
necessarily come out on reparations. In fact, my work has been 
cited in dismissing a slavery case in the Northern District of 
California by Judge Nagle, so I don't know that that claim is 
totally accurate.
    In the short time available I want to make the following 
five points:
    First, that there is still much about the history of 
slavery that remains to be discovered and talked about.
    Second, that the national government is ceding the 
initiative and acknowledging accounting for and acting upon 
that history to a variety of State and municipal governments 
and a variety of public and private institutions.
    Third, rather than adopting a confrontational posture 
seeking to apportion blame or deny responsibility, we need to 
refine our national discussion of race.
    Fourth, the first stage of that process is now somewhat 
uncontroversial, as most Americans acknowledge the invidious 
nature of slavery and segregation and its pernicious effects.
    But, fifth, we require to progress to the next stages, 
including accurately accounting for that history and exploring 
its impact upon the present with an open mind, one that 
respects both historical fact and competing claims to community 
and equality of consideration in the membership of the American 
polity.
    Now, whether Professor Thernstrom likes it or not, 
reparations is part of the mainstream dialogue of America, 
although I acknowledge that large numbers of people don't like 
that. So one decides to discuss it on Fox TV, Chris Rock on the 
HBO show, and there was a great discussion of reparations in 
the major motion picture Friday--no, Barber Shop. So people are 
talking about it.
    But a major impediment in our national debate upon race is 
a purely confrontational model that, on the one side, tends to 
focus solely on establishing and seeking financial redress from 
some duty or by Whites to Blacks for the wrong of slavery and, 
on the other side, seeks to blame African Americans for the 
lingering effects of racism or, in the words of Roger Clegg in 
the previous panel, claims that African Americans seek 
preferences or special treatments. That is echoing the majority 
opinion in Plessy v. Ferguson that African Americans seek to be 
the special favorites of the law.
    Rather than perpetuate this confrontational model, we must 
adopt a broader understanding of the types of harms inflicted 
by slavery and segregation. These harms are not singular but 
plural, affecting a range of communities at different times and 
in different ways.
    Recent State-sponsored commissions looking at slavery and 
segregation and studies by the Universities of Alabama and 
North Carolina, as well as, as we heard in the last panel by 
the Episcopal Church, have produced apologies for their ties to 
slavery. There have also--and I think Congressman Franks will 
be interested in this--been apologies from North Carolina, 
South Carolina, Oregon and Virginia for the eugenics programs 
that participated in the sterilization of African American 
women and some of these programs running into the mid-1980's.
    The conversation stimulated by these initiatives invite a 
process of interrogating the basis of our shared community as 
Americans. We need to account for the ways in which the 
Federal, State and local governments have profited off or 
promoted slavery and segregation. These investigations seek to 
chart the ways in which national, State and local communities 
have consolidated their civic identities in response to acts of 
racial violence both during and after the era of slavery. At a 
minimum, they seek to explore the effects that slavery and 
segregation played in establishing the relative social 
inequality of African Americans as compared to other racial or 
ethnic groups.
    To fail to acknowledge and account for America's history is 
to ignore and reject past and continuing experiences of a huge 
segment of the population. It is to perpetuate the treatment of 
African Americans as somehow less interesting or less worthy 
than other citizens.
    Justice Kennedy in a last-term Supreme Court case, Parents 
Involved in Community Schools versus Seattle School District, 
recently suggested that an injury stemming from racial 
prejudice can hurt as much when the demeaning treatment based 
on race identity stems from bias masked deep within the social 
order as when it is imposed by law.
    Congressman Conyers' efforts to raise awareness of this 
issue and to promote the study of this issue through H.R. 40 
are rightly celebrated. It is time that Congress join the 
various states, municipalities, universities and private 
organizations investigating the invidious legacy of the slave 
trade so as to promote frank and open-minded discussions of the 
impact of slavery on race in America.
    The question is not whether to look forward. That is 
indeed, as the last panel suggested, an American talent. But 
every nation, including the most forward-looking, still reveres 
its past. The real question is whether we as a Nation are to 
selectively confine a part of our shared history to the past or 
whether to move forward as one Nation indivisible under God.
    Thank you, Congressman.
    Mr. Conyers. Thank you so much, Mr. Miller. Good to see you 
again.
    [The prepared statement of Mr. Miller follows:]
                  Prepared Statement of Eric J. Miller
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Conyers. We had some questions, Professor Thernstrom, 
about your comment about a Democratic staff memo, which I 
wanted you to know I take exception to it, and I will be able 
to contact you about it. I don't want to spend my little 5 
minutes parsing over that.
    And you said a Chairman made some comment about kidnapping. 
And I am not sure if that--was that me you were referring to?
    Mr. Thernstrom. Yes. If I understand correctly, you used 
that term.
    Mr. Conyers. Well, I take exception to that, too. And of 
course we have got a stenographer here, so we will clear all 
those kinds of questions up.
    I would like to ask in the few minutes I have remaining, 
Councilwoman Watson, this almost begins to sound like what the 
commission would be doing. Now, everybody is telling me how 
much material is out there. It would take quite a--I mean, this 
Judiciary Committee is I think the most active full Committee 
in the Congress. We had legislation being reported on the floor 
today that I couldn't even get to. We had two hearings, one is 
backed up right now, and this is the way our work week goes.
    We have got a lot of work. There is a lot of people in the 
executive branch being examined. The Department of Justice is 
in shambles. It goes on and on and on and on.
    What do you get out of this--and I thank you for coming. 
What do you get out of this today in terms of how we ought to 
be looking at how we might want to proceed?
    Because there is a feeling that we are going to create more 
division by talking about this subject. I have never created 
division on the subject of race in my life. I mean, that is 
about the last thing I would like to do. And as one who has 
worked on race relations as about--spent as much investment of 
my time as anybody else, I think that we could go about this. I 
don't think the commissioners--and, besides, I don't know what 
they are going to produce. I may end up not in agreement with 
their work product myself.
    It is hard to predict where we are going. But at least the 
discussion, this discussion, is invaluable. It will be the 
first time people are hearing it.
    So I want to ask you and the ABA President elect to give me 
a comment or two before the lights go off.
    Ms. Watson. Thank you, Mr. Chairman.
    I appreciate your comments very much, and I agree with you 
in terms of the discussion. The discussion is rich; and, as one 
who has been actively involved in the movement for decades, I 
am still learning and my own research is unfolding new 
information every day.
    I only found out 2 years ago that profits from the slave 
trade helped to finance the war of 1812, helped to provide the 
basis for this country to double its size with the Louisiana 
Purchase. I just found that out 2 years ago. That the money 
that Thomas Jefferson used, Thomas Jefferson who wrote that all 
men are created equal, was also a person that thought he had 
the right to own other persons. He was an enslaver and Thomas 
Jefferson negotiated the Louisiana Purchase with revenue that 
in part came from profits directly from the slave trade. And 
this is a matter of public record.
    So when one considers all the information that really needs 
to be unearthed for all Americans--it is not something that is 
just valuable to people of African decent. The whole country 
needs the shade to go up. All Americans need to know the full 
history of this country. Because the truth is we are one 
family, one human family; and it is National Geographic, not 
the NAACP, not N'COBRA, that said that all human life started 
on the continent of Africa.
    So if that is so, all of us are of African descent, all of 
us are God's children, so if we begin to see ourselves as one 
human family, then that takes us to another level. It gives us 
room to move forward as one family on behalf of the entire 
Nation to bring forth new information, Mr. Chairman.
    Mr. Conyers. Could I yield to Trent Franks? Because I think 
we have a point of agreement here; and, after all, that is what 
the hearings are about.
    Ms. Watson. Yes, sir.
    Mr. Franks. Mr. Chairman, as far as all of us being one 
human family, is that the point that you are asking me to 
address?
    Mr. Conyers. Well, no. I just noticed you and I shaking our 
head in affirmation. I don't know which points we were in 
agreement on.
    Mr. Franks. I think the gentlelady's comment that we are 
all one human family and that we have great value in 
considering our history and what mistakes we have made in the 
past and how we have wronged each other in the past so that at 
least can prevent that from happening in the future, and that 
is something I agree. I may disagree with some of the 
conclusions or, you know, the remedies here, but I do 
desperately agree with some of the foundations that are being 
laid here.
    Mr. Conyers. Thank you.
    And, President-Elect of the Bar, would you give me a 
closing comment, please?
    Mr. Wells. I will be glad to, Mr. Chairman.
    You know, one question that comes up is what is the 
business of the Bar Association in taking a position on this 
issue? And I will tell you what the reason for the position is. 
The American Bar Association is vitally interested in the 
American justice system. We are vitally interested in the 
American criminal justice system. You have heard many 
statistics today indicating very clearly that disparities exist 
in our criminal justice system, the statement that I quoted 
from Justice Anthony Kennedy in his address to the American Bar 
Association in San Francisco which led the ABA to set up what 
we call the Kennedy Commission.
    Mr. Conyers. I was there.
    Mr. Wells. And the reason we support this is we need to 
know why there are those disparities, and one of the reasons 
may be the legacy of slavery and racial discrimination. If in 
fact that is one of the reasons for the disparities, then and 
only then can we begin to craft viable solutions to those 
disparities. So it is the business of American lawyers to make 
our justice system more just, and that is the reason we are 
here testifying today.
    Mr. Conyers. Thank you.
    Trent Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Mr. Chairman, this has been a very interesting discussion 
here, and I appreciate your forbearance that you have given me.
    Because I just want to say here at the outset you try to 
find the places of common ground that you have and then I will 
talk about maybe some of the differences. But I have no doubt 
that some of the difficulties today within the African American 
community--there is no question in my mind that slavery had a 
lasting systemic effect on that community. I have no doubt 
about that. That is really, in my judgment, though, not what is 
at issue.
    There is a lot of tragedies. My great-grandmother was a 
Cherokee Indian, and she went through a lot of tragedies due to 
some of the policies that were in place at that time.
    But my concern here is the remedy. The apology here--I 
think maybe an acknowledgement would be in order. I think maybe 
some way to gain from the failures of the past so that we can 
fix what we can in the future. Because I think the only way we 
can truly honor those who were so desperately treated was to 
somehow make sure that their descendants are not treated the 
same way.
    Now, let me, if I can, I want to make a--I think that is 
probably my central point here today. I believe that the 
tragedy of slavery was caused by a failure to recognize what 
Ms. Watson said, and that was that we are all one human family. 
That when we leave anyone out of that equation that we step 
into a terrible nightmare.
    The reason that I have equated to a degree here slavery 
with abortion on demand and with the Holocaust in Germany is 
because I think they have a lot of things in common. In each 
case they are closely associated with a Supreme Court decision. 
The High Tribunal of Germany said the Jew was not human, he was 
untermensch. The Supreme Court of the United States said the 
unborn child was not included in the word ``person'' in the 
Constitution. The Dred Scott decision said that the Black man 
was not a person under the Constitution. In every one of those 
cases, it perpetuated or instigated a great tragedy that cost 
millions of lives. And the response to that was also a 
commonality. In every case, there was a world war or a civil 
war. And I don't know what will happen in the future related to 
abortion on demand, but the commonality is unavoidable.
    Now, I think the point here is that we must not be guilty 
of making the mistakes of our predecessors. What possessed them 
in retrospect to hold a Black man not a person is beyond me. 
What possessed the intelligentsia of Germany to hold the Jews 
not a person is beyond me. What possesses us today to hold a 
child not a person is beyond me.
    I would respond to Mr. Cohen's--I wish he were here. He 
said, well, the difference is that one is a choice. But I 
remind him that, in the discussions between Abraham Lincoln and 
Justice Judge Douglas, Judge Douglas made the argument, he 
said, well, I am not pro slavery. I just want people to have 
that right.
    There was a play many years ago where Justice Taney, who 
was a Supreme Court Justice under Abraham Lincoln, one of the 
players probably quoted him in a probably a pretty artistic 
license, but he said this. I remember the quote. He said, the 
abolitionist doesn't understand one thing. Slavery is not 
compulsory. If he has some moral dilemma with owning slaves, we 
suggest therefore that he not own them. But he should not 
impose his morality upon those of us who do or otherwise 
interfere with our right to choose.
    Now, that could be yesterday's headline. It is a false 
argument. Because the little boy next to the mom said, well, 
what is wrong with that statement? He said, well, mommy, the 
slave is a human being. It is astonishing to me how God gives 
children the insight to see the obvious but withholds it from 
Supreme Court Justices sometimes.
    Mr. Conyers. Could the gentleman yield for 1 second?
    Mr. Franks. Certainly.
    Mr. Conyers. How about racism being a reason for slavery?
    Mr. Franks. Well, I absolutely believe that racism was a 
reason for slavery. But racism is saying to the person, because 
of the color of their skin, that you are not fully equal to me. 
That is racism. That is what it is. Absolutely. The gentleman 
is correct.
    And I would just say to you--let me shift gears here. One 
of the reasons I keep talking about this issue is that 14 
percent of child-bearing women today are Black, but yet they 
account for 31 percent of abortions. For every three Black 
children that are born, two are aborted. I find that to be a 
moral outrage beyond my ability to articulate here today. If 
there is anything that is an attack on the African American 
community, it has got to be that. There were 4 million slaves, 
and yet since Roe v. Wade 10 million unborn children that were 
African American, Black children, 10 million of them have been 
killed before they were born. They didn't get a chance to even 
be enslaved because they were killed before they even saw the 
light of day.
    Mr. Conyers. Will the gentleman yield for just one moment?
    Mr. Franks. Yes, sir.
    Mr. Conyers. There were women on the slave ships that threw 
their children overboard rather than let them ever grow up----
    Mr. Franks. The Chairman is exactly correct.
    Mr. Conyers [continuing]. Adults under slavery. That is a 
choice that----
    Mr. Franks. But it was still the wrong choice, and it is a 
choice that shouldn't be legal in a country that upholds the 
value of innocent human life.
    So let me just close things up. One of the things that 
happened--in each of these cases, the country was divided. But 
one thing that happened in this country, as much as our 
government was responsible for allowing slavery, Mr. Chairman, 
we finally came to ourselves and we said we are not going to do 
it anymore and this government also changed that. And that is 
one of the reasons I think America is set apart. But we forget 
maybe why.
    A lady by the name of Harriet Beecher Stowe wrote a book 
called Uncle Tom's Cabin. She said she had a dream about a 
slave that was being beaten, by his masters beating him to 
death, and he was praying for them as he was being beaten to 
death. And that story caused her to write this book that 
touched the conscience of America. And we ended this horrifying 
practice that has still--still is a crushing mark on America's 
history.
    And I am just saying to you that I pray that somehow today 
we can come to the same conclusion, that we don't have to make 
the past mistakes again. Let us get together and let us say 
whatever it was, whether it was slavery, whether it was 
abortion on demand, whether it was attacking people because of 
their Irish ancestry, whatever it was, when we dehumanize 
another person, especially in the law, this society, this 
generation, this human family must stand up and change that so 
that we don't perpetuate the tragedies of the past.
    Mr. Chairman, I yield back.
    Mr. Conyers. I thank the gentleman very much.
    Does any of the--Attorney Miller, Ms. Watson, briefly, your 
comments; and then we will turn to the gentleman from Minnesota 
for the final interrogation.
    Mr. Miller. Thank you very much for giving me the 
opportunity to respond.
    Can I just say howheartened I am to hear the passionate 
engagement in this discussion by Congressman Franks. And the 
terms in which he engages in this discussion, I think that is a 
deeply heartening development.
    One point that is worth making is that many African 
American women weren't even given the right to choose whether 
to abort or not abort because of laws enforcing sterilization. 
So that many African American women, just by virtue of going to 
a hospital to get an operation, were given forced 
hysterectomies. And that is a history that does go back through 
the eugenics movement into slavery where the science of 
gynecology was developed in Alabama, actually--there is a 
little plaque on the wall of a building in Montgomery, 
Alabama--through practicing on slaves. So that is a relatively 
direct link.
    So to the extent that Congressman Franks has suggested that 
it is worth acknowledging that history, I am deeply heartened; 
and to the extent that this Committee is drawing out the 
commonalities in the discussion across party lines and across 
philosophical lines, I find that deeply heartening and commend 
the Committee.
    Mr. Conyers. Councilwoman Watson.
    Ms. Watson. Thank you very much, Mr. Chairman.
    I just want to say that, as a person who has been involved 
in multiple movements for a long time--I am very active in the 
women's movement, peace movement, et cetera, so I have had a 
lot of discussions and have been in the business of talking 
about pro and con and abortions, immigration, the crack cocaine 
disparity, gay marriages, et cetera.
    But on the issue of the legacy of the trans-Atlantic slave 
trade and given that 246 years of Africans working, being 
lynched, tortured, drawn and quartered, African women having 
babies cut out of their stomach and having no one to appeal on 
their behalf, being killed if they dared to read and write when 
it was against the law for Africans to read and write during 
that period, given the wealth of this country that got built 
off the backs--including the U.S. Capitol being built by 
Africans who never got paid--it didn't just benefit the 
enslavers in the South. The entire Nation benefited.
    This deserves a special discussion and review and 
commission without being forced to share the podium with 
another equally passionate issue for some. There has not been a 
hearing before the U.S. Congress on the issue of reparations 
and the crime against humanity. There was a trans-Atlantic 
slave trade as declared by the United Nations World Conference 
Against Racism in 2001 before today.
    So I just want to say for the record I am going stay 
centered on the significance of this without passing any 
aspersion on other issues. This deserves a focal point because 
this was the purpose of today's hearing.
    And I thank you very much, Mr. Chairman.
    Mr. Conyers. Well, this is a hearing on whether we should 
have a study that would come before an examination of 
reparations. Because we don't know where the study is going to 
go. And, presumably, it would gather the large amount of 
evidence that is already out there, which we 30 some odd men 
and women aren't in any position to try to gather and pull 
together. And the thought was that it would be more efficiently 
done for the whole Congress if we had somebody do it for us, 
and it is no more complicated or simple than that.
    I thank the gentlelady and recognize Keith Ellison as the 
final Member.
    Mr. Ellison. Thank you, Mr. Chairman.
    Professor Thernstrom, thank you for your presentation. I 
want to thank all the panel members.
    I think you and Mr. Clegg in the earlier panel pointed out 
that there have been a number of studies out there on various 
aspects of African American life in history. Could you identify 
for me--because I am very interested in reading it. Could you 
identify for me the study that has been issued by a government 
commission, Federal Government commission, that explored the 
trans-Atlantic slave trade and its impact on modern African 
American life? If you could just cite that study for me, maybe 
we don't need to do any of this. Could you do that for me, 
please?
    Mr. Thernstrom. Well, Congressman, I would say there is no 
such study by the Federal Government.
    Mr. Ellison. Thank you.
    Mr. Thernstrom. I don't see how---
    Mr. Ellison. I do have to reclaim my time.
    Thank you, Professor Thernstrom; and I also want to thank 
you for your very direct answer. Because people sometimes 
filibuster. So I do thank you for your direct answer. There is 
no such study out there, and I think that kind of makes the 
case for me.
    Let me ask you this, also, Professor Thernstrom. You have 
identified one of the potential harms of such a commission and 
study as it could be divisive. Have you found that the 
exploration and subsequent payment of even reparations, which 
this bill doesn't even ask for, it is just a study bill, but 
the study and subsequent payment of reparations to Japanese 
Americans has alienated them from American society?
    Mr. Thernstrom. Well, no, I think there are grave 
differences.
    Mr. Ellison. Okay. Thank you, sir.
    What about--I think there have been other communities that 
received reparations around the world. Ms. Watson, have the 
studies--have the other cases on which reparations has actually 
been found to be due and owing and paid--of course this bill 
doesn't go that far, right--have they alienated those 
communities which have received reparations?
    And why confine ourselves to America? I know that Germany 
paid reparations to Jews, and there have been other reparatory 
provisions around the world as a result of conflict between 
people. Have these heightened disputes between people or what 
has been the effect?
    Ms. Watson. Mr. Chair?
    The record includes $25 million paid by Austria to Jewish 
Holocaust survivors. We know about the $20,000 each to Japanese 
Americans and a letter of apology. The United States gave $1 
billion plus 44 million acres of land to honor the Alaska 
native land settlement in 1952. Germany paid $82.2 million to 
Jewish Holocaust survivors in the Germany Jewish settlement. 
The Ottawas of Michigan in 1985 received $105 million. The 
Sioux of South Dakota received the same. In 1980, the United 
States gave $81 million to the Klamath of Oregon. And there is 
a long list.
    Mr. Ellison. Have those payments worked to further alienate 
those recipients from American society? Are we now--I guess--to 
answer your question, I guess you are saying no, right? But I 
guess there is precedent. But I think there is concern that 
this is going to somehow harm America because digging up all 
this old stuff is just going to make us less interested in 
being part of America.
    Ms. Watson. Some of the largest reparations aren't called 
reparations. The Homestead Act was reparations for White male 
property owners. So that is part of what the study would need 
to unearth.
    Mr. Ellison. Are they alienated from the mainstream of 
American society?
    Ms. Watson. White males?
    Mr. Ellison. Yes.
    Ms. Watson. I don't think so.
    Mr. Ellison. They are doing okay?
    Mr. Miller, what do you think about this question of 
dividing America by exploring reparations? Does that carry any 
water with you that looking into this issue is going to somehow 
fracture our country?
    Mr. Miller. It depends how it is done. If it is done 
responsibly, the answer is no. I think there has been a drawing 
of battle lines around the concept of--around a misconception 
of what reparations might be about. And what part of my 
scholarship is doing and what the work of some of the other 
panelists has been is to get us past that toxic ``he said, she 
said'' style of debate and instead develop a more inclusive 
debate that points to people like Congressman King's 
grandfather or interrogates what is a role of John Brown in 
American history and honors everybody in the discussion, rather 
than prejudging what the outcome is going to be in terms of 
even whether there ought to be a payment, should it be 
education of whatever.
    Mr. Ellison. I would just like to point this out, if I have 
any more time. Earlier this year, a fairly controversial bill 
came up about whether or not the U.S. Congress would find that 
somehow the Armenian people were the target of genocide in the 
precursor country to Turkey, which would have been the Ottoman 
Empire, a very controversial issue. And without going into what 
the final outcome would or should or could be--because, of 
course, we never had that vote--some people said, well, you 
know, it would harm Turkey to have this discussion.
    But one Turkish person said to me, he said, it wouldn't 
harm us to find that our ancestors had done some things that we 
are not proud of. That is just a human condition. But what 
harms us is just not really facing it and acknowledging it and 
dealing with those harms. And we might find very well that 
there was some members of the Turkish community who behaved 
very admirably, and we may find that there may have been some 
people in the Armenian community that did some things that we 
are not too proud of either.
    It is really not a ``blame shame'' thing. It really is 
about coming to grips with our own history and understanding 
that slavery is not something that happened to Black people, it 
is something that happened to all of Americans, everybody. And 
we all in one way or another--I even read some stories about 
African Americans who owned slaves in America.
    And Professor Thernstrom's point about finding out--if we 
explore this subject we might find that Africans themselves 
were implicated in slave trade, I don't think that should stop 
us at all from going forward. They very well were likely to be 
involved, and I am sure the study would confirm your suspicion 
that some were. But I think that there is a tremendous value in 
exploring in a nation dedicated to freedom and justice and 
equality this state of unfreedom and anti-freedom that existed 
for so many years among us.
    Mr. Conyers. This has been such a tremendous initial 
conversation. It is historic.
    I thank Congressman Franks, Congressman Ellison who has 
been with me all morning and all of you who have been here.
    Councilwoman Watson, President Wells, Professor Thernstrom, 
Attorney Miller, you have our dedicated appreciation of us 
beginning this conversation.
    I think we are going to examine each other's positions, and 
I think we are going to be moving forward in a way that will 
create a history that will make us proud of what we are 
attempting to do here. I have appreciated the inner changes, 
and this is how things happen or ought to happen in the 
Congress. They don't always happen this way, nor in the courts, 
as has been pointed out more than once.
    I thank you all, and the Committee is adjourned.
    [Whereupon, at 2:43 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
